<html>
<title> - WINNING TEAMS AND INNOVATIVE TECHNOLOGIES FROM THE 2005 SOLAR DECATHLON</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




                           WINNING TEAMS AND
                      INNOVATIVE TECHNOLOGIES FROM
                        THE 2005 SOLAR DECATHLON

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 2, 2005

                               __________

                           Serial No. 109-30

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
24-150PS                WASHINGTON : 2006
________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY
                                 ------                                

                         Subcommittee on Energy

                     JUDY BIGGERT, Illinois, Chair
RALPH M. HALL, Texas                 MICHAEL M. HONDA, California
CURT WELDON, Pennsylvania            LYNN C. WOOLSEY, California
ROSCOE G. BARTLETT, Maryland         LINCOLN DAVIS, Tennessee
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
W. TODD AKIN, Missouri               EDDIE BERNICE JOHNSON, Texas
JO BONNER, Alabama                   DANIEL LIPINSKI, Illinois
BOB INGLIS, South Carolina           JIM MATHESON, Utah
DAVE G. REICHERT, Washington         SHEILA JACKSON LEE, Texas
MICHAEL E. SODREL, Indiana           BRAD SHERMAN, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan  AL GREEN, Texas
VACANCY                                  
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
               KEVIN CARROLL Subcommittee Staff Director
          DAHLIA SOKOLOV Republican Professional Staff Member
           CHARLES COOKE Democratic Professional Staff Member
                    MIKE HOLLAND Chairman's Designee
                     COLIN HUBBELL Staff Assistant



                            C O N T E N T S

                            November 2, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Judy Biggert, Chairman, Subcommittee 
  on Energy, Committee on Science, U.S. House of Representatives.    11
    Written Statement............................................    12

Statement by Representative Michael M. Honda, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    13
    Written Statement............................................    14

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy, Committee on Science, U.S. House of 
  Representatives................................................    15

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    15

Prepared Statement by Representative Daniel Lipinski, Member, 
  Subcommittee on Energy, Committee on Science, U.S. House of 
  Representatives................................................    16

                               Witnesses:

Mr. Richard F. Moorer, Deputy Assistant Secretary for Technology 
  Development, Office of Energy Efficiency and Renewable Energy, 
  U.S. Department of Energy
    Oral Statement...............................................    17
    Written Statement............................................    18
    Biography....................................................    21

Mr. Robert P. Schubert, Professor and Team Faculty Coordinator, 
  College of Architecture and Urban Studies, Virginia Polytechnic 
  Institute
    Oral Statement...............................................    21
    Written Statement............................................    24
    Biography....................................................    26

Mr. Jeffrey R. Lyng, Graduate Student and Team Project Manager, 
  Civil, Environmental, and Architectural Engineering, University 
  of Colorado
    Oral Statement...............................................    27
    Written Statement............................................    29
    Biography....................................................    33

Mr. Jonathan R. Knowles, Professor and Team Faculty Advisor, 
  Department of Architecture, Rhode Island School of Design
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    39

Mr. David G. Schieren, Graduate Student and Energy Team Leader, 
  Energy Management, New York Institute of Technology
    Oral Statement...............................................    39
    Written Statement............................................    41
    Biography....................................................    46

Discussion.......................................................    46

             Appendix 1: Answers to Post-Hearing Questions

Mr. Richard F. Moorer, Deputy Assistant Secretary for Technology 
  Development, Office of Energy Efficiency and Renewable Energy, 
  U.S. Department of Energy......................................    58

Mr. Robert P. Schubert, Professor and Team Faculty Coordinator, 
  College of Architecture and Urban Studies, Virginia Polytechnic 
  Institute......................................................    60

Mr. Jeffrey R. Lyng, Graduate Student and Team Project Manager, 
  Civil, Environmental, and Architectural Engineering, University 
  of Colorado....................................................    62

Mr. Jonathan R. Knowles, Professor and Team Faculty Advisor, 
  Department of Architecture, Rhode Island School of Design......    64

Mr. David G. Schieren, Graduate Student and Energy Team Leader, 
  Energy Management, New York Institute of Technology............    66

             Appendix 2: Additional Material for the Record

Statement of the University of Maryland 2005 Solar Decathlon Team    70

Energy Failure, editorial appearing in The New York Times, 
  October 31, 2005...............................................    75

Rhode Island School of Design/RISD Solar Abstract................    76

Statement of the Virginia Tech 2005 Solar Decathlon Team.........    86

 
WINNING TEAMS AND INNOVATIVE TECHNOLOGIES FROM THE 2005 SOLAR DECATHLON

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2005

                  House of Representatives,
                            Subcommittee on Energy,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Judy 
Biggert [Chairwoman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                           Winning Teams and

                      Innovative Technologies From

                        the 2005 Solar Decathlon

                      WEDNESDAY, NOVEMBER 2, 2005
                          2:00 P.M.-4:00 P.M.
                   2318 RAYBURN HOUSE OFFICE BUILDING

1. Purpose

    On Wednesday, November 2, the Energy Subcommittee of the House 
Committee on Science will hold a hearing to showcase winning teams and 
energy technology highlights from the 2005 Solar Decathlon, a 
Department of Energy sponsored competition in which student teams 
design and build homes powered entirely by solar energy. The 
Subcommittee will also examine the research and policy implications of 
the Decathlon, including steps necessary to make solar power more 
viable in the mainstream market.

2. Witnesses

Richard F. Moorer, Deputy Assistant Secretary for Technology 
Development, Office of Energy Efficiency and Renewable Energy, 
Department of Energy.

David G. Schieren, Graduate Student and Energy Team Leader, Energy 
Management, New York Institute of Technology.

Jeffrey R. Lyng, Graduate Student and Team Project Manager, Civil, 
Environmental, and Architectural Engineering, University of Colorado.

Jonathan R. Knowles, Professor and Team Advisor, Department of 
Architecture, Rhode Island School of Design.

Robert P. Schubert, Professor and Team Advisor, Department of 
Architecture, Virginia Polytechnic Institute.

3. Overarching Questions

        <bullet>  What are some of the innovative solar and efficiency 
        technologies the teams chose to incorporate into their homes? 
        Which of these technologies are experimental and which are 
        ready for (or in) the market?

        <bullet>  What are the main technical and other barriers to 
        greater use of solar energy? How can contests such as the Solar 
        Decathlon help move both renewable and efficiency technologies 
        into the mainstream building market?

4. Background on Decathlon

Purpose of Decathlon
    The Solar Decathlon is a competition developed by the U.S. 
Department of Energy's (DOE) Office of Energy Efficiency and Renewable 
Energy (EERE) in partnership with the National Renewable Energy Lab 
(NREL) and several non-governmental sponsors.\1\ According to DOE, the 
purpose of the Decathlon is--
---------------------------------------------------------------------------
    \1\ Information on sponsors can be found on the Decathlon website: 
http://www.eere.energy.gov/solar<INF>-</INF>decathlon/sponsors.html The 
main sponsors were: The American Institute of Architects, National 
Association of Home Builders, BP Solar, DIY Network and Sprint Nextel. 
Several other organizations and companies provided additional support.

        <bullet>  to encourage young people to pursue careers in 
---------------------------------------------------------------------------
        science and engineering;

        <bullet>  to acquaint college students in science, engineering 
        and architecture with solar power and energy efficiency;

        <bullet>  to encourage participating students to think in new 
        ways about the way we use our energy;

        <bullet>  to push research and development of energy efficiency 
        and energy production technologies, helping the U.S. maintain 
        its technological competitive edge; and

        <bullet>  to educate consumers about what they can do to add 
        solar power or reduce energy use in their own homes in ways 
        that maintain their lifestyles.

The Competition
    DOE held the first Solar Decathlon on the National Mall in 2002, 
and the second from October 6-16 of this year. Current plans are to 
hold the decathlon every two years in the future. The homes are open to 
the public for several hours a day during the competition. More than 
100,000 visitors toured the solar homes last month, despite the 
relentless rain that plagued the competition.
    Teams wanting to participate must submit proposals two years in 
advance of the competition. The proposals are reviewed by the Solar 
Decathlon Proposal Review Committee, consisting of architects, 
engineers, scientists and other experts chosen by DOE, to determine if 
they stand a reasonable chance of carrying the project through to 
completion, while meeting strict structural and safety requirements. 
For the 2005 Decathlon, The Review Committee selected 20 teams in 2003 
from a field of 24. DOE allotted $5000 to each of the 20 teams. Total 
federal contribution to the decathlon is estimated to be $1 million, 
including management and oversight. Teams had to obtain all additional 
funding, materials, and other forms of assistance from outside donors. 
Most teams ended up with a total budget between $200,000 and $300,000 
for their projects, including travel costs and the expenses associated 
with shipping their house to the National Mall for the contest. In the 
end, 18 teams succeeded in bringing homes to the National Mall for the 
competition.
    Teams are made up of undergraduate and graduate students pursuing 
degrees in engineering, architecture, computer science, public 
relations, marketing, and other disciplines, working together to design 
and build their solar-powered homes. Each team has at least one faculty 
advisor, but students fill the project management and other leadership 
roles. Faculty advisors come from various academic disciplines, 
including engineering, architecture and design.
    Houses are restricted to a maximum of 800 square feet of total 
building footprint and must produce sufficient energy to carry out all 
normal household functions: food cooking and storage, clothes washing 
and drying, dishwashing, bathing, as well as provide sufficient power 
for normal light levels at night and occasional use of appliances such 
as televisions and computers.
    Each house is judged on 10 attributes (see the Appendix for more 
information on each contest):

 
 
 
 
1. Architecture                         6.  Appliances
2. Dwelling                             7.  Hot water
3. Documentation                        8.  Lighting
4. Communications                       9.  Energy balance
5. Comfort zone                         10. Getting around (ability to
                                         charge an electric car).
 


    Each competition is judged by a jury or panel of professionals 
chosen by DOE for their renown in their respective fields of 
architecture, interior design, public affairs, energy analysis, 
engineering or lighting. Each category is worth 100 points, except for 
architecture, which is worth 200 points. A winner is declared in each 
of the 10 contests, and points are summed to determine the overall 
winner. Some contests are won by objectively measuring performance (for 
example, providing adequate electricity to power appliances or 
lighting) and others are subjectively evaluated (for example, 
architecture and communications). Out of a total possible 1100 points, 
the top three teams of 2005--University of Colorado, Cornell University 
and California Polytechnic Institute--scored greater than 800 points. 
However, a number of teams that didn't make it into the top three 
overall did score in the top three in one or more of the 10 
competitions. Among the teams represented at this hearing, Virginia 
Polytechnic Institute received first place in both architecture and 
dwelling, and second place in energy balance; and New York Institute of 
Technology received third place in both architecture and dwelling.
The Technologies
    The decathlon houses featured technologies for energy efficiency, 
heating and cooling, passive and active solar thermal systems, 
photovoltaic solar electricity, and on-site energy storage, both 
electrical and thermal. Many of the technologies used are available to 
all consumers in their local home-improvement store, but some are still 
in the experimental stage. Below is a general description of the types 
of technologies that teams used in the decathlon homes.
    Energy efficiency is the key to powering a house using only solar 
energy. By using each kilowatt-hour wisely, teams attempt to minimize 
the amount of energy they need to produce and store. For example, teams 
used highly efficient appliances and lighting, including fluorescent 
and solid-state lighting, to reduce the homes' total electricity 
demand, both directly and indirectly--efficient appliances emit less 
heat into the living space and therefore also lower air conditioning 
demand. Wall panels and windows were also chosen for their insulation 
rating and ability to pass or filter sunlight. While minimizing airflow 
to and from the outdoors is important to energy efficiency, all homes 
require ventilation to control humidity and provide fresh air. Many 
teams used Energy Recovery Ventilators, which use heat exchangers\2\ to 
heat or cool incoming fresh air, recapturing 60 to 80 percent of the 
conditioned temperatures that would otherwise be lost. Many of these 
technologies are readily available to builders and consumers now. 
However, most teams also used some experimental or custom-built energy 
technologies and systems to reduce their energy demand.
---------------------------------------------------------------------------
    \2\ Heat exchangers are devices specifically designed for the 
efficient transfer of heat from one fluid to another over a solid 
surface. In the case of an energy recovery ventilator, the heat from 
the stale exhaust air is used to preheat the fresh-stream air coming 
into the house. In the case of cooling, heat is instead pulled from the 
incoming air.
---------------------------------------------------------------------------
    All 18 houses used photovoltaic (PV) solar cells to directly 
convert sunlight to electricity. Most schools used the traditional 
silicon-based solar panels that are mounted on rooftops, and one of the 
teams used thin-film PVs that can be integrated into the roofline.
    Solar hot water heaters, which use the sun to heat either water or 
a heat-transfer fluid in collectors, provided all hot water needs for 
the houses. In a typical house, where solar systems can reduce the need 
for conventional water heating by about two-thirds, the plumbing from a 
solar heater may connect to a house's existing water heater, which 
stays inactive as long as the water coming in is hot or hotter than the 
temperature setting on the indoor water heater. When it falls below 
this temperature, the water heater can kick in to make up the 
difference. One decathlon team captured waste heat from their 
refrigerator--a water-cooled unit designed for boats--to pre-heat their 
hot water. Others added thermal collectors behind the PV panels, which 
boosted electrical output (PVs are less efficient when they get very 
hot) and increased the total amount of solar energy captured per square 
foot of collector.
    All houses also incorporated elements of passive solar and 
daylighting designs. The term ``passive'' implies that no mechanical 
means, such as pumps or fans, are required in the design. For example, 
passive solar designs can include natural ventilation for cooling, or, 
for heating, large south-facing windows and building materials that 
absorb and slowly release the sun's heat. In cold climates, south-
facing windows designed to let the sun's heat in while insulating 
against the cold are ideal. In hot and moderate climates, the strategy 
is to admit light while rejecting heat. Interior spaces requiring the 
most light, heat, and cooling are located along the south face of the 
building, with less used space to the north. Most houses have open 
floor plans to allow more sun inside.
    A few of the more unique technology choices, such as the hydrogen 
fuel-cells used by the New York Institute of Technology, and the phase-
change heating and cooling system used by the Rhode Island School of 
Design, will be highlighted during the hearing.

5. Solar Energy in the Marketplace\3\
---------------------------------------------------------------------------

    \3\ All facts and figures (except R&D spending) under this heading 
come from the Solar Energy Industries Association (SEIA): http://
www.seia.org
---------------------------------------------------------------------------
History
    In 1954, Bell Labs introduced the first solar photovoltaic device 
that produced a useful amount of electricity, and by 1958, solar cells 
were being used in small-scale scientific and commercial applications, 
in particular for the space program. The energy crisis of the 1970s 
stimulated broader interest in solar power in the United States and 
elsewhere. Prohibitive prices (approximately 30 times current prices) 
made large-scale applications unfeasible. However, industry 
developments and research during the 1970's and 1980's made PV feasible 
for remote applications (especially for the telecommunications 
industry) and a cycle of increasing production and decreasing costs 
began which continues today.
    New, next-generation PV materials currently under development may 
yet bring dramatic decreases in price. DOE research and development 
(R&D) funding for PV reached a peak in 1980 of $260 million (inflation 
adjusted to 1999 dollars). The 1980's saw significant cuts, down to a 
low of $44 million in 1988 (inflation adjusted to 1999 dollars). 
Current DOE spending for PV R&D is $76.3 million, and the fiscal year 
2006 request is $75 million. Small PV systems may also play a role in 
the transition to a hydrogen economy, as they can produce hydrogen 
through electrolysis, as demonstrated by the New York Institute of 
Technology decathlon team.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Consumer Economics
    A typical home PV system is two kilowatts (kW) capacity and costs 
$14,000 to $20,000 to install. This is enough to power an average-size 
home built to high energy efficiency standards. Using typical financing 
assumptions, a home PV system will generate power at a fixed and 
constant $.25--$.35/kW-hour over its 25-year-plus lifetime. The cost of 
PV is still higher than the equivalent retail cost of electricity that 
it offsets for the user--as high as $.14/kW-hour currently in parts of 
the U.S. However, costs for PV modules have historically decreased by 
5-7 percent per year, with cost decreases to date apparently tied to 
manufacturing volume, as shown in Fig. 1. Integration of PV into the 
construction of new homes can also lower the installation cost and 
allow the equipment to be paid for in the mortgage, adding minimally to 
the monthly payment. Federal and State tax incentives, rebates and loan 
guarantees help lower the cost even further for many customers.
The Global Market and Eroding U.S. Leadership
    Global PV market growth has averaged at least 25 percent annually 
over the last 10 years, with worldwide growth rates for the last five 
years at well over 35 percent (equivalent to a doubling of installed 
power every four years or less). However, PV still accounts for a small 
percentage of electricity generation worldwide. Figure 2 shows the 
cumulative worldwide PV manufactured between 1996 and 2004. There is 
approximately 4,000 megawatts (MW) of PV generating capacity worldwide, 
in addition to 354 MW of concentrating solar power\4\ and possibly as 
much as 70 Gigawatts (GW) of solar heating capacity.\5\
---------------------------------------------------------------------------
    \4\ Concentrating Solar Power devices optically focus or 
concentrate the thermal energy of the sun to drive a generator or heat 
engine. They do so by means of lenses or more commonly mirrors arranged 
in a dish, trough or tower configuration.
    \5\ International Energy Agency Solar Heating and Cooling Program, 
http://www.iea-shc.org
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The United States was once the leader in solar technologies, but in 
2004, U.S. companies manufactured only 11 percent of photovoltaics (in 
terms of MW output) available worldwide. Japan surpassed the U.S. as 
the global manufacturing leader in 1999, and Germany has since eclipsed 
the U.S. as well. Japan has manufactured approximately 44 percent; 
Europe, 25 percent; and the U.S., 19 percent of PV available in the 
market in the last decade. The percentages for installed capacity 
closely track the percentages for manufacturing output. The U.S. had 
approximately 365 MW of installed capacity by the end of 2004--roughly 
equivalent to the output of a standard coal-fired plant, or 
approximately 0.04 percent of U.S. electricity production. Germany and 
Japan are ahead in installed capacity in large part because they both 
instituted significant incentive programs for solar. Since its passage 
in 2000, the German Renewable Energy Sources Act ensures that utilities 
get paid 3-4 times the retail rates for electricity generated by solar 
installations. Ten years ago, Japan instituted a successful rebate 
program that is slowly being phased out. Despite its position as 
laggard in both manufacturing and installed capacity, the U.S. has 
tremendous growth potential for solar energy, as illustrated by the 
solar intensity map in Fig. 3. Here in the U.S., California is taking 
the lead with over 100 MW of installed grid capacity to date, but as 
the side-by-side comparison with sunshine in Germany demonstrates, even 
states that are less sunny than California can benefit from solar 
energy--most of the U.S. has a much better solar resource than Germany.
    While few analysts expect that solar manufacturing capacity can 
continue to expand at this pace, if the growth rate of the last five 
years could be maintained, peak solar capacity could match today's 
domestic coal-fired capacity by 2025. Even then, since coal capacity is 
available more hours of the day than solar, the total output of 
kilowatt-hours from the solar capacity would be less.
    Electricity demand varies throughout the day, as air conditioning 
and commercial activities peak in the afternoon. Base load is the 
amount of electricity needed to run all the systems that operate day 
and night: refrigerators, water heaters, traffic lights, etc. Absent an 
economical storage system, solar energy may not be ideal for base load 
electricity demand, but it is ideally suited to peak load production, 
since its output profile tends to match the demand. Peak load 
electricity from fossil fuels tends to be the least energy efficient, 
most expensive and most polluting, because utilities tend to operate 
their best plants first. As a distributed form of energy, solar can 
help offset the peak demand from polluting sources with zero emissions. 
Experts therefore expect that solar will act as a contributor to the 
overall mix of energy, but that we will still need to rely on coal, 
nuclear and gas generation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


6. Witness Questions

Mr. Schieren, Mr. Lyng, Mr. Knowles, Mr. Schubert:

        <bullet>  Please briefly describe the key features of your 
        house.

        <bullet>  Given your experience, what do you think are the main 
        technical and other barriers to greater use of solar energy? Do 
        you have any suggestions for what might be done to overcome 
        those barriers? How do you see the competition itself as 
        helping to move both solar and efficiency technologies into the 
        mainstream building market?

        <bullet>  What sources of information did you draw on to figure 
        out how to build your house? What problems arose in designing 
        or constructing your house that surprised you?

        <bullet>  Would your house be commercially viable? If not, what 
        changes would make it more attractive to the mainstream home 
        buyer?

Mr. Moorer:

        <bullet>  Please summarize the history of the Solar Decathlon.

        <bullet>  Please describe the major goals of the Solar 
        Decathlon. To what extent are these goals being met?

        <bullet>  What, if anything, will you do differently for the 
        2007 competition?

        <bullet>  How do you see competitions such as the Solar 
        Decathlon furthering the movement of solar and energy 
        efficiency technologies into the mainstream building market?

APPENDIX

                            THE TEN CONTESTS

Architecture (200 points)

    Teams are required to design and build attractive, high-performance 
houses that integrate solar and energy efficiency technologies 
seamlessly into the homes' designs. Scoring well in Architecture is 
crucial; teams can earn up to 200 points, twice the number of points 
available in the other contests.

Dwelling (100 points)

    Experts from the residential buildings industry will award points 
based on their evaluations of the ``livability'' and ``buildability'' 
of the homes. Are the spaces designed well for everyday living--doing 
laundry and getting work done? Are the houses comfortable to live in 
and simple to care for? Are the houses' features easily reproducible? 
And would the houses attract buyers?

Documentation (100 points)

    The Documentation contest awards points based on how well the teams 
analyzed their designs for energy performance and how thoroughly they 
documented the design process. Teams must document all stages, 
including the schematic design, design development, construction, and 
``as-built'' phases of the Solar Decathlon project.

Communications (100 points)

    Panels of judges with expertise in communications and public 
relations will judge the teams' Web sites and house tours and award 
points based on the success of the teams in delivering clear and 
consistent messages and images that represent the teams' visions and 
results.

Comfort Zone (100 points)

    Teams will be judged on their ability to provide interior comfort 
in their houses by controlling temperature and humidity. Full points 
will be rewarded for maintaining narrow temperature and relative 
humidity ranges inside their houses. The teams will also be judged on 
indoor environmental and air qualities.

Appliances (100 points)

    The Appliance contest is designed to replicate appliance energy use 
in the average American home in the United States, where appliances 
account for 20% of energy use. To earn points, student teams must 
maintain a certain temperature in their refrigerators and freezers, 
wash and dry clothing, cook meals, use a dishwasher to clean the 
dishes, as well as leave the television on for six hours a day and the 
computer on for eight hours a day.

Hot Water (100 points)

    Teams can score points in the Hot Water contest by successfully 
completing the ``shower tests,'' which entails delivering 15 gallons of 
hot water in 10 minutes or less. They will also be judged on how 
innovative the hot water system is, and the system's ability to deliver 
sufficient hot water throughout the year, including when guests visit.

Lighting (100 points)

    Teams can score points in numerous ways, but this contest judges 
the amount of illumination supplied by both electric lights and 
daylighting. Lighting levels in each room of a team's house are 
continuously monitored and recorded. If a house maintains lighting 
levels within an optimal range, full points are awarded. Teams can also 
earn points from a panel of judges that will subjectively evaluate the 
teams' lighting designs, which are required to integrate both electric 
and natural light, from both a functional and an aesthetic standpoint.

Energy Balance (100 points)

    Energy Balance will be scored by measuring the amount of energy 
going into the batteries from the solar electric system and the amount 
of electrical energy being drawn from the batteries to meet the houses' 
electrical needs. Teams earn full points if their battery systems have 
as much stored energy at the end of the competition as they did at the 
beginning.

Getting Around (100 points)

    In the Getting Around contest, student teams use electricity 
generated by their solar electric systems to ``fuel'' their street-
legal, commercially available electric vehicles. Teams then must log as 
many miles as they can--based on how much ``extra'' energy they have 
generated. Points will be awarded based on how many miles each team is 
able to drive.
    Chairwoman Biggert. Good afternoon. The hearing of the 
Energy Subcommittee of the Science Committee will come to 
order.
    I will recognize myself for an opening statement for five 
minutes.
    In mid-October, 18 teams of undergraduate and graduate 
students from universities across the country assembled on the 
National Mall to demonstrate something amazing. After two years 
of work, they gathered in our nation's capital to demonstrate 
how a home could be powered entirely by solar energy. These 
students and their projects faced some serious challenges. 
After nearly two months baking in the sun, the Washington area 
received its first measurable rainfall on the opening day of 
the decathlon.
    While I was not down in Washington at the time, I 
understand it was cloudy and rainy just about every day 
thereafter through the last day of the event. We were back in 
our Districts at the time, and we had no rain in the Chicago 
area, but it really was a deluge here. Now that kind of weather 
isn't so uncommon in Illinois, and during the winters in 
Chicago, we can sometimes go for weeks without seeing the sun.
    But despite the conditions, the teams persevered, and their 
technologies worked, for the most part, and they needed to work 
in order to demonstrate the viability of solar power in places 
like Chicago in the wintertime. In the end, the projects were 
evaluated based on ten different criteria, many of the same 
criteria that Americans use to evaluate their choices when 
buying a home.
    Today, we are going to hear from some of the winners of the 
2005 Solar Decathlon as they show-and-tell us about the homes 
they designed and built for the decathlon. We hope to have some 
fun here, but we also want to engage these teams of young 
scientists and engineers in a serious conversation about the 
potential for solar energy in this country.
    As the Chairman of the Subcommittee and a member of the 
Education Committee, I am especially pleased about the number 
of students actively involved in the Decathlon and in this 
important dialogue today. I think it is safe to say that the 
Members of this subcommittee are very much looking forward to 
learning more from you.
    We hope that you will talk today about the kinds of 
technology and designs you used. We hope you will share with us 
what obstacles you believe must still be overcome before the 
Nation can benefit from the widespread use of passive and 
active solar-thermal systems, photovoltaic, solar energy, and 
on-site energy storage, both electrical and thermal.
    Finally, we hope you will discuss the benefits of a 
competition such as the Solar Decathlon and about what we can 
do, as policy-makers, to move more solar and efficiency 
technologies into the mainstream building market.
    By 2025, our demand for energy is expected to grow by 50 
percent, and energy for our buildings will drive a significant 
portion of that demand. Today, buildings alone use 1/3 of our 
total domestic energy and 40 percent of our electricity. Solar 
energy has many advantages, and I know you will talk about 
that. And I think we are really optimistic about this 
competition as young scientists, engineers, and architects, the 
future builders of America learn about the latest energy 
technologies. They learn to work together to balance aesthetics 
with energy utility to make their homes attractive to the 
average buyer. And finally, they inspire their peers, the 
public, and policy-makers to think in new ways about how we use 
our energy. This is the kind of inspiration the Nation needs as 
we continue to confront a variety of energy challenges.
    So again, let me extend a special thanks to the exceptional 
students, as well as their faculty advisors, for participating 
in the Decathlon and for joining us here today.
    I also want to welcome our witness from the Department of 
Energy. The Department is to be commended for partnering with 
the National Renewable Energy Laboratory, the American 
Institute of Architects, the National Association of Home 
Builders, BP, the Do-It-Yourself Network, and Sprint to host 
the Decathlon.
    We look forward to the testimony of all witnesses today.
    [The prepared statement of Chairwoman Biggert follows:]
              Prepared Statement of Chairman Judy Biggert
    Good afternoon, and welcome to this Energy Subcommittee hearing on 
the 2005 Solar Decathlon, and the winning technologies previewed at 
that event.
    In mid-October, 18 teams of undergraduate and graduate students 
from universities across the country assembled on the National Mall to 
demonstrate something amazing. After two years of work, they gathered 
in our nation's capital to demonstrate how a home could be powered 
entirely by solar energy.
    These students and their projects faced some serious challenges. 
After nearly two months baking in the sun, the Washington area received 
its first measurable rainfall on the opening day of the decathlon. 
While I was not in Washington at the time, I understand it was cloudy 
and rainy just about every day thereafter through the last day of the 
event.
    Now, that kind of weather isn't so uncommon in my home State of 
Illinois. During winters in Chicago, we sometimes go for weeks without 
seeing the sun.
    So despite the conditions, the teams persevered and their 
technologies worked, for the most part. And they needed to work in 
order to demonstrate the viability of solar power in places like 
Chicago in the wintertime. In the end, the projects were evaluated 
based on 10 different criteria, many of the same criteria that 
Americans use to evaluate their choices when buying a home.
    Today, we're going to hear from some of the winners of the 2005 
Solar Decathlon, as they ``show-and-tell'' us about the homes they 
designed and built for the Decathlon. We hope to have some fun here, 
but we also want to engage these teams of young scientists and 
engineers in a serious conversation about the potential for solar 
energy in this country.
    As the Chairman of this subcommittee and a Member of the Education 
Committee, I am especially pleased about the number of students 
actively involved in the Decathlon, and in this important dialogue 
today. I think it is safe to say that the Members of this subcommittee 
are very much looking forward to learning more from you. We hope you 
will talk today about the kinds of technologies and designs you used. 
We hope you will share with us what obstacles you believe must still be 
overcome before the Nation can benefit from the widespread use of 
passive and active solar thermal systems, photovoltaic solar 
electricity, and on-site energy storage, both electrical and thermal. 
Finally, we hope you will discuss the benefits of a competition such as 
the Solar Decathlon and about what we can do, as policy-makers, to help 
move solar and efficiency technologies into the mainstream building 
market.
    By 2025, our demand for energy is expected to grow by 50 percent, 
and energy for our buildings will drive a significant portion of that 
demand. Today, buildings alone use one-third of our total domestic 
energy and forty percent of our electricity. Solar energy has many 
advantages: it's made in America, non-polluting, abundant, and easy to 
build and permit. If we could produce just a fraction of the power for 
our buildings from the sun and, at the same time, reduce our total 
energy demand by using smarter technologies and designs, the impact on 
our energy outlook would be tremendous.
    That is why we are so optimistic about this competition. Young 
scientists, engineers, and architects--the future builders of America--
learn about the latest energy technologies. They learn to work together 
to balance aesthetics with energy utility to make their homes 
attractive to the average buyer. Finally, they inspire their peers, the 
public, and policy-makers to think in new ways about how we use our 
energy. This is the kind of inspiration the Nation needs as we continue 
to confront a variety of energy challenges.
    So again, let me extend our special thanks to the exceptional 
students, as well as their faculty advisors, for participating in the 
Decathlon and for joining us here today. I also want to welcome our 
witness from the Department of Energy. The Department is to be 
commended for partnering with the National Renewable Energy Laboratory, 
the American Institute of Architects, the National Association of Home 
Builders, BP, the D.I.Y. Network, and Sprint to host the Decathlon.
    We look forward to the testimony of all the witnesses here today. 
With that, I will yield to the Subcommittee's Ranking Member, Mr. 
Honda, for his opening statement.

    Chairwoman Biggert. And with that, I yield to the 
Subcommittee's Ranking Member, Mr. Honda, for his opening 
statement.
    Mr. Honda. Thank you, Madame Chairwoman.
    And just out of curiosity in the audience, how many of 
these graduate students are here, or students are here?
    All right. There are--we have got women on there, too. Some 
of our folks say are there any women out there? I say I am sure 
there are, you know.
    And welcome to all of you. And Mr. Lyng, welcome to you.
    And Madame Chairman, thank you for holding this hearing 
today. I guess you call it the second biennium of the Solar 
Decathlon, and I wanted to thank the witnesses for being here 
today. And it is especially nice to have the students here with 
us. You bring a different perspective to us than our usual 
witnesses, because you have a different perspective on life.
    I am the kind of person that bought the first hybrid car, 
and when my battery didn't work completely well that kicks over 
the engine, I put a solar panel on the back to see if I could 
keep the--my battery alive until they figured out the glitch in 
my car.
    But as a nation, we have not followed that same line of 
thinking in terms of using solar power for an alternative 
source. The United States was once a leader in solar 
technology, and the first solar cell that was produced that has 
produced a useful amount of electricity was invented here. But 
the last year, only 11 percent of the photovoltaic generating 
capacity was manufactured here in this country, and our track 
record at installing solar generating capacity is equally poor.
    By the end of 2004, the United States installed 
photovoltaic generating capacity was only about equal to what a 
standard coal-fired power plant produces, or approximately 0.04 
percent of the U.S. electricity production.
    We have fallen behind other nations, such as Germany and 
Japan, which saw solar installation increase as a result of 
meaningful incentive programs. And I guess that is where our 
housing developers come in where we can look at those areas.
    But all is not lost. A quick glance at a solar resource map 
shows that most of the United States has far greater potential 
for solar power than Germany, a nation that has succeeded in 
bringing solar along with proper incentives.
    This means that the United States has tremendous growth 
potential for solar energy. And my own State of California has 
taken the lead with over 100 megawatts of installed grid 
capacity to date.
    It has taken a commitment to get to this point, though, 
because a typical home photovoltaic system is not cheap to 
purchase nor to install. If you do the math to figure out how 
much the electricity costs, it turns out that it is still 
higher than the typical retail cost for electricity, but I am 
willing to try it and put it on my roof.
    That is why we need federal and State tax incentives, 
rebates, and loan guarantees to help consumers make the 
decision to adopt the technology. And to succeed, this cost of 
solar-produced electricity must be reduced. Fortunately, as 
more cells are manufactured, the cost for photovoltaic modules 
has decreased five to seven percent per year. As we convince 
more consumers to make choices to install these systems, the 
prices will continue to decline, and the cost of power will 
eventually become comparable to other sources.
    But we need to convince them to make that choice. And to do 
so, we need to show them that solar power can work, even if it 
isn't a brilliantly sunny day in the desert. On my dashboard 
here and at home, I have a solar-powered, what do you call 
those things, flashlight, because I figured as long as the sun 
shines through it, there is still light, at least three or four 
or five hours out of the 24, I still have batteries that will 
produce light for me. So I am ready for anything with my 
flashlight battery.
    So I look forward to listening to your experiences in this 
year's decathlon where the weather wasn't much like that. And 
hopefully, all of you who are here today will provide us the 
avenue and light the way for us. And just to be a little corny, 
to paraphrase that song, you are the sunshine of our lives.
    Thank you very much for being here.
    Thank you, Madame Chair.
    [The prepared statement of Mr. Honda follows:]
         Prepared Statement of Representative Michael M. Honda
    Madam Chairwoman, thank you for holding this hearing today on the 
Solar Decathlon.
    Thanks to the witnesses for being here today. It is especially nice 
to have the students with us. You bring a different perspective to us 
than our usual witnesses do.
    I'm the kind of person who drives a hybrid car and wants to keep 
the battery charged with a solar cell when I don't drive it for a 
while.
    But as a nation, we have not followed that same line of thinking. 
The United States was once the leader in solar technologies. The first 
solar cell that produced a useful amount of electricity was invented 
here.
    But last year, only 11 percent of the photovoltaic generating 
capacity was manufactured here. And our track record at installing 
solar generating capacity is equally poor.
    By the end of 2004, the United States installed photovoltaic 
generating capacity was only about equal to what a standard coal-fired 
power plant produces, or approximately 0.04 percent of U.S. electricity 
production.
    We have fallen behind other nations, such as Germany and Japan, 
which saw solar installation increase as a result of meaningful 
incentive programs.
    But all is not lost. A quick glance at a solar resource map shows 
that most of the United States has far greater potential for solar 
power than Germany, a nation that has succeeded in bringing solar along 
with the proper incentives.
    This means that the United States has tremendous growth potential 
for solar energy. My own State of California is taking the lead, with 
over 100 MW of installed grid capacity to date.
    It has taken a commitment to get to this point, though, because a 
typical home photovoltaic system is not cheap to purchase and install. 
If you do the math to figure out how much the electricity costs, it 
turns out that it is still higher than the typical retail cost for 
electricity.
    That is why we need federal and State tax incentives, rebates and 
loan guarantees to help consumers make the decision to adopt the 
technology.
    To succeed, the cost of solar-produced electricity must be reduced. 
Fortunately, as more cells are manufactured, the cost for photovoltaic 
modules has decreased 5-7 percent per year.
    As we convince more consumers to make the choice to install these 
systems, the prices will continue to decline and the cost of power will 
eventually become comparable to other sources.
    But we need to convince them to make that choice. And to do so, we 
need to show them that solar power can work even if it isn't a 
brilliantly sunny day in the desert. So I look forward to hearing about 
your experiences in this year's Decathlon, which wasn't like that.

    Chairwoman Biggert. I can see this is going to be an 
interesting hearing.
    Any additional opening statement submitted by the Members 
may be added to the record.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. I want to thank the witnesses for appearing before 
our committee to examine the research and policy implications of the 
2005 Solar Decathlon Competition.
    The U.S. Department of Energy (DOE) held the first Solar Decathlon 
on the National Mall in 2002 and recently held its second competition 
from October 6-16th of this year. The competition was developed by the 
DOE's Office of Energy Efficiency and Renewable Energy in partnership 
with the National Renewable Energy Lab and several non-governmental 
sponsors. The Decathlon aims to encourage young people to pursue 
careers in science and engineering and to help students think 
creatively about how we use and conserve energy.
    I believe one of the most valuable attributes of the competition is 
advancing research and development of energy efficiency and energy 
production technologies in order to help the U.S. regain our 
technological competitive edge.
    The U.S. was once the leader in solar technologies, but in 2004, 
U.S. companies manufactured only 11 percent of photovoltaics available 
worldwide. In 1999, Japan surpassed the U.S. as the global 
manufacturing leader and recently Germany has also moved ahead. Despite 
our staggering position in both manufacturing and installed production 
capacity, I believe the U.S. has tremendous growth potential for solar 
energy and must strive to integrate renewable and efficiency 
technologies into the building market for more consumer to understand 
all of the benefits solar energy has to offer both economically and 
environmentally. In order to document and communicate the benefits of 
solar technology to consumers, with the hopes of regaining our 
competitive edge in the global market place, educational competitions, 
such as the Solar Decathlon, help spur new ideas and concepts and I 
look forward to hearing from several participants who excelled in the 
competition this year.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman and Ranking Member.
    I am pleased to welcome our witnesses to today's Energy 
Subcommittee hearing.
    My District, in Dallas, Texas, would greatly value the technologies 
showcased in the decathlon competition.
    Energy efficiency, solar heating and cooling, solar thermal systems 
and electricity, and improved solar energy storage are the wave of the 
future.
    We as a nation must decrease our dependence on coal and fossil 
fuels. These energy sources are limited and will only grow more 
expensive and supply decreases and demand increases.
    I have been a consistent, strong advocate of more federal dollars 
being put toward energy research. As a Texan, I understand the power 
and value of the energy industry.
    To quote Ralph Waldo Emerson, ``Build a better mousetrap, and the 
world will beat a path to your door.'' Build a better method of 
capturing, generating and storing energy, and the world will beat a 
path to your door.
    The Science Committee should take a more proactive role in 
encouraging Congress and the Administration to invest more in energy 
efficiency research and development.
    Witnesses, many of you represent the future of innovation in energy 
research. Once again, I welcome you and appreciate your contributions 
to today's hearing.
    Thank you, Madame Chairman. I yield back.

    [The prepared statement of Mr. Lipinski follows:]
          Prepared Statement of Representative Daniel Lipinski
    I would like to congratulate all of you and your teams on 
successfully participating in the 2005 Solar Decathlon. This program is 
notable not just for the opportunities it provides to students, but 
also for exposing the general public to new and innovative ways to 
increase energy efficiency.
    Solar power holds great hope as an energy source that is not only 
environmentally-friendly, but also helps reduce our dependence on 
foreign energy sources, especially oil. As we face sky-rocketing costs 
for natural gas to heat our homes this winter, the work done in this 
competition is especially relevant.
    I have been interested in the potential of solar power for more 
than 25 years. My 8th grade science fair project examined the future 
role of solar energy. As an example, I built a radio powered by a 
photovoltaic cell.
    Today we can see how far the use of solar energy has progressed in 
the tremendous work of these students in the Solar Decathlon. As an 
engineer myself, it is especially fascinating to see the design 
innovations that were developed and used in these solar houses that 
also have real world applications.
    I know that this is not easy work, and I applaud everyone who has 
put the time and effort into these important projects. Just as my 
science project helped inspire me to pursue an engineering degree, I 
hope that the Solar Decathlon inspires more young Americans to pursue 
degrees in science and engineering. For the continued security and 
economic success of America, we must continue to do all we can to 
maintain our technological competitive edge. This continues to be one 
of my highest priorities in Congress and on the Science Committee.

    Chairwoman Biggert. And at this time, I'd like to introduce 
our witnesses.
    First, on our left, is Richard Moorer. He is the Deputy 
Assistant Secretary for Technology Development at the Office of 
Energy Efficiency and Renewable Energy at the Department of 
Energy. Next, we have Bob Schubert. He is the Associate Dean 
for Research and Outreach and a Professor in the College of 
Architecture and Urban Studies at Virginia Polytechnic 
Institute. He serves as the Faculty Coordinator for Virginia 
Tech team. Jeff Lyng is a graduate student and the Team Project 
Manager for the University of Colorado, team--the overall 
winner in the Decathlon. Jeff is completing his Master's degree 
in civil engineering and the building systems program at 
Colorado. Jonathan Knowles is a Professor of Architecture and 
serves as a Faculty Advisor to the Rhode Island School of 
Design team. Welcome. And David Schieren is the Energy Team 
Leader for the New York Institute of Technology where he is 
pursuing a Master's of science in energy management. I also 
want to thank the University of Maryland team for submitting 
written testimony for this hearing. [The information appears in 
Appendix 2: Additional Material for the Record.]
    As the witnesses know, spoken testimony will be limited to 
five minutes each, after which the Members will have five 
minutes each to ask questions.
    So we will begin with Mr. Moorer. You are recognized for 
five minutes.

STATEMENT OF MR. RICHARD F. MOORER, DEPUTY ASSISTANT SECRETARY 
  FOR TECHNOLOGY DEVELOPMENT, OFFICE OF ENERGY EFFICIENCY AND 
           RENEWABLE ENERGY, THE DEPARTMENT OF ENERGY

    Mr. Moorer. Madame Chair, Members of the Subcommittee, I 
appreciate the opportunity to testify on the Solar Decathlon, a 
contest that originated in the Department of Energy's Solar 
Technology Program.
    In October 2000, DOE issued a challenge to our nation's 
colleges and universities to design, build, and operate the 
most livable, energy-efficient, completely solar-powered house 
in a major competition. The Solar Decathlon houses had to 
provide all the home energy needs of a typical family of six 
using only the power of the sun. The winner of the competition 
would be the team that best blends aesthetics and modern 
conveniences with maximum energy production and optimal 
efficiency. The schools submitted proposals, and a committee of 
DOE and National Renewable Energy Laboratory experts in solar 
energy and energy efficient design selected 14 teams to compete 
in this contest.
    The first Solar Decathlon took place from September 26 to 
October the 6th, 2002, on the National Mall in Washington, DC. 
Each team received $5,000 in seed money from DOE. The 
university teams had to raise all of their own funds to 
purchase materials, transport, and build their house on the 
National Mall. The first event was well attended, with more 
than 100,000 people visiting the solar village on the Mall, 
eager to see the pioneering designs.
    A second competition was held this year. A request for 
proposals was issued in 2003, and 24 proposals were received. 
Twenty teams were selected, and each entrant then had two years 
to assemble a multi-disciplinary team, raise all of the 
necessary funding, select and procure materials, and design and 
build their house on campus before transporting it to 
Washington, DC.
    The 2005 Solar Decathlon was held from October 6 through 
the 16th. This year's designs had clearly improved over the 
2002 designs. The attention to architectural detail, soundness 
of structural engineering, and integration of energy systems 
surpassed expectations and generated excitement to the over 
120,000 visitors that walked through the village and toured the 
homes.
    The University of Colorado repeated as the overall winner 
this year, followed by Cornell University in second place, and 
California Polytechnic State University finishing third.
    There are two overarching goals of this competition. The 
first goal is to encourage young people to pursue careers in 
science and engineering and to acquaint college students in 
science, engineering, and architecture with solar power and 
energy efficiency technologies. The contest encourages 
participating students to think creatively about the way we use 
our energy and to explore the benefits of using renewable 
energy and energy-efficient technologies to help maintain our 
lifestyles.
    The second overarching goal is to encourage consumers to 
use solar energy and energy-efficient technologies. Off-the-
shelf solar technology is ready today to provide power for 
homes, and energy efficiency technologies available at your 
local hardware store can significantly reduce the energy homes 
use. Consumers toured the homes and took part in workshops at 
the Solar Decathlon to learn what they can do to tap solar 
power or reduce energy use in their own homes.
    The Solar Decathlon appears to be a good way to promote 
outreach. All of the teams told their visitors about easy ways 
to save energy, such as using compact fluorescent lights and 
Energy Star appliances. The public also learned about solar 
energy systems, radiant floor heating, day lighting techniques, 
and new building materials, such as structural insulated 
panels, or SIPs.
    To help educate builders, architects, and other 
professionals in the housing industry, DOE, together with its 
sponsors, organized a ``building industry day.'' Builders and 
architects were invited to come to the Solar Decathlon on 
Friday, October the 7th, for workshops and guided tours 
specially designed to encourage technology transfer. Many of 
the workshops were full to capacity with standing room only.
    Subject to available funding, DOE intends the Solar 
Decathlon to become a 10-year, biennial effort to design 
appealing, energy-efficient, cost-competitive solar homes for 
all household energy needs. In addition, we hope to encourage a 
fully developed and refined set of design and cost 
specifications for the houses, an industry better prepared to 
produce and build similar designs, and an educate public ready 
to accept them.
    Based on lessons learned, DOE is going to make three major 
improvements to the Decathlon: first, tie the competition more 
closely to DOE's Solar Program goals by placing greater 
emphasis on systems integration and cost-effectiveness; second, 
to improve public outreach to communicate the benefits of these 
technologies to a wider audience; and third, to provide 
increased federal funding to enable the teams to design and 
develop more cost-competitive structures.
    Madame Chair, that completes my prepared statement, and I 
would be happy to answer any questions the Subcommittee might 
have.
    [The prepared statement of Mr. Moorer follows:]
                Prepared Statement of Richard F. Moorer
    Madame Chair, Members of the Subcommittee, I appreciate the 
opportunity to testify on the Solar Decathlon, a contest that 
originated in the Department of Energy's (DOE) Solar Technology 
Program.

History of the Solar Decathlon

    In October 2000, DOE issued a challenge to our nation's colleges 
and universities to design, build, and operate the most livable, 
energy-efficient, completely solar-powered house in a major 
competition. The Solar Decathlon houses had to provide all the home 
energy needs of a typical family of six using only the power of the 
sun. The winner of the competition would be the team that best blends 
aesthetics and modern conveniences with maximum energy production and 
optimal efficiency. The schools submitted proposals, and a committee of 
DOE and National Renewable Energy Laboratory experts in solar energy 
and energy efficient design selected 14 teams to compete in this 
contest.
    The first Solar Decathlon took place from September 26 to October 
6, 2002, on the National Mall in Washington, DC. Each team received 
$5,000 in seed money from DOE. The university teams had to raise all 
their own funds to purchase materials, transport and build their house 
on the National Mall. The first event was well attended, with more than 
100,000 people visiting the solar village on the Mall, eager to see the 
pioneering designs. Each team's home included a kitchen, living room, 
bedroom, bathroom, and home office space, with a maximum building 
footprint of 800 ft2 (74.3 m2), equivalent to a small apartment. Though 
they shared these common requirements, the home designs for this first-
ever Solar Decathlon varied widely, from traditional to contemporary. 
Beyond sophisticated energy systems, many homes were beautifully 
finished and furnished inside and out, with thoughtful integration of 
design aesthetics, consumer appeal, and comfort.
    As the name implies, the Solar Decathlon is an event in which each 
team's performance is evaluated in 10 categories: architecture, 
dwelling, documentation, communications, comfort zone, appliances, hot 
water, lighting, energy balance, and getting around. There is a winner 
in each category, and an overall winner for the team that accumulates 
the most points. Each participating team invested a tremendous amount 
of time, money, passion, and creativity into this competition. Teams 
were composed of architects, engineers, designers, communicators, 
fundraisers, and builders. Some teams had to overcome daunting 
obstacles, such as having to ship the entry from Puerto Rico by boat, 
or having a section of the home fall off the truck en route.
    The overall winner of the 2002 competition, the University of 
Colorado, used a strategy of dependable technologies. Whereas the 
competition encouraged innovation, the limited duration of the event 
left little room for equipment failures or system malfunctions, which 
many other teams experienced. The Colorado team used a large (7.5 kW) 
photovoltaic (PV) array and designed the house well based on its 
understanding of the energy flows, having performed very comprehensive 
modeling of the home. The University of Virginia placed second, and 
Auburn University placed third overall in the competition.
    A second competition was held in 2005. A request for proposals was 
issued in 2003, and 24 proposals were received. Twenty teams were 
selected, including a team from the University of Madrid in Spain and 
Concordia University in Canada. Each entrant then had two years to 
assemble a multidisciplinary team, raise all necessary funding, select 
and procure materials, and design and build their house on campus 
before transporting it to Washington, DC. Two of the original twenty, 
the University of Virginia and the University of Southern California, 
were unable to raise the necessary support and dropped out of the 
competition.
    The 2005 Solar Decathlon was held from October 6-16. The 2005 
designs had clearly improved over the 2002 designs. The attention to 
architectural detail, soundness of structural engineering, and 
integration of energy systems surpassed expectation and generated 
excitement to the over 120,000 visitors who walked through the village 
and toured the homes. Again, the University of Colorado took first 
place, followed by Cornell University in second place, and California 
Polytechnic State University finishing third.

Goals

    There are two overarching goals of the competition. The first goal 
is to encourage young people to pursue careers in science and 
engineering and to acquaint college students in science, engineering 
and architecture with solar power and energy efficiency technologies. 
The contest encourages participating students to think creatively about 
the way we use our energy and to explore the benefits of using 
renewable energy and energy efficiency technologies to help maintain 
our lifestyles.
    The Solar Decathlon has attracted students to learn about solar 
energy and energy efficiency. Some of the schools recruited 50 or more 
students to join their Solar Decathlon teams. Many of the students 
received credit for their work in addition to gaining valuable hands-on 
learning. The students also gain valuable experience to help them find 
jobs after graduation in the fields of energy research, engineering, or 
design.
    The second overarching goal is to encourage consumers to use solar 
energy and energy efficiency technologies. Off-the-shelf solar 
technology is ready today to provide power for homes, and energy 
efficiency technologies available at your local hardware store can 
significantly reduce the energy homes use. Consumers can tour the homes 
and take part in workshops at the Solar Decathlon to learn what they 
can do to tap solar power or reduce energy use in their own homes.
    The Solar Decathlon appears to be a good way to promote outreach. 
Over 120,000 visitors toured the houses this year and learned from the 
students how the houses were designed and what technologies were 
incorporated. All the teams told their visitors about easy ways to save 
energy, such as using compact fluorescent lights and Energy Star 
appliances. The public also learned about solar energy systems, radiant 
floor heating, day lighting schemes and new building materials such as 
structural insulated panels (SIPs).
    To help educate builders, architects, and other professionals in 
the housing industry, DOE, together with its sponsors, organized a 
``building industry day.'' Builders and architects were invited to come 
to the Solar Decathlon on Friday, October 7th for workshops and guided 
tours specially designed to encourage technology transfer. Many of the 
workshops were full to capacity with standing room only.

2007 and Beyond

    The Department believes that the 2002 and 2005 Solar Decathlons 
advanced the two overarching goals described above. As a result, 
Department plans to hold successive events every two years, with the 
next event in 2007, subject to available funding.
    Based on lessons learned, DOE is going to make three major 
improvements to the Solar Decathlon: 1) tie the competition more 
closely to DOE's solar program goals by placing greater emphasis on 
system integration and cost effectiveness, 2) improve public outreach 
to communicate the benefits of these technologies to a wider audience, 
and 3) provide increased federal funding to enable the teams to design 
and develop more cost-competitive structures.
    The Department believes that competitions such as the Solar 
Decathlon maximize creativity and innovation, and generate strong 
motivation and interest. The Solar Decathlon may also foster the 
technology transfer process. The competition provides the opportunity 
for aspiring young architects and engineers to be creative, innovative, 
and design and develop new ideas. The empty lot provides a place to 
build, to test, and to learn what works best.
    Subject to available funding, DOE intends the Solar Decathlon to 
become a ten-year, biennial effort to design appealing, energy 
efficient, cost-competitive solar houses for all household energy 
needs: heat and electricity. In addition, we hope to encourage a fully 
developed and refined set of design and cost specifications for the 
houses, an industry better prepared to produce and build similar 
designs, and an educated public ready to accept them.
    DOE conducted a survey of the participating 2005 Solar Decathlon 
teams. Most teams struggled to raise funds over the past three years 
since the first event was held, with two dropping out due to lack of 
support. In response, Secretary Bodman announced that the Department 
would increase its financial support for the 20 best proposals selected 
through a competitive process from $5k to $50K per year over two years, 
subject to available funding.

Technology Transfer

    The Solar Decathlon is specifically designed to help teams 
integrate solar energy and energy efficient building technologies and 
practices into their designs. This was accomplished by fully involving 
DOE's Solar Program and Building Technologies program in Solar 
Decathlon team activities including materials development, pre-
competition meetings, and contest design. In addition, the inclusion of 
sponsors like the American Institute of Architects and BP Solar was 
intended to significantly improve outreach capability with professional 
builders, architects and solar equipment manufacturers in the U.S.
    Specific Solar Decathlon activities were designed to foster 
technology transfer by appealing to builders and/or to consumers 
intending to build or renovate their homes using solar and/or energy 
efficiency technologies. These included:

        <bullet>  Building Industry Day on October 7. Builders and 
        allied trades from the Washington Metropolitan area, as well as 
        seven nearby states, were invited to participate in a special 
        day set aside for builder-oriented tours of the homes and a 
        series of technical workshops designed to help them understand 
        how best to use and install energy efficient products and solar 
        technologies in building projects.

        <bullet>  A series of workshops geared for the general public 
        was held every day from October 8-16 to encourage the 
        installation and use of energy efficiency and solar energy 
        technologies. The workshops were designed to help consumers 
        understand how to go about installing these technologies in 
        their homes in order to reduce their use of energy.

        <bullet>  A concerted media outreach campaign about the Solar 
        Decathlon was undertaken to provide in-depth information about 
        the competition and about energy efficiency and renewable 
        energy technologies. The resulting (and continuing) media 
        coverage has helped the public understand that energy 
        efficiency and solar energy technologies are available off-the-
        shelf today and, when installed, can significantly reduce home 
        energy use.

        <bullet>  A product directory, searchable both by team and by 
        product type (windows, appliances, solar panels, etc.), is 
        prominently featured on the Solar Decathlon web site home page. 
        The product directory is designed to help people locate the 
        products and technologies featured in each of the Solar 
        Decathlon homes.

        <bullet>  ``The Anatomy of a House'' educational exhibit was 
        developed to help builders and the public understand individual 
        energy efficiency and solar energy technologies (windows, 
        insulation, solar hot water technology, etc.) and how they work 
        under the ``skin'' of a house. Also included in this exhibit 
        was an interactive display explaining how net metering works in 
        a home using a photovoltaic system connected to the utility 
        grid.

    And, finally, an unanticipated way in which these technologies can 
be moved into the marketplace is through the students themselves. 
Several builders and businessmen, impressed by the skills and knowledge 
of the Solar Decathlon students, were actively recruiting them for 
jobs.
    Madame Chair, that completes my prepared statement, and I would be 
happy to answer any questions the Subcommittee might have.

                    Biography for Richard F. Moorer
    Mr. Moorer is the Deputy Assistant Secretary for Technology 
Development within the Office of Energy Efficiency and Renewable Energy 
at the Department of Energy. Mr. Moorer is the first Deputy Assistant 
Secretary to hold this position which was created on July 1, 2002, by 
the re-organization of the Office of Energy Efficiency and Renewable 
Energy. In this position, Mr. Moorer has responsibility for the entire 
energy efficiency and renewable energy portfolio, which is now 
organized into eleven major program areas.
    Prior to this position, Mr. Moorer was the Associate Deputy 
Assistant Secretary for Transportation Technologies. He was responsible 
for the Department of Energy's strategic planning, analysis and budget 
development on efficient automotive systems and alternative fuels and 
for the development and implementation of the alternative fuel vehicle 
provisions of the Energy Policy Act. Mr. Moorer also served as the head 
of the Department's Bioenergy Task Force.
    Formerly, he was the Director of the Biofuels Systems Division 
(BSD) of the U.S. Department of Energy (DOE) Conservation and Renewable 
Energy Program's Office of Transportation Technologies. He was 
responsible for the management and oversight of the Department's 
Biofuels Systems programs. These programs focus on the research and 
development of innovative and economical processes that produce and 
convert biomass feedstocks to alcohol fuels, biomass-based gasoline and 
bio-diesel fuel. In this position he developed the DOE Renewable Energy 
Transportation Fuels Initiative. In addition, he was instrumental in 
developing the transportation technology section of the National Energy 
Strategy.
    Mr. Moorer spent 12 years working on advanced conversion processes 
to produce alcohol fuels for the transportation sector. During this 
time, he conducted several feasibility studies on biomass alcohol 
production and focused the efforts of the Department's research and 
development efforts on the most promising conversion technologies. Mr. 
Moorer also served as Program Manager for the biochemical conversion 
technology program with the Biofuels and Municipal Waste Technology 
(BMWT) Division.
    Mr. Moorer's previous government experience included a position 
with the U.S. Environmental Protection Agency for three years. During 
that time, Mr. Moorer was involved with the registration of pesticides 
and the study of the energy and environmental impacts of agriculture. 
In addition, Mr. Moorer conducted research on the environmental effects 
of heavy metals on marine life with the National Marine Water Quality 
Laboratory in Narragansett, Rhode Island.
    Mr. Moorer obtained his Bachelor of Science degree in Zoology from 
Duke University in 1974 and his MBA from Virginia Polytechnic Institute 
in 1990. He and his wife Kathleen reside in Bethesda, Maryland.

    Chairwoman Biggert. Thank you very much.
    And we'll move next to Mr. Schubert for five minutes. You 
are recognized.

STATEMENT OF MR. ROBERT P. SCHUBERT, PROFESSOR AND TEAM FACULTY 
    COORDINATOR, COLLEGE OF ARCHITECTURE AND URBAN STUDIES, 
                 VIRGINIA POLYTECHNIC INSTITUTE

    Mr. Schubert. Madame Chair, before I start, I would like to 
acknowledge two of my colleagues that have joined me: 
Professors Robert Denae and Joe Wheelard directly behind me. 
This is part of the core team faculty advisors that produced 
this project.
    Before we address the specific questions provided, we would 
like to acquaint you with some aspects of our building produced 
for the 2005 Solar Decathlon competition.
    The Virginia Tech Solar House integrates technology and 
architecture. The house achieved a balance between the two as 
reflected by winning the juried competition elements of 
Architecture, Dwelling, Daylighting, and tying for first place 
in Electric Lighting.
    Some of the key features included an efficient plan. The 
house is comprised of a small 580 square foot rectangular plan 
wrapped on three sides with a translucent skin and covered with 
a hovering curved roof inclined towards the sun.
    A floating roof. The particular shape of the roof, a 
lightweight stressed skin, folded-plate filled with foam 
insulation, is designed to set the solar panels at an optimum 
angle for energy collection and integrates the panels into the 
roof form.
    The north core module. A thick linear core defines a 
massive north wall and houses the batteries, electrical, and 
mechanical equipment, and serves functions such as the kitchen, 
laundry, storage, and closets. Constructed of expanded 
polystyrene panels that are lightweight, easily assembled, and 
yield a high insulation value, this module could be 
manufactured separately and utilized in many applications.
    A translucent wall assembly. Two layers of aerogel filled 
polycarbonate panels transmit beautiful diffused light while 
delivering an extremely high insulation value. There will be no 
need for electric lights from sunrise to sunset.
    A tunable wall. Between the polycarbonate panels are three 
systems: a pair of reflective and absorptive motorized shades 
allow user control of light and heat transmission; linear 
actuated vents top and bottom provide ventilation for further 
thermal control; and, dimmer controlled LED lights allow the 
user to make the wall any color, no pain required.
    Innovative engineered systems. Our energy-efficient ground 
source heat pumps powered by the solar electric panels provide 
environmental conditioning in the form of heating and cooling 
while delivering heat through a radiant floor that offers the 
best in terms of efficiency and quality. There is little air 
noise or movement and the ambient temperature can be kept 
lower, saving energy.
    Transportation. A lowboy chassis serving as the floor and 
foundation structure was designed to receive a detachable 
gooseneck and rear axles for transport. A truss on each side of 
the 48-foot span reflects--resists deflection while in transit 
and rotates down 90 degrees to create a deck surrounding the 
house when stationary.
    Now I would like to respond to the questions that were 
provided.
    Some of the main technical and other barriers to greater 
use of solar energy are: inertia of public perception towards 
the status quo; perception of increased complexity of new 
systems versus conventional systems; conservatism of building 
industry and their adversity to risk; cost, time of return on 
investment; and there are few new architectural ideas relative 
to new technology.
    Some suggestions for what might be done to overcome those 
barriers are: increased incentives for solar installation, such 
as tax and mortgage incentives, low interest loans, and utility 
credits; create a national awards program for solar design; 
encourage numerous and repetitive small-scale applications; 
regional centers that promote the use of solar energy, similar 
to agricultural extension programs, working in conjunction with 
state energy offices; require utilities to generate a 
percentage of power from solar energy; federal energy subsidies 
redirected to encourage a higher percentage of renewable 
energy; in addition to a long--week-long competition on the 
Mall, recreate the solar village for a longer period in an expo 
type of forum.
    The Solar Decathlon Competition is an effective means to 
seed the potentials of solar energy in the public 
consciousness. It touches people from all walks of life and 
from diverse economic and social backgrounds. As witnessed in 
the competition of 2002 and 2005, there is widespread and 
growing public interest in solar energy. Integral with the 
competition, all aspects of the house are considered with 
respect to conservation of energy. Particularly the Virginia 
Tech house, demonstration was made that a solar dwelling can 
offer a desirable and rich lifestyle.
    Its competitive content activates top research universities 
to further their research efforts and to draw unique 
collaborations with industry.
    The Solar Decathlon of 2002 provided a wealth of 
information in our own experience of designing and building a 
house as well as observing the houses from other research 
institutions.
    Our 2005 house integrates the research from the previous 
work and lessons learned from other houses. In addition to on-
campus expertise, a network of manufacturers and professionals 
having ties to Virginia Tech was used to develop and refine 
ideas. And an extensive student network researched a wide range 
of materials, processes, and technologies, some of which were 
integrated into our design.
    Two of the problems we encountered were: an inordinate 
amount of time, energy, and cost associated with our 
transportation strategy; percentage of time utilized to raise 
in-kind donations and extreme difficulty in raising cash 
contributions.
    We feel our house would be commercially viable, placed 
within the context of a commercially manufactured housing. 
Winning the Architecture and Dwelling Awards in the 
competition, the Virginia Tech house demonstrated its appeal to 
a discriminating set of judges. The Virginia Tech Solar House 
offers various possibilities for components that will conserve 
energy and improve the quality of residential building.
    In conclusion, we would like to leave with this final 
thought.
    We approach a watershed. Our lifetime has experienced an 
increased dependence on technology. Almost every amenity we 
enjoy is dependent upon centralized systems whose working and 
control are far removed from localized areas. A short 
curtailment of services sends neighborhoods and regions into 
temporary states of chaos. In the recent case of hurricane 
damage, available supplies of gasoline could not be accessed 
due to lack of electrical service. Whether from natural 
disaster or terrorist threat, large-scale technologies have 
exposed growing risks. We must reduce the risk of widespread 
technological failure by providing alternative distributed 
power solutions and backing up centralized energy systems with 
grass roots capability of generating power. With continued 
support and research of solar energy, this vision is achievable 
for the next generation.
    Thank you.
    [The prepared statement of Mr. Schubert follows:]
                Prepared Statement of Robert P. Schubert
    Accompanied by Robert Dunay, Chair, Industrial Design Program and 
Joseph Wheeler, Lead Faculty Advisor, Solar Decathlon Project.

The Virginia Tech Solar House

    The Solar Decathlon of 2002 was an educational watershed 
challenging the relation between academia and practice and between 
research and its corresponding contribution to society. The knowledge 
derived from the 2002 competition has been integrated into the Virginia 
Tech house of 2005 to produce a work that combines innovative 
technology and daily life styles. This new project has achieved a high 
level of complexity expressed in an elegant simplicity. The initial 
theme of the art of integration has been realized through a design of a 
solar house that demonstrates a comfortable living and working 
environment, excellence in sustainable construction, and strong 
architectonic expression. The project presents forms that look to the 
future embodied with a sense of the sustainable and the beautiful.

Mission

    The mission of the Virginia Tech Solar Decathlon Team is to inform 
and educate the public about issues of energy (particularly solar) and 
to give students energy expertise through a design-build process of 
innovative research and testing through application.
    Our multi-disciplinary team strives to achieve the following goals:

        <bullet>  To illustrate how solar energy can improve the 
        quality of life. Solar energy is clean; it significantly 
        reduces pollutant emissions; and solar energy is renewable, 
        thereby increasing our nation's energy security.

        <bullet>  To make the public aware of how energy is used in 
        their daily lives, and to illustrate the energy consumption of 
        daily activities.

        <bullet>  To demonstrate that market-ready technologies exist 
        that can meet the energy requirements of our daily activities 
        by tapping into the sun's power.

        <bullet>  To demonstrate that sustainable materials and 
        technologies can comprise a beautiful structure in which to 
        live, work, and play.

        <bullet>  To examine a project in a prototypical manner to 
        develop solutions that can be reproduced and realized through 
        manufacturing techniques with economic benefit.

        <bullet>  To challenge conventional practice through 
        interdisciplinary collaboration and corporate partnerships.

Beginning of Oral Presentation of Questions to be Addressed in the 
                    Testimony

    Before we address the specific questions provided, we would like to 
acquaint you with some of aspects of our building produced for the 2005 
Solar Decathlon competition.
    The Virginia Tech Solar house integrates technology and 
architecture. The house achieved a balance between the two as reflected 
by winning the juried competition elements of Architecture, Dwelling, 
Daylighting and tying for first place in electric lighting.
    Some of the key features include:

        <bullet>  efficient plan--The house is comprised of a small 
        (580 sq. ft.) rectangular plan wrapped on three sides with a 
        translucent skin and covered with a hovering curved roof 
        inclined toward the sun.

        <bullet>  floating roof--The particular shape of the roof, a 
        lightweight stressed skin, folded-plate filled with foam 
        insulation, is designed to set the solar panels at an optimum 
        angle for energy collection and integrate the panels into the 
        roof form.

        <bullet>  north core module--A thick linear core defines a 
        massive north wall and houses the batteries, electrical and 
        mechanical equipment, and service functions such as the 
        kitchen, laundry, storage, and closets. Constructed of expanded 
        polystyrene panels that are lightweight, easily assembled, and 
        yield a high insulation value, this module could be 
        manufactured separately and utilized in many applications.

        <bullet>  translucent wall assembly--Two layers of aerogel 
        filled polycarbonate panels transmit beautiful diffuse light 
        while delivering an extremely high insulation value. There will 
        be no need for electric lights from sunrise to sunset.

        <bullet>  tunable walls--Between the polycarbonate panels are 
        three systems. A pair of reflective and absorptive motorized 
        shades allow user control of light and heat transmission; 
        linear actuated vents top and bottom provide ventilation for 
        further thermal control; and, dimmer controlled LED lights 
        allow the user to make the wall any color, no paint required.

        <bullet>  innovative engineered systems--Our energy efficient 
        ground source heat pumps powered by the solar electric panels 
        provide environmental conditioning in the form of heating and 
        cooling while delivering heat through a radiant floor that 
        offers the best in terms of efficiency and quality. There is 
        little air noise or movement and the ambient temperature can be 
        kept lower saving energy.

        <bullet>  transportation--A lowboy chassis serving as the floor 
        and foundation structure was designed to receive a detachable 
        gooseneck and rear axels for transport. A truss on each side of 
        the 48-foot span resists deflection while in transit and 
        rotates down 90 degrees to create a deck surrounding the house 
        when stationary.

In response to the specific questions:

1.  Some of the main technical and other barriers to greater use of 
solar energy are:

        <bullet>  Inertia of public perception towards the status quo

        <bullet>  Perception of increased complexity of new system vs. 
        conventional systems

        <bullet>  Conservatism of building industry and their adversity 
        to risk

        <bullet>  Cost--time of return on investment

        <bullet>  There are few new architectural ideas relative to new 
        technology

Some suggestions for what might be done to overcome those barrier are:

        <bullet>  Increased incentives for solar installations such as 
        tax and mortgage incentives, low interest loans, and utility 
        credits

        <bullet>  Create a National Awards Program for solar design

        <bullet>  Encourage numerous and repetitive small-scale 
        applications

        <bullet>  Regional centers that promote the use of solar energy 
        (similar to agricultural extension programs) working in 
        conjunction with state energy offices

        <bullet>  Require utilities to generate a percentage of power 
        from solar energy

        <bullet>  Federal energy subsidies redirected to encourage a 
        higher percentage of renewable energy

        <bullet>  In addition to a week-long competition on the Mall, 
        re-create the solar village for a longer period in an Expo type 
        of forum

The Solar Decathlon Competition is an effective means to seed the 
        potentials of solar energy in the public consciousness.

        <bullet>  It touches people from all walks of life and from 
        diverse economic and social backgrounds. As witnessed in the 
        competition of 2002 and 2005, there is widespread and growing 
        public interest in solar energy. Integral with the competition, 
        all aspects of the house are considered with respect to 
        conservation of energy. Particularly the Virginia Tech house, 
        demonstration was made that a solar dwelling can offer a 
        desirable and rich lifestyle.

        <bullet>  Its competitive content activates top research 
        universities to further their research efforts and to draw 
        unique collaborations with industry. The competition allows 
        partnerships to be formed. Among many corporations, Virginia 
        Tech worked with GE Specialty Film and Sheet and Cabot 
        Corporation to produce a wall that delivers great light and 
        high insulation. Likewise, collaboration with California 
        Closets has the corporation, for the first time, building 
        cabinet prototypes from a Dow Chemical wheat board that is 
        sustainable and non detrimental to the environment.

2.  The Solar Decathlon of 2002 provided a wealth of information in our 
own experience of designing and building a house as well as observing 
the houses from other research institutions.

        <bullet>  Our 2005 house integrates the research from the 
        previous work and lessons learned from other houses.

        <bullet>  In addition to on campus expertise, a network of 
        manufacturers and professionals having ties to Virginia Tech 
        was used to develop and refine ideas.

        <bullet>  A student network researched a wide range of 
        materials, processes and technologies, some of which were 
        integrated into our design.

        <bullet>  The United States Green Building Council's (USGBC) 
        draft LEED Residential program provides us with an outline to 
        reduce indoor air pollutants, minimize global warming, reduce 
        waste, include recycled content, represent low embodied energy 
        in manufacture and harvest, limit destruction to habitat, and 
        rapidly renew.

Two of the problems we encountered were:

        <bullet>  An inordinate amount of time, energy and cost 
        associated with our transportation strategy

        <bullet>  Percentage of time utilized to raise in-kind 
        donations and extreme difficulty in raising cash contributions

3.  Our house would be commercially viable:

        <bullet>  Placed within the context of commercially 
        manufactured housing.

        <bullet>  Winning the Architecture and Dwelling Awards in the 
        competition, the Virginia Tech house demonstrated its appeal to 
        a discriminating set of judges.

        <bullet>  The Virginia Tech Solar House offers various 
        possibilities for components that will conserve energy and 
        improve the quality of residential building.

    In conclusion, we would like to leave with this final thought:

    We approach a watershed. Our lifetime has experienced an increased 
dependence on technology. Almost every amenity we enjoy is dependent 
upon centralized systems whose working and control are far removed from 
localized areas. A short curtailment of services sends neighborhoods 
and regions into temporary states of chaos. In the recent case of 
hurricane damage, available supplies of gasoline could not be accessed 
due to lack of electrical service. Whether from natural disaster or 
terrorist threat, large-scale technologies have exposed growing risks. 
We must reduce the risk of widespread technological failure by 
providing alternative distributed power solutions and backing up 
centralized systems with grass roots capability of generating power. 
With continued support and research of solar energy, this vision is 
achievable for the next generation.

                    Biography for Robert P. Schubert
Associate Dean for Research and Outreach; Full Professor, College of 
        Architecture and Urban Studies, Virginia Tech, Blacksburg, 
        Virginia 24061-0205

Place of Birth: Gordonsville, Virginia

Citizenship: USA

Date of Birth: 24  May  1951

Marital Status: Married--three children

    Robert P. Schubert is a professor and member of the College of 
Architecture and Urban Studies at Virginia Polytechnic Institute and 
State University. Professor Schubert's research has been in the area of 
energy and building design with an emphasis on promoting architectural 
solutions that minimize the dependence on non-renewable energy sources 
and environmental degrading processes. This work is represented in a 
co-authored book, Alternative Energy Sources in Building Design, 1974. 
His more recent efforts have focused on the development and evaluation 
of tools that help to guide and evaluate the consequences of design 
decisions.
    Professor Schubert is currently serving as the Associate Dean for 
Research and Outreach for the College of Architecture and Urban 
Studies. During his tenure as Research Dean, the college reached the 
highest level of funding attained during the history of the school, 
placing the college in the top three of its peer institutions. Other 
administrative accomplishments include creating and instituting the 
College's Scholarship Enhancement Grant Program designed to support 
both faculty and students. He has served on the Board of Directors of 
the Architectural Research Centers Consortium, a consortium of thirty-
four national and international schools of architecture involved in 
building related research; and Director of the Master of Science 
Program in the College of Architecture. He was a recipient of the 
Teaching Excellence Award. Dean Schubert's most recent activities 
include Faculty Coordinator for Virginia Tech's entry in the 
International Solar Decathlon competition held in Washington, DC in 
2002 and in 2005.

    Chairwoman Biggert. Thank you very much.
    And now, Mr. Lyng, you are recognized.

  STATEMENT OF MR. JEFFREY R. LYNG, GRADUATE STUDENT AND TEAM 
   PROJECT MANAGER, CIVIL, ENVIRONMENTAL, AND ARCHITECTURAL 
              ENGINEERING, UNIVERSITY OF COLORADO

    Mr. Lyng. Madame Chairman and Members of the Subcommittee 
on Energy, on behalf of the University of Colorado, I would 
like to thank you for the opportunity to speak with you today.
    I would also like to acknowledge the U.S. Department of 
Energy, the National Renewable Energy Laboratory, and each of 
the contest sponsors for their work in fostering the Solar 
Decathlon and their commitment to improving the future of 
energy. Most importantly, I would like to recognize all of the 
2005 Solar Decathlon teams, especially those not represented 
here today, for their unwavering dedication to energy.
    I am here today to give you a fresh perspective as a young 
professional in the renewable energy industry, but more 
importantly as a fellow Solar Decathlete. I am here to tell the 
story of a new generation of solar patriots.
    For student competitors, the Solar Decathlon offers a 
learning experience rarely seen in academia. These design/build 
projects are training a highly skilled workforce able to do 
more with less. The Solar Decathlon embodies much more than job 
training, however. It symbolizes a sincere effort on the part 
of students, teachers, industry professionals, and government 
leaders to solve some of the most immediate energy production 
problems facing our world. Furthermore, it symbolizes the 
empowerment of a new generation.
    I could continue on with accolades about the competition 
and describe for you how powerful it was to participate in a 
demonstration of solar energy during a week of overcast weather 
or how inspiring it was to see over 120,000 visitors on the 
National Mall. But that is not why we are here. We are here 
because we acknowledge the potential of the Solar Decathlon 
competition to spark innovation, ingenuity, and change. We also 
recognize that the competition can be improved. Through mutual 
collaboration and our discussions here today, I hope that we 
can tailor this competition to more closely address the 
mounting concerns of energy cost and reliability that the 
mainstream homeowner is faced with every day.
    Having devoted the past three years of my life to the CU 
Solar Decathlon Project and spoken with thousands of people who 
toured the Bio-S(h)IP during the week of the competition, I am 
excited to participate in your efforts to strengthening it. I 
would like to share with you three personal observations of my 
experiences which address the questions outlined for our 
discussion and offer solutions within the context of the Solar 
Decathlon competition.
    Observation one: some visitors undoubtedly walked away from 
the competition misinformed about solar energy. For many 
members of the public, the Solar Decathlon was their first 
introduction for solar--to solar energy. This misinformation 
was not due to a lack of knowledge or enthusiasm on the part of 
the Solar Decathletes. It was the result of a fundamental flaw, 
I believe, of the competition: the need to be off-grid.
    For many visitors, their impressions of solar technology 
from touring the homes are that it requires huge battery banks, 
should cover every square foot of your home, and probably 
requires hiring someone to staff your mechanical room 24/7. I 
believe that transitioning the competition from a stand-alone 
application to a grid-tied application with smaller arrays, 
little, if any, on-site energy storage, and net metering on 
each house can only result in homes more closely aligned with 
what the typical consumer can actually expect to live in.
    Observation two: while the competition is a great showcase 
for individual technologies and products, it is not a great 
showcase of integrated building approaches. Shortly after 
returning to Colorado from the decathlon competition, I spent 
three days at a builder conference attended by many production 
homebuilders. I felt like I had gone from one end of the 
residential building spectrum to the other. It could be argued 
that CU Solar Decathlon house is perhaps the most custom home 
in the State of Colorado right now, and likewise for the other 
homes in their Districts. In the design process, we pushed the 
last percentage point of efficiency for maximum energy 
production. Contrast that with the production home market in 
which an unfortunate number of products are right now being 
designed and built all around the country with no regard to the 
benefits of an east-west solar orientation or the advantages of 
building homes even slightly above current energy code.
    It is tragic to think that none of the 18 homes that were 
showcased on the National Mall last month might ever be built. 
There exists an inherent and ever-widening disconnect between 
the homes Solar Decathletes give form to and the realities that 
the production home market in the United States provide. I 
believe that the competition falls short of offering real 
solutions to how these homes can be incorporated into the large 
subdivisions. We must find ways to facilitate energy efficient 
and solar technology transfer from the Solar Decathlon 
competition to the production home market if we aspire to 
appeal to the average home buyer.
    Observation three: the true economic viability of each home 
is not well understood. Perhaps the biggest surprise for me was 
the--through this entire process was how much of my time was 
consumed in fundraising. There was a talk of pulling the plug 
this spring and a very real concern that the defending 
champions would not be able to compete due to lack of funding.
    The CU Solar Decathlon team's budget for the 2005 project 
was $500,000. Assuming a comparable budget for all teams in 
2007, the $100,000 pledge to each competing university from the 
DOE leaves a substantial 80 percent cost sharing on the part of 
students participating. That level of fundraising can distort 
design.
    Alleviating the burden of fundraising would have several 
positive ramifications. It would increase the quality of each 
design. It would ensure a more objective approach to showcasing 
only the best technologies. And it would provide a means for 
accurate accounting of the true retail cost of each home.
    The Solar Decathlon competition must not be perceived as a 
novelty or political distraction. It must play a supporting 
role in creating a new future of energy if we are to achieve 
what Richard Nixon was referring to in 1973 when he said, ``Let 
us set as our national goal, in the spirit of Apollo, with the 
determination of the Manhattan Project, that by the end of this 
decade we will have developed the potential to meet our own 
energy needs without depending upon any foreign energy 
source.''
    Thirty years later, we can all agree we didn't make it. But 
why didn't we make it? We didn't get to the Moon by encouraging 
college students to build bottle rockets on the National Mall.
    Achieving energy independence will take much more than just 
collaborative efforts on the part of students, builders, 
researchers, and policymakers to bring this to fruition. It 
will take federal leadership beyond these collaborations to 
make it happen.
    Each Solar Decathlete is doing their part in keeping the 
candle lit for solar energy. It is now time for Members of this 
committee and all Members of Congress to lead the way in 
carrying the torch.
    Thank you.
    [The prepared statement of Mr. Lyng follows:]
                 Prepared Statement of Jeffrey R. Lyng

Madam Chairman and Members of the Subcommittee on Energy:

    On behalf of the University of Colorado College of Architecture & 
Planning and College of Engineering and Applied Science, I would like 
to thank you for the opportunity to speak with you today.
    I would like to acknowledge the U.S. Department of Energy, the 
National Renewable Energy Laboratory, and each of the contest sponsors 
for their work in fostering the Solar Decathlon and their commitment to 
improving the future of energy. Most importantly, I would like to 
recognize all of the 2005 Solar Decathlon teams, especially those not 
represented here today, for their unwavering dedication to solar 
energy.
    I am here today to give you a fresh perspective as a young 
professional in the renewable energy industry, but more importantly as 
fellow Solar Decathlete. I'm here to tell the story of a new generation 
of solar patriot.
    For student competitors, the Solar Decathlon offers a learning 
experience rarely seen in academia. These design/build projects are 
training a highly skilled workforce able to do more with less. The 
Solar Decathlon embodies much more than job training, however. It 
symbolizes a sincere effort on the part of students, teachers, industry 
professionals and government leaders to solve some of the most 
immediate energy production problems facing our world. Furthermore, it 
symbolizes the empowerment of a new generation.
    I could continue on with accolades about the competition and 
describe for you how powerful it was to participate in a demonstration 
of solar energy during a week of overcast weather or how inspiring it 
was to see over 120,000 visitors on the National Mall. But that's not 
why we're here. We are here because we acknowledge the potential of the 
Solar Decathlon competition to spark innovation, ingenuity, and change. 
We also recognize that the competition can be improved. Through mutual 
collaboration and our discussion here today I hope that we can tailor 
this competition to more closely address the mounting concerns of 
energy cost and reliability that the mainstream home owner is faced 
with every day.
    Having devoted the past three years of my life to the CU Solar 
Decathlon Project and spoken with thousands of people who toured the CU 
Bio-S(h)IP during the week of the competition, I am excited to 
participate in your efforts to strengthening it. I would like to share 
with you three personal observations from my experiences which address 
the questions outlined for our discussion and offer solutions within 
the context of the Solar Decathlon competition.

1.  Some visitors undoubtedly walked away from the competition 
misinformed about solar energy.

    For many members of the public, the Solar Decathlon was their first 
introduction to solar energy. This misinformation was not due to a lack 
of knowledge or enthusiasm on the part of Solar Decathletes. It was the 
result of a fundamental flaw of the competition; the need to be off-
grid.
    For many visitors, their impressions of solar technology from 
touring the homes are that it requires huge battery banks, should cover 
every square foot of your roof and probably requires hiring someone to 
staff your mechanical room 24/7 to operate it. I believe that 
transitioning the competition from a stand-alone application to a grid-
tied application with smaller arrays, little if any on-site energy 
storage and net metering on each house can only result in homes more 
closely aligned with what the typical consumer can actually expect to 
live in.
    I am exceedingly proud of the CU Team for winning the 
Communications contest. We invested thousands of hours into 
streamlining our messaging to the public, yet that message was still 
sometimes misconstrued. We must fix this problem of grid 
interconnectedness before the 2007 event if the public is to comprehend 
the true merits of solar energy or else run the risk of leaving the 
wrong impression.

2.  While the competition is a great showcase for individual 
technologies and products, it is not a great showcase of integrated 
building approaches.

    I'd like to share with you my experiences this past week. Shortly 
after returning to Colorado from the Solar Decathlon competition, I 
spent three days at a builder conference well attended by many 
production home builders. I felt like I'd gone from one end of the 
residential building spectrum to another. It could be argued that the 
CU Solar Decathlon house is perhaps the most custom home in the State 
of Colorado right now, and likewise for each of the other homes in 
their respective states. In the design process, we pushed the last 
percentage point of efficiency for maximum energy production. Contrast 
that with the production home market in which an unfortunate number of 
products are right now being designed and built all around the country 
with no regard to the benefits of an east-west solar orientation or the 
advantages of building homes even slightly above current energy code.
    It is tragic to think that none of the 18 homes that were showcased 
on the National Mall last month might ever be built again. There exists 
an inherent and ever-widening disconnect between the homes Solar 
Decathletes give form to and the realities of the production home 
market in the U.S. I believe that the competition falls short of 
offering real solutions to how these homes can be incorporated into the 
large subdivisions. We must find ways to facilitate energy efficient 
and solar technology transfer from the Solar Decathlon competition to 
the production home market if we aspire to appeal to the average home 
buyer.

3.  The true economic viability of each home is not well understood.

    Perhaps the biggest surprise for me through this entire process was 
how much of my time was consumed by fundraising. There was talk of 
``pulling the plug'' this spring and a very real concern that the 
defending champions would not be able to compete due to lack of 
funding.
    The CU Solar Decathlon Team's budget for the 2005 project was 
$500,000. Assuming a comparable budget for all teams in 2007, the 
$100,000 pledge to each competing university from the DOE leaves a 
substantial 80 percent cost sharing on the part of the students 
participating. That level of fundraising can distort design.
    Alleviating the burden of fundraising would have several positive 
ramifications.

        1.  It would increase the quality of each design by allowing 
        teams to devote more time to the design and construction 
        phases, rather than fundraising.

        2.  It would ensure a more objective approach to showcasing 
        only the best technologies, rather than simply those products 
        that teams are able to secure donations for.

        3.  It would provide a means for accurate accounting of the 
        true retail cost of the each home by eliminating the guess work 
        associated with product donation.

    I also recommend abandoning the Energy Balance contest for a Life-
Cycle Cost contest in which teams compete to build the least expensive 
home to construct and operate. This would be very possible under a net-
metering scenario.
    The Solar Decathlon competition must not be perceived as a novelty 
or political distraction. It must play a supporting role in creating a 
new future of energy use if we are to achieve what Richard Nixon was 
referring to in 1973 when he said, ``Let us set as our national goal, 
in the spirit of Apollo, with the determination of the Manhattan 
Project, that by the end of this decade we will have developed the 
potential to meet our own energy needs without depending upon any 
foreign energy source.''
    Thirty years later, we can all agree that we didn't make it. But 
why didn't we make it? We didn't get to the Moon by encouraging college 
students to build bottle rockets on the National Mall.
    Achieving energy independence will take more than just 
collaborative efforts on the part of students, builders, researchers, 
and policy-makers to bring to fruition. It will take federal leadership 
beyond these collaborations to make it happen.
    Each Solar Decathlete is doing their part in keeping the candle lit 
for solar energy. It is now time for Members of this committee and all 
Members of Congress to lead the way in carrying the torch.
    Thank you.

            Key Features of the 2005 University of Colorado

                 Solar Decathlon House; The Bio-S(h)IP

        <bullet>  Revolutionary Bio-SIP, or bio-based Structural 
        Insulated Panel, wall panels composed of soy-based polyurethane 
        insulation and fully recycled post-consumer waste paper board.

        <bullet>  A single-chassis design, reinventing the ``solar 
        mobile home'' for the 21st century.

        <bullet>  A 6.8 kW photovoltaic (PV) array comprised of 34 
        SunPower SPR-200 watt panels with an efficiency of 16.1 percent 
        (among the highest in the industry).

        <bullet>  Building integrated photovoltaic (BIPV) array to 
        serve as shading devices over south facade windows.

        <bullet>  Evacuated-tube solar thermal collectors that supply 
        over 80 percent of space heating and hot water needs.

        <bullet>  High-efficiency, ductless air conditioning units.

        <bullet>  Radiant in-floor heating system with innovative 
        controls for energy efficiency and improved comfort.

        <bullet>  Translucent double-skinned polycarbonate clerestory 
        windows filled with high-insulation hydrophobic silica gel 
        powder.

        <bullet>  Low-e, double-paned windows with attractive 
        fiberglass frames that boast an R-14 COG (center of glass) 
        value.

        <bullet>  An energy recovery ventilator (ERV) to provide 
        efficient ventilation, heat recovery and air filtration.

        <bullet>  Low-power, high-performance kitchen appliances 
        including a combination washer/dryer, an induction stovetop, a 
        high-insulation refrigerator, and a combination microwave and 
        electric convection oven.

    Please refer to the Bio-S(h)IP User Manual for a more detailed 
overview of the key features in the 2005 University of Colorado Solar 
Decathlon House.

1.  Given your experience, what do you think are the main technical and 
other barriers to greater use of solar energy? Do you have any 
suggestions for what might be done to overcome those barriers? How do 
you see the competition itself as helping to move both solar and 
efficiency technologies into the mainstream building market?

    I believe that there remain technical, educational, institutional 
and financial barriers to greater market penetration of solar energy.
Technical barriers
    There is ample research yet to be done to increase efficiencies; 
reduce up-front costs and increase integration.
Educational barriers
    Currently in the U.S., there are only a handful of universities 
that offer degree programs in renewable energy. I discovered the 
Building Systems Program at the University of Colorado at Boulder 
through the DOE Solar Decathlon website on the 2002 event.
Institutional barriers
    There exists an inherent and ever-widening disconnect between the 
homes Solar Decathletes give form to and the realities of the 
production home market in the U.S. I believe that the competition falls 
short of offering real solutions to how these homes can be incorporated 
into the large subdivisions. We must find ways to facilitate energy 
efficient and solar technology transfer from the Solar Decathlon 
competition to the production home market if we aspire to appeal to the 
average home buyer.
    In addition, partnership with existing government programs and 
national laboratories is crucial. For example, none of the 2005 Solar 
Decathlon Teams partnered with the DOE Building America Program.
Financial barriers
    The CU Solar Decathlon Team's budget in 2005 was approximately 
$500,000. DOE funding to each team will increase from $5,000 in 2005 to 
$100,000 in the 2007 event. At a sponsorship level of $100,000, the DOE 
is essentially requesting an 80 percent cost share from all of the 
participating universities. This is a substantial amount of funding for 
undergraduate and graduate engineers and architects to raise in a 12 to 
18 month period. It is certainly not enough time to forge the type of 
partnerships with sponsors that are likely to donate at higher levels.
    Increasing the funding level to $250,000 per team (an approximate 
cost share of 50 percent) would have several positive ramifications on 
the competition.

        <bullet>  It would increase the quality of each design by 
        allowing teams to devote more time to the design and 
        construction phases, rather than fundraising.

        <bullet>  It would ensure a more objective approach to 
        showcasing only the best technologies, rather than simply those 
        products that teams are able to secure donations for.

        <bullet>  It would provide a means for accurate accounting of 
        the true retail cost of the each home by eliminating the guess 
        work associated with product donation.

2.  What sources of information did you draw on to figure out how to 
build your house? What problems arose in designing or constructing your 
house that surprised you?

    The University of Colorado won the Documentation contest in what 
one judge referred to as a ``Tour de Force'' approach. The CU Team's 
principle resources were the professors and faculty advisors from both 
colleges. Team members developed expertise along the way to perform 
necessary energy modeling and thereby take advantage of the resources 
available on campus. A wealth of design tools were used by the CU Team 
through the schematic design phase. For example, six separate design 
tools were used to model the active and passive solar systems alone in 
the CU house. This is a testament to the need for further integrated 
design tools. A trial and error approach to extensive energy simulation 
dictated the final design from an engineering perspective. The CU Team 
submitted an exhaustive Schematic Energy Analysis Report early in the 
design process to organizers at the National Renewable Energy 
Laboratory.
    Perhaps the biggest surprise for me through this entire process has 
been how much of the entire CU Team's time was consumed by fundraising. 
Unfortunately, this time would have been better spent concentrating on 
the design, construction and commissioning phases of the project.

3.  Would your house be commercially viable? If not, what changes would 
make it more attractive to the mainstream home buyer?

    The CU Team worked with the largest manufactured home builder in 
the Nation, Genesis Homes, for the design and construction of the 
chassis used to transport the Bio-S(h)IP. In addition, the CU Team 
worked with a client, Prospect New Town (a new-urbanist development in 
Longmont, Colorado), for the pre-purchase of the home. Further 
incorporation of the manufactured home process will inevitably drive 
the retail construction cost of the Bio-S(h)IP down. In addition, all 
of the products used in the CU house are commercially available today.
    Having one of the longest over-land distances to travel to the 
competition, CU Bio-S(h)IP was principally driven in design by the need 
to transport it thousands of miles. The average home owner will never 
move their home anywhere, much less thousands of miles. There is an 
inherent contradiction here. The mainstream home buyer is not 
interested in a product that is driven architecturally by the need for 
mobility. The Bio-S(h)IP was designed in cooperation with a specific 
client and for the unique purpose of being transported over long 
distances. For this reason, rather than suggest changes to the Bio-
S(h)IP that would render it more attractive to the mainstream market, I 
offer suggestions for how to tailor future Solar Decathlon competitions 
in a way that will render the finished products more appealing to the 
average home buyer.

        1.  Re-examine the merit of an 800 square foot limitation.

            There are many applications for 800 square foot solar-
        powered buildings; low-income housing, developing world and 
        war-torn area aid relief, and Native American reservations. 
        These are not mainstream home buyer applications, however. 
        According to the National Association of Home Builders, the 
        average size of a homes purchased in the U.S. is now 2,200 
        square feet.

        2.  Consider a grid-tied application including net-metering.

            Establishing a mini grid for the Solar Village our enabling 
        each team to tie into the local electrical grid would 
        accommodate smaller PV arrays and battery bank sizes and would 
        also give the general public a truer sense of what living with 
        solar would be like for them.

        3.  Exchange the Energy Balance contest for a Life-Cycle Cost 
        contest.

            The cost of construction and operation is of far greater 
        interest to the average home buyer than is the concept of 
        energy balance. With a more diligent accounting of the cost of 
        construction and a net-metering scenario, teams could 
        conceivably compete for the lowest life-cycle cost.

                     Biography for Jeffrey R. Lyng
    Jeff Lyng holds a B.S. in Ecology from SUNY-ESF and is presently 
completing a Master's of Civil Engineering with a focus in renewable 
energy in the Building Systems Program at the University of Colorado. 
He was instrumental in founding the University of Colorado Renewable 
Energy Club (CURE) and also serves on the Board of Directors for the 
Colorado Alliance for a Sustainable Future (CASF) as the CU student 
group liaison. Jeff's Master's project will focus on the implementation 
of Colorado Amendment 37's residential solar set-aside provision in the 
new home market through existing residential green building programs. 
He currently serves as the Project Manager for the 2005 CU Solar 
Decathlon Project and as the Built Green Specialist for the Metro 
Denver Home Builders Association.

    Chairwoman Biggert. Thank you very much.
    Mr. Knowles, you are recognized for five minutes.

   STATEMENT OF MR. JONATHAN R. KNOWLES, PROFESSOR AND TEAM 
   FACULTY ADVISOR, DEPARTMENT OF ARCHITECTURE, RHODE ISLAND 
                        SCHOOL OF DESIGN

    Mr. Knowles. Thank you, Madame Chairwoman and Members of 
the Subcommittee. I am very pleased to be here today.
    I am joined with my testimony with Christina Zanconnie, who 
is a Bachelor of Architect candidate for 2006 and William 
Thomas of Arden Engineering, who was our mechanical consultant 
and contractor for the project.
    I am just going to briefly go over some of the strategies 
we used in designing the project, basically about our planning, 
our townhouse concept, and some of the technical innovations 
that we developed.
    First is a design overview. The house was designed in, 
basically, two sections in that the students were interested in 
interweaving passive and solar strategies, some untried, some 
new. The south end was the candidate for the passive 
strategies, and it included a green roof for insulation and 
water management, and then deep-set windows to allow the--to 
block the hot summer sun and let in the deep winter sun. The 
north half of the house was our photovoltaic half that included 
the solar panels and then the technical--the components in what 
we called the ``appliance garage.''
    By having the house broken into two halves, we allowed the 
circulation to sort of weave its way between parts of the house 
in order to manage the 100,000 people that came marching 
through to sort of demand to know what we were doing, which 
worked out very well. It was a very efficient plan, and enabled 
no bottlenecks for all of the visitors to move through the 
house.
    [Slide.]
    What you might have noticed in the last slide, and I will 
turn it back, is that the orientation of our house differed 
from all others in that it was oriented north-south on the 
Mall. And this was a discovery by the students that the house 
could have a townhouse type orientation in that the students 
were interested in a slim, urban lot to sort of promote ideas 
of density, conservation, land management, et cetera. So the 
idea of the house, although we could only build one, was to 
actually aggregate in series in--on a street, in a dense, urban 
situation.
    And that led to where the front lawn of your townhouse is 
on your roof. The landscape architecture students in our school 
designed quite a lovely roof garden. Again, that provided 
insulation, a fourth room of the house, and helped control the 
rainwater that was so abundant during the week of the 
competition. We did have the opportunity to have two lovely 
dinners on the roof. We hoped to score points with the jury for 
that, but that didn't work, but we got the dinners nonetheless.
    I am describing all of these ideas, because they 
intertwine. To buy the real estate for the roof garden, we had 
to make a much smaller system than we had originally 
anticipated, so we essentially have--or had 24 Sanyo 190-watt 
panels for a total of 4.6 kilowatts of energy. And we designed 
the system with 16 batteries for four days of storage. This 
idea was explored, or for the economy of the panels, 24 panels 
are a lot less expensive than many more, which made great sound 
strategy and providence but was horrible here in Washington 
during the deluge. So our project conked out promptly on 
Wednesday night, the four days that we had the storage.
    Another way to buy the real estate of a smaller solar 
system, to keep the cost down, is we developed a louver system, 
we called it the heliotropic louvers, that essentially shed 
this hot sun off the house. And that effectively lowered our 
air-conditioning costs, or load, by 40 percent. It also created 
a dramatic chameleon-like aspect of the house in that the skin 
of the house moved during the day, changing its character and 
color. It also had another benefit of setting up a thermal 
draft. One side of the louver got hot, the other cool, so it 
set up a micro-convection against the house, again shedding the 
hot heat of the house away.
    And finally, with all of these benefits of being small, 
efficient, and cost-effective is designing a very efficient 
air-conditioning and heating system. And we used phase change 
materials that were suggested and developed with Arden 
Engineering and Bill Thomas behind me, and essentially it was 
two containers, one for the hot side, one for the cool side, 
sounds like that old McDonald's sandwich, that were able to 
store our energy for future use. The cool side phase change 
materials are charged by the cool night air. The box is opened 
up, the air is drawn across the phase change bricks, the box is 
closed, and then we run water through the box and into radiant 
ceiling panels, so it is, in essence, a radiant cooling system. 
In the winter, we use the hot water panels on the roof to 
provide us with hot water. That again charges the hot box, 
shown on your right, and again, water is run to the hot box, 
through the radiant ceiling panels, same tubes to create 
radiant heating.
    With this system, we allowed--we again reduced our cost, 
and essentially the only thing that is moving that water is 
small pumps that take very little energy. So we essentially 
have no chiller. So all of these ideas were interwoven for 
efficiency and cost and for the size of the house.
    And I just want to show briefly some of the best 
photographs of the construction of the project and, in 
conclusion, thank the many students who devoted two years of 
their lives working and constructing this house on the Mall.
    Thank you very much.
    [The prepared statement of Mr. Knowles follows:]
               Prepared Statement of Jonathan R. Knowles

Two Ways: Interweaving Passive and Active/Efficiency and Excess

    Solar houses are often characterized by the ``either/or'' of 
passive or active techniques. ``Passive'' systems strategically use 
walls, window placement and overhangs to control solar gain, where 
``active'' systems deploy pumps, piping and mechanisms to collect, 
store and redistribute the sun's energy. The RISD Solar team's approach 
interweaves these two strategies by creating a symbiosis between the 
building envelope and the heating and cooling system each working in 
both ways. With RISD Solar, building components that are traditionally 
static, move (through computerized servos and biological means), while 
elements that are normally part of a mechanized system are visually 
inert (they move at the chemical and atomic level). The coordination of 
these two strategies allows the occupant to engage the variability of 
the surrounding natural environment in unique ways.
    RISD's 800 square foot exhibition house is formed by the 
intersection of two volumes, one, which incorporates ``passive'' 
techniques and the other, which houses the ``active'' components. The 
north-south orientation rewrites previous rules governing the layout of 
a solar house, which generally would stretch a building along an east-
west axis. With the north-south axis, light changes throughout the day. 
The house, divided into four discrete domestic spaces: living/kitchen, 
bathroom/laundry, bedroom/office and garden/prospect, has a main 
circulation path which is designed to lead a large number of visitors 
parallel to this east-west movement. A shorter private circuit within 
the house ends at a secluded roof garden with an extraordinary vista 
(the U.S. Capital and the Mall). Enclosing these spaces are multi-
functioning double skin walls, roof and floors.

Windows and Daylight

    Traditional solar homes use an excess of southern glazing in 
combination with thermal mass to obtain passive heating. In the RISD 
house, windows are carefully sized and arranged to provide a balance 
between the correct amount of light and well-insulated walls. To arrive 
at a the lighting strategy, appropriate light levels were determined 
based on the functions of the various spaces, then measurements were 
calculated and daylighting models were tested. The result is three 
interior spaces with distinct light effects. The south end opens to the 
changing light of the day with a relatively large southern glass wall. 
Overhangs, louvers and curtains further control the sun's rays and 
allow warm light to enter during the winter and keep out harsh 
overheated sun in the summer. The hall, which is intentionally the 
darkest area, brings a spot of natural light through a roof hatch that 
doubles as a skylight. In the bedroom/workspace, high transom windows 
bounce eastern morning and diffused northern light around the space 
while smaller windows provide isolated views. The placement of the 
windows is designed to avoid glare on computer and TV monitors and 
create a gentle glow.

Well-Insulated Surfaces

    One of the primary sustainable systems used in this house is 
straightforward, affordable and invisible to the eye. The exterior 
walls, floors and roof of the structure, designed as lightweight and 
material efficient stressed skin panels, are filled with one of today's 
best performing building insulation. Between the insulation, cladding, 
and airspace, these walls attain an R-value (resistance to thermal 
transference) that is a third more than recommended by Federal Energy 
Code. Isonyne insulation is blown in and thereby installed to make the 
building ``tight.'' This means air cannot move through unplanned 
openings in the floor and walls. Windows and doors also perform better 
than standard houses as the windows are coated with tin oxide to 
reflect infrared heat, double-glazed and fully gasketed. Attention to a 
well-insulated envelope allowed our engineers to reduce the size of 
their heating and cooling equipment.

Heliotropic Louvers

    On the exterior walls of the house, a set of louvers literally 
moves with the sun. These vertical fins, offset from the main 
structure, are used to regulate the amount of sun hitting the house and 
to create a chimney effect of the cool air drawn up from the ground. In 
the summer, the louvers track the sun with their broad edge, reflecting 
its rays away from the building and keeping the house cool. In the 
winter, the louvers track the sun with their thin edge, maximizing the 
amount of sun hitting the house. A mapping of the solar light angles 
throughout the year was used to determine the movement of the louvers. 
The result is a house in motion, changing its character as the Earth 
spins.

Roof Garden

    The roof garden, which is made up of a series of shallow portable 
planters, provides many advantages. It plays an aesthetic role by 
extending the form of the house and creating a place of refuge. In 
addition, the variegated grasses and sedum, chosen because they require 
minimal water and maintenance, shade the house when full grown in the 
summer while the herbs can be used in the kitchen. The lightweight soil 
provides extra insulation, and absorbs water runoff. A water trough 
collects rainwater for irrigating the garden and use in a grey water 
system. The garden thus extends the usable living space of the house in 
area and in spirit.

Solar Surfaces

    Like the louvers and garden, the roof of the north end is covered 
with a second skin. The solar collecting panels shade the light colored 
roofing membrane, thereby helping to cool the house while also 
generating energy. These panels provide both the heat and electrical 
energy for the house and are the first component of the mechanical 
systems. The RISD solar team's decision was to use as few solar panels 
as possible in order to make room for the roof garden and reduce the 
cost of construction. Therefore, they used the most efficient mono-
crystalline photovoltaic panels available and energy efficient 
appliances to reduce the total surface area of the array. The 
photovoltaic panels each produce 190-Watts to form a 4.6 Kilowatt 
system for the house. The solar hot water collectors are of the 
evacuated tube cylinder type, which are more efficient than flat plate 
collectors and allow solar heat collection in colder climates and 
cloudy days.

Appliance Garage and Energy Star Appliances and Fixtures

    The Appliance Garage, situated at the north end of the house, is a 
large storage space divided into easily accessible cabinets. This 
cabinet is made of thin walls to conserve space and uses nanotechnology 
(nanopaint) to withstand the coldest side of the house. On the 
exterior, the Garage contains storage space and the electric equipment 
that converts and stores the electricity produced from the photovoltaic 
panels (through inverters and batteries). The interior opens up into a 
home office with filing cabinets, and also includes attic storage and a 
wardrobe. The flat screen monitor, lights and appliances are all energy 
efficient and energy star rated. The use of these fixtures reduces the 
load and the size of the photovoltaic system without compromising 
functionality.

Building Systems: Heating, Cooling and Ventilation

    The core is the most compact component of the house thereby freeing 
space for the living areas. Acting as the heart, it contains the hot 
water heating tank, the bathroom, the kitchen, the washer/dryer and 
access to the roof garden. Above the bathroom is our Sistine ceiling--a 
carefully designed and built mechanical space where the pumps, 
manifolds and ventilation equipment are housed. The central location of 
this high performance equipment minimizes duct and pipe runs, which 
increases efficiency. Three systems are used to maintain thermal 
comfort: a solar heating loop that heats both domestic hot water and 
the space, a cooling loop that is charged by cool night air, and an 
Energy Recovery Ventilator (ERV) that controls the building's supply 
and exhaust ventilation.
    The heating and cooling systems use the principle of Thermal Energy 
Storage (TES). The storage is through Phase Change Materials (PCMs). 
The ability of the Phase Change Materials to store and release latent 
heat allows this material to store thermal energy in a smaller area, 
roughly 1/10 the area of water storage. For heating, we store solar 
thermal energy from the solar collectors during the day for usage 
during the night or days of no sun. For cooling, we use Phase Change 
Materials to store nighttime ambient air temperatures 60<SUP>+</SUP>F 
or below for daytime cooling.
    Heating and cooling are stored in two separate PCM containers, 
which use heat exchangers to transfer the stored heating or cooling 
thermal energies to radiant ceiling panels. The radiant panels are 
combination panels used for both heating and cooling. This is achieved 
through a variable speed primary/secondary pumping system located in 
the mechanical space. Using a hydronic variable speed pumping system 
allows us to use only the energy needed to heat and cool at a given 
time and requirement, at very low energy consumption. For comparison, a 
heat pump sized for the same heating and cooling loads would require 
2,250 Watts of power at maximum design conditions. If that heat pump 
were of the newer variable speed type, the wattage range would be 
between 550-2250 Watts based on load conditions. Once our system is 
``charged'' (i.e., has heating and cooling stored in the PCMs), our 
maximum wattage needed to heat and cool our building (because all we 
are using is pumps) is 167 Watts. If we were to include the energy used 
by the Energy Recovery Ventilator when, or if, needed to control 
possible condensation, we would be at a total of 489 Watts. As we are 
using variable speed pumping and have variable speed control on our 
ERV, our maximum wattage usage is from 489 Watts down to 135 Watts 
based on load conditions.
    Hydronic radiant cooling and heating systems can remove or add a 
given amount of thermal energy using less than five percent of the fan 
energy that would otherwise be necessary if using an all air heating 
and cooling system. The advantages to our system over conventional 
heating and cooling technologies are:

        <bullet>  We are using natural ambient conditions to provide 
        the heating and cooling for the building.

        <bullet>  Through the Phase Change Material Storage, we 
        presently have the capacity to store days worth of heating and 
        cooling strictly from environmental sources at design degree 
        days.

        <bullet>  Through the use of radiant heating and radiant 
        cooling, we are able to provide the same heating and cooling 
        capacity as a ``conventional'' system using much less energy, 
        and at a higher comfort level to the occupants. Another 
        advantage to this system is the effect it has on the thermal 
        envelope heat transfer of the building. Because the heating 
        temperature of the water is lower, the temperature difference 
        across the thermal envelope (walls, roof, etc.) is also lower. 
        This translates into less heat loss out of the building. The 
        same works for the radiant cooling which operates at a higher 
        cooling water temperature than a conventional system. The less 
        temperature difference across a surface, the lower the heat 
        transfer across that surface.

        <bullet>  Our system was designed to be simple, both in 
        operation and installation.

    The intent of this system is to show the potential for a building 
to have long-term energy storage and the use of natural heating and 
cooling through the use of Phase Change Materials.

Assembly + Structure

    Because the competition required that the house be moved from 
Providence, RI to Washington, DC and back, the house is designed as a 
modular home that is disassembled into nine individual modules. The 
RISD team divided their house into many modules so that the internal 
spaces could be more generous while still conforming to highway 
restrictions. The modules are bolted together at seams, leaving most of 
the interior and exterior finishes intact. The exposed ``expansion'' 
joints and the strength of the plywood finishes allow the house to be 
moved without cracking. The entire structure was built with off-the-
shelf, low-tech products enabling it to be built on site with minimal 
shop outsourcing and thus controlling costs. The team was careful to 
choose materials that met strict requirements. The materials have low 
embodied energy (i.e., local and recycled), do not aversely effect 
indoor air quality (low volatile organic compounds and nontoxic glues), 
do not harm the environment (no CFCs) and are renewable (plywood farmed 
with sustainable practices, and the use of fast growing cork).

Planning

    While RISD built only one house for the Solar Decathlon, the 
building layout affords site adaptability. It can be used as a 
freestanding house or an urban townhouse. The orientation of the 
building favors the north/south axis while an offset of the parts 
allows for adequate light throughout even if the units are clustered 
together or repeated. As a ``townhouse,'' the project responds in a 
unique way to the questions posed by the organizers of the Solar 
Decathlon. When the units come together, their displacement in section 
and in plan creates interstitial spaces that can become oases within 
the urban context. The idea of the solar village, while not a novel 
concept, becomes more energy efficient with the aggregation of more 
units. Uniting design with urban values, our solution addresses the 
issues of sustainability not only within the individual house, but also 
on a community scale.

Less and More

    Through interweaving strategies of passive and active solar 
techniques, we have worked to achieve both efficiency and richness. 
While our wall and mechanical systems work intelligently together to 
create substantial efficiencies, they also allow for delightful 
excesses. With zero emissions, the house generates surplus energy. Each 
one of our techniques is integrated to create a singular design. 
Paramount to the project has been balancing the need for energy 
efficiency and production with the principles of thoughtful 
architectural design.

Questions and Answers

(1)  Given your experience, what do you think are the main technical 
and other barriers to greater use of solar energy? Do you have any 
suggestions for what might be done to overcome those barriers? How do 
you see the competition itself as helping to move both solar and 
efficiency technologies into the mainstream building market?

    No barriers currently exist except public accessibility. RISD Solar 
uses 16 deep-cell batteries, two charge controllers and two invertors 
to convert and store the sun's energy from 24 190-Watt Photovoltaic 
Panels. The system is small, robust and most importantly, off the 
shelf. The PV panels generate 4,560 Watts of energy and are affordable 
at a cost of approximately $41,000. This is $9.00 per watt, which is on 
the lower cost side of a battery backup system. If we assume a 20-year 
life, with minor maintenance costs, the system generates energy at 
$.29/kWh. Since our design was intended for an urban environment, 
battery back-up could be greatly reduced or eliminated, reducing the 
cost, and reducing electricity costs to $.22/kWh. By comparison, our 
electric bills in Rhode Island are $.14/kWh or roughly half. Over 20 
years, however, the cost of electricity will surpass solar electric. If 
solar technologies were subsidized to the extent that the oil industry 
(with the associated transportation industries) are currently 
subsidized, there would be a boom in the market that would reduce these 
costs and begin to move the Nation towards energy independence.
    Another path to the same goal would be to offer National incentives 
coordinated through pre-existing State programs. Many States offer 
grants combined with tax breaks to promote alternative energy, but all 
State programs are not the same. The cost is usually supported by a 
small surcharge on the public's energy bill. An increase in demand, 
especially supported and advertised at the federal level will bring the 
market to bear, and with it the research funds to make the technology 
more affordable. Also, the Federal Government should continue to 
support University driven research and competitions such as the Solar 
Decathlon. Differing from conventions and trade shows, the Solar 
Decathlon is a public demonstration; the houses work and prove that the 
technology is here now. Nothing presented at the Solar Decathlon is out 
of the public's reach. Perhaps the competition itself should expand 
across the country and become regional, attracting solutions specific 
to the climates in the East, Midwest and West. Finally, a critical part 
of our design was the efficiency of our heating and cooling system. 
This system would require more research and development for it to enter 
the market as an available product.

(2)  What sources of information did you draw on to figure out how to 
build your house? What problems arose in designing or constructing your 
house that surprised you?

    At RISD we had the opportunity to spend time on critical research 
about environmental technologies, which is not commonly possible in 
practice. We used book sources, trade shows, consumer guides and direct 
evaluation of products. The RISD Solar student team researched and 
designed every aspect of the house but it was not until we engaged the 
local building industry did the choices and opportunities become much 
more clear. For instance, we would have preferred to use factory built 
SIPs (structurally insulated panels) for the roof, walls and floors but 
we decided to use a stressed skin panel system instead so these 
components could be constructed on site and by our own forces. Stress 
skin panels are very similar to wood frame (or light frame) 
construction except each panel relies on the interior and exterior 
sheathing (plywood or oriented strand board) for structural stability. 
We eventually found a local company that prefabricated the majority of 
our stress skin panels but we insulated and sheathed the interior 
surfaces ourselves.
    Problems to work out next time include construction tolerances, 
weight and transport. The RISD Solar house was designed to come apart 
in too many pieces that were difficult to fit back together. The more 
pieces, the greater the construction tolerance required, which demands 
a sophisticated solution to integrate module joints within the design. 
Also, each stressed skin floor, wall or roof panel weighs approximately 
1,000 pounds, which cannot be easily maneuvered by an untrained 
workforce. When 1,000-pound panels are brought together to form a 
module, weight becomes a serious issue and cranes or lifts are required 
to move pieces of the house into place. To move a house, it must be 
lightweight and easy to assemble and disassemble. The Solar Decathlon 
competition strongly favors modular homes that can be moved down the 
highway, set up quickly and taken down as quickly. We were pleased that 
our room proportions were generous, but more research is required to 
move a house that does not have the characteristics of a mobile home.

(3)  Would your house be commercially viable? If not, what changes 
would make it more attractive to the mainstream home buyer?

    The size of the RISD Solar house could be commercially viable for a 
very limited market--young professionals or empty nesters. The total 
RISD Solar budget was $400,000.00, which is expensive for 800 square 
feet and translates to $500/square foot or the cost of a high-end 
Manhattan apartment renovation. If transport, travel, lodging, etc., is 
removed from the budget, the cost is closer to $200/square foot, which 
is not unreasonable for a new house. That is why the RISD Solar team 
planned an urban dwelling--the aggregation of units would lower the 
cost. Efficiency is an important element of our townhouse proposal: 
mechanical systems are centralized leaving more room for the flexible 
use of living space; plumbing and air duct runs are minimized lowering 
the cost of these expensive components; the bathroom space itself is 
the shower enclosure; and a Murphy (fold away) bed transforms the 
bedroom into the home office. While all of these space-saving 
strategies save money and are applicable to today's market, our house 
would require the addition of more area to be marketable as a house to 
be sold in the U.S.

                   Biography for Jonathan R. Knowles
    Jonathan Knowles is an adjunct Professor of Architecture at the 
Rhode Island School of Design for the 2005 and 2006 academic year and 
has been teaching at RISD since 2001. He has taught at the Parsons 
School of Design, the City College of New York, Cornell and Columbia 
Universities as well as the State University of New York in Buffalo. 
Jonathan is also a practicing architect in New York City where he co-
founded Briggs Knowles Studio in the fall of 1997 with Laura Briggs. He 
is currently managing the design and construction of three sustainable 
townhouses in Harlem and a new Telecommunications Center for the 
Hispanic Information and Television Network located in the Brooklyn 
Navy Yard. His degrees, a Bachelor of Architecture and Bachelor of Fine 
Arts, are from the Rhode Island School of Design.

    Chairwoman Biggert. Thank you.
    And now, Mr. Schieren, you are recognized for five minutes.

STATEMENT OF MR. DAVID G. SCHIEREN, GRADUATE STUDENT AND ENERGY 
     TEAM LEADER, ENERGY MANAGEMENT, NEW YORK INSTITUTE OF 
                           TECHNOLOGY

    Mr. Schieren. Thank you, Chairman Biggert and distinguished 
Members of the Energy Subcommittee.
    It is a great honor to present the New York Institute of 
Technology's and the U.S. Merchant Marine Academy's Solar 
Decathlon project.
    I would like to introduce Heather Korb, Lead Architect from 
NYIT, and Greg Sachs, Lead Engineer from the Merchant Marine 
Academy, sitting just behind me.
    For the past two years, we have been working on an 
extraordinary project, an advanced solar hydrogen home. Our 
progress has been realized through extensive interdisciplinary 
efforts of students, faculty, and staff. We strongly believe 
that solar energy, renewable hydrogen, and sustainable design 
offer a future of true energy independence, a clean 
environment, and a greatly enhanced civilization.
    Next slide, please.
    [Slide.]
    First a vision, a philosophy of sustainability, then the 
design competition, and the project blossomed.
    NYIT's project is called Green Machine/Blue Space, a house 
of two parts working together as one self-sustaining unit.
    Next slide, please.
    [Slide.]
    Green Machine is a modified shipping container that houses 
the mechanics of life, including a kitchen, a bathroom, a roof 
garden for food production, solar water heating, and hydrogen 
production and storage. Containers are found everywhere, and we 
consider them a pre-made space, structurally sound and easily 
transported by truck, rail, air, and sea.
    Next slide, please.
    [Slide.]
    Blue Space is a site-specific design that emphasizes 
sustainability and minimizes the energy loads through material 
selection, passive solar strategies, and natural ventilation.
    Furniture in the living space is designed as micro-
environments to help minimize the use of mechanical heating, 
cooling, and lighting.
    Next slide, please.
    [Slide.]
    To the power systems. Solar panels provide the primary 
source of energy by converting sunlight into electricity and 
sending it to the house loads. Surplus energy from the solar 
panels is sent to an electrolyzer that produces hydrogen gas 
from water. When there is no sunlight, the fuel cell converts 
the hydrogen gas back into electricity to power the house.
    Next slide, please.
    [Slide.]
    This is a quiet and clean process. The fuel cell byproducts 
are water and heat, and the water is used again and converted 
back into hydrogen.
    Next slide, please.
    [Slide.]
    We view this as a vital demonstration project. Applying 
these technologies will help determine how to achieve further 
advances. This system portends a new energy paradigm based on 
distributed generation, inherently stronger than the fragile, 
centralized system of today. We believe that hydrogen can 
replace fossil fuels.
    To specifically address the Subcommittee's questions, in 
general, solar energy equipment today does an excellent job of 
powering a home, as demonstrated with the Solar Decathlon 
entries and many homes across the country. However, there are 
barriers to overcome before mass adoption, including: lack of 
public awareness about the benefits of solar energy and the 
true costs of the current fossil fuel-based system to the 
environment and national security; the high cost of--and short 
supply of solar panels and raw materials; the inconsistency and 
uncertainty of government incentives for homeowners and 
developers; lack of training for engineers, construction 
workers, architects, and business people.
    The mounting energy crisis and technologic advances have 
industry, academia, and the government looking to develop 
hydrogen fuel cells as a viable alternative to fossil fuels. 
Current barriers to the greater use of hydrogen include: lack 
of public awareness about the capabilities, safety, and 
benefits of hydrogen; the need to improve fuel cell, 
electrolyzer, and energy storage technologies by decreasing 
costs and improving efficiency, integration, and life span of 
the equipment.
    The government is supporting the development of solar and 
hydrogen technologies. We would advise increasing this 
investment and setting out a clear vision, a bold national 
strategy with specific milestones that lead towards a clean and 
renewable energy economy.
    The Solar Decathlon had a deeply positive impact on helping 
to move solar and efficiency technologies into the mainstream 
building market. At our school, it inspired over 100 students 
and faculty from the architecture, engineering, interior 
design, and communications departments to work together. The 
knowledge and experience gained from this project will carry 
with us, as we become the next generation of leaders in our 
respective fields.
    Through fundraising and PR efforts, our ideas were shared 
with many leading figures in the building and energy fields. 
While on the National Mall during the event, the flow of people 
and the interest they had in solar and efficiency technologies 
was breathtaking. Everyone wanted solar today.
    I can see that my time is almost up here. I just wanted to 
mention that--to address this question of what major challenges 
we had and problems that came about. I would certainly agree 
that fundraising and learning--figuring out how we were going 
to pay for everything was a major issue for us, and I think 
likewise with the other teams. And so we also noticed that 
there was sort of a lack of money available for systems 
integration research. So it is, you know--there is money 
available for specific lines, but to put it all together and 
make it work as a package is something that we are really 
looking to further.
    So with that, I would like to thank you very much for the--
for pursuing this important discussion, this important 
dialogue, and we look forward to moving these issues forward.
    Thank you.
    [The prepared statement of Mr. Schieren follows:]
                Prepared Statement of David G. Schieren

I. INTRODUCTION

    We thank Chairman Biggert and distinguished Members of the Energy 
Subcommittee for allowing us to submit this testimony. It is a great 
honor to present the New York Institute of Technology's (NYIT) and the 
U.S. Merchant Marine Academy's (USMMA) Solar Decathlon project.
    The authors of this document are David Schieren, the Energy Team 
Leader from NYIT, Heather Korb, Lead Architect from NYIT and Greg 
Sachs, Lead Engineer from the USMMA.
    For the past two years we have been working on an extraordinary 
project--an advanced Solar Hydrogen home that we believe demonstrates 
the promise of a secure energy future. We strongly believe in the 
promise of solar energy, renewable hydrogen and sustainable design. 
With these tools and resources, supported by substantial research and 
development, we see a future of true energy independence, a clean 
environment, and a greatly enhanced civilization.
    Our progress has been realized through extensive interdisciplinary 
team efforts of the full NYIT community--the architecture, engineering, 
interior design, communications and culinary departments, the 
administration, staff and countless supporters--and our USMMA partners. 
Key students, faculty, and staff worked tirelessly, often without 
remuneration, to pursue this vision of a better world.

II. PROJECT OVERVIEW

1. Philosophy
    First a vision, a philosophy of sustainability, then a design 
competition, and the project blossomed.
    NYIT's Solar Home is called Green Machine/Blue Space (Rendering). 
Green Machine, the life support of the house and Blue Space, the solar-
collecting dwelling place, are two parts working together as one self-
sustaining unit. Green Machine/Blue Space separates the mechanics of 
life from leisure space to create a home which can exist anywhere in 
the world.
2. Designs
            i. Green Machine: a Global Design Strategy

        <bullet>  GM is a modified shipping container that houses the 
        mechanics of life including a kitchen, a bathroom, roof garden 
        for food production, solar water heating, and hydrogen 
        production and storage.

        <bullet>  Containers are found in surplus worldwide. We 
        consider them a pre-made space--structurally sound and easily 
        transported by rail, air and sea.

        <bullet>  When modified for climate conditioning and equipped 
        with a self sustaining, non-polluting energy storage system and 
        all the necessities of living comfortably the GM supports life.

            ii. Blue Space: a Local Design Strategy

        <bullet>  Blue Space is a dwelling place that is designed to be 
        site-specific.

        <bullet>  The construction, design and materials emphasize 
        sustainability and minimize the energy loads through interior 
        design, passive solar strategies and natural ventilation.

        <bullet>  The Blue Space's size, construction and architecture 
        can change according to the climate and culture of the site.

        <bullet>  Furniture pieces in the living space are designed as 
        micro-environments to help minimize the use of mechanical 
        heating and cooling, and lighting.

            iii. Interior Design
    The interior space of the home is unique and in harmony with the 
architecture of the home as well as the local environment.

        <bullet>  Furniture pieces in the living space are designed as 
        micro-environments to help minimize the use of mechanical 
        heating and cooling, and lighting.

        <bullet>  Furniture will be multi-functional suggesting an 
        economy of materials for future homes.

        <bullet>  Materials used will be sustainable and support the 
        energy strategy.

    The goal of our project is to exhibit self-sufficiency, energy 
independence and life in a clean environment where we eliminate 
pollution and destruction. We design with nature as a model--we 
produce, use, recycle and begin again--a regenerative cycle of life. 
Our decision to use a Hydrogen-based energy storage system stemmed from 
this philosophy.

3. Energy Systems
            i. Abstract: Solar-Hydrogen

        <bullet>  Solar panels are the primary source of energy and 
        convert sunlight into electricity and send it to the house 
        loads.

        <bullet>  Surplus solar energy is sent to an electrolyzer that 
        produces hydrogen gas from water.

        <bullet>  When there is no sunlight, the fuel cell converts the 
        hydrogen gas back into electricity to power the house.

        <bullet>  This is a quiet and clean process: The fuel-cell 
        byproducts are water and heat, and the water is used again and 
        converted back into hydrogen.

        <bullet>  This was version 1 of what we think can become a very 
        robust home energy system.

        <bullet>  This is a vital demonstration project: Applying these 
        technologies will help determine how to improve it.

            ii. Operational Overview
    As discussed, this is a solar powered home that uses hydrogen gas 
as the primary energy storage medium as opposed to a battery based 
system.
    To understand the basic operation of the ``Solar-Hydrogen'' home, 
it is constructive to first consider the operation of a typical battery 
installation. When there is excess PV produced electricity (when energy 
supplied by the PV array is greater than energy demanded by the house) 
unused energy is stored in chemical bonds formed within a battery's 
electrolyte. That energy is stored until demand is greater than supply 
(when the sun is hidden or after turning on a lot of loads in the 
house), and the battery discharges.
    In a Solar-Hydrogen home, when energy supply is greater than 
demand, the surplus energy is consumed by the hydrogen generator to 
produce hydrogen gas. This gas therefore represents stored energy that 
is stored in a series of low pressure hydrogen tanks. Subsequently, 
when demand is greater than supply, this gaseous energy is consumed by 
the fuel-cell to produce electricity.

            iii. Radiant Hot Water
    The hot water system uses thirty ``evacuated tubes'' for hot water 
production. Evacuated tubes are devices which collect solar-radiation 
from the sun and convert it directly into thermal heat-energy. This 
heat-energy then directly raises the temperature of a liquid which 
flows along the end of these tubes. This liquid then circulates in a 
continuous loop between the evacuated tubes and the hot water tank. The 
hot-water tank thereby gets warmer and warmer as heat is transferred 
from the evacuated tubes into the drinking water inside the tank.
4. Benefits

        <bullet>  We believe that hydrogen can replace fossil fuels and 
        end dependency on foreign nations for this critical economic 
        input.

        <bullet>  As this project demonstrates, it can be generated 
        from a locally produced power that is clean and renewable.

        <bullet>  Hydrogen gas is superior to and more versatile than 
        other energy storage technologies, such as batteries.

                  It is versatile:

                        <bullet>  Can be used for house electricity, to 
                        heat or cook with.

                        <bullet>  Once stored, it does not discharge. 
                        Batteries discharge.

                        <bullet>  It can also be used to quick-fill 
                        cars, compared to battery electric cars that 
                        take time to charge.

                        <bullet>  It is a clean fuel, there are no 
                        negative environmental consequences. Batteries 
                        are toxic and must be carefully handled.

        <bullet>  A renewable hydrogen energy system offers the promise 
        of true energy independence and a clean environment.

        <bullet>  This is the model of a new energy paradigm, a 
        distributed generation energy system--superior to the 
        vulnerable and cumbersome centralized system of today.

III. QUESTION RESPONSES

Given your experience, what do you think are the main technical and 
other barriers to greater use of solar energy?

    In general, the solar energy equipment and infrastructure available 
today is high quality, contributing to a boom in photovoltaic 
installations. As demonstrated with the Solar Decathlon entries and 
many homes across the country, solar power does an excellent job of 
powering a home. However, to take solar to the next level (currently 
well under one percent of U.S. installed generation capacity) there are 
barriers to overcome, including:

        <bullet>  Lack of public awareness about the benefits of solar 
        energy and the true costs of the current fossil fuel based 
        system to the environment and national security.

        <bullet>  The high cost and short supply of solar panels and 
        raw materials.

        <bullet>  The inconsistency and uncertainty of government 
        incentives for homeowners.

        <bullet>  Lack of training for engineers, construction workers, 
        architects, and business people.

        <bullet>  Efficiency of the panels must be improved.

        <bullet>  Lack of incentives for new property developers to 
        incorporate into structures. How can they recoup their costs? 
        Does a home with solar power sell for a higher price? What 
        tools are there to evaluate this?

        <bullet>  Lack of Utility company support, through public or 
        private initiatives, to build out solar.

What are the main technical and other barriers to greater use of 
hydrogen?

    Hydrogen fuel cell technology has been around for some time, but 
only recently--because of the mounting energy crises and technological 
advances have industry, academia and government began to research 
hydrogen fuel cells as a viable alternative to fossil fuels. This is a 
long, but worthwhile journey. Current barriers to the greater use of 
hydrogen include:

        <bullet>  Lack of public awareness about the capabilities, 
        safety and benefits of hydrogen.

        <bullet>  The need to improve fuel cell, electrolyzer and 
        energy storage technologies by decreasing costs and improving 
        efficiency, integration and lifespan of the equipment.

        <bullet>  The lack of hydrogen infrastructure must also be 
        addressed.

Do you have any suggestions for what might be done to overcome those 
barriers?

    The government is supporting the development of solar and hydrogen 
technologies. We would advise increasing this investment and setting 
out a clear vision--a bold national strategy--with specific milestones 
that lead towards a clean and renewable energy economy.
    Specific steps that can be taken include:
    Solar:

        <bullet>  Build on current federal incentive structure 
        (starting 2006).

        <bullet>  Support State and local governments that are 
        underwriting incentives.

        <bullet>  Promote certainty with the incentives so businesses 
        can invest properly, thereby encouraging long-term planning.

        <bullet>  Attract domestic manufacturing of photovoltaics and 
        solar energy system components.

        <bullet>  Work with utilities to reduce impediments to on-site 
        power generation.

                  Introduce time of use power accounting that charges 
                customers the market value of electricity. For example, 
                power during a hot summer day is in greater demand (air 
                conditioning) and therefore more expensive. This is 
                also when solar panels are producing, they are load 
                following. Therefore people might turn off equipment, 
                or switch to solar.

        <bullet>  Support market mechanisms like Green tags and 
        emissions credits that work to account for the externalities of 
        fossil fuels combustion.

    Hydrogen:

        <bullet>  Develop a national strategy to move towards a 
        hydrogen economy.

        <bullet>  Increase support, incentives to promote the renewable 
        generation of hydrogen.

        <bullet>  Support the advancement of fuel cell technology.

        <bullet>  Support the advancement of hydrogen generation.

        <bullet>  Support the advancement of hydrogen storage 
        technologies.

        <bullet>  Support demonstration projects to test and improve 
        the technologies.

        <bullet>  Work to streamline codes and standards for the 
        handling and siting of hydrogen equipment.

        <bullet>  Support market mechanisms like Green tags and 
        emissions credits that work to account for the externalities of 
        fossil fuels combustion.

How do you see the competition itself as helping to move both solar and 
efficiency technologies into the mainstream building market?

    This high-profile competition had a deeply positive impact on 
helping to move solar and efficiency technologies into the mainstream 
building market. The core challenge of the Solar Decathlon is to build 
a beautiful and energy self-sufficient home. At our school, this 
challenge inspired over 100 students and faculty from the architecture, 
engineering, interior design, and communications departments to work 
together to integrate a design vision with engineering and construction 
realities. The knowledge and experience gained from this project will 
carry with us as we become the next generation of leaders in our 
respective fields. The multiplier effect extends this impact from all 
the Decathletes to our families, friends, donors, and colleagues.
    Through fundraising and PR efforts, our ideas were shared with many 
leading figures in the building and energy fields, in addition to 
countless homeowners. While still at school, people from the community 
would stop by the site and ask how they too could use solar. While on 
the National Mall during the event, the flow of people--and the 
interest they had in solar and efficiency technologies was 
breathtaking. Everyone wanted solar today.
    This high-profile platform also enabled us to pursue and fund the 
hydrogen fuel cell energy storage system--a vital demonstration 
project.

What sources of information did you draw on to figure out how to build 
your house?

    The team drew upon the vast knowledge of our own students and 
faculty to build our house. Many times we collaborated with private 
businesses--construction, architecture, engineering firms--and we found 
many willing partners in our community and beyond. People were ready to 
support this cause. For the Solar panels and the hydrogen fuel cell 
system, we looked to private companies and training courses to assist 
us with the installation of the systems. The USMMA's Alternative Power 
Program also had specific experience with hydrogen fuel cells.

What problems arose in designing or constructing your house that 
surprised you?

    The team encountered a number of challenges throughout this 
process. Funding this project was a constant struggle. While there are 
grants available for specific lines of research, there should be more 
available for this type of system integration and interdisciplinary 
endeavor.

Would your house be commercially viable? If not, what changes would 
make it more attractive to the mainstream home buyers?

    With solar power and energy efficient design technologies, it often 
comes down to a cost/benefit analysis: Is the upfront investment worth 
the long-term benefits? The NYIT house with the hydrogen fuel cell 
system is not commercially viable today--though this is what we are 
working towards. The solar electric, and solar hot water systems, and 
energy star appliances are, partly because of the incentives that our 
local utility, the Long Island Power Authority, offer.
    The design concept of the house, the site specific dwelling and the 
modified shipping container with internal mechanics and power systems 
has many applications in addressing general housing and energy problems 
across the world. The Green Machine contains everything needed for 
survival and connects to any type of ``Blue Space'' with photovoltaics 
to gather solar power. In tandem the two parts work together as one 
self-sustaining unit. It is then supported by furniture and interiors.
    The benefit of a locally designed and built dwelling place is that 
it provides the inhabitants with a feeling of comfort and ownership. In 
addition, local energy production brings peace of mind to homeowners 
and to our country.

                    Biography for David G. Schieren
    David is a graduate student pursuing a Master of Science in Energy 
Management at the New York Institute of Technology. He is the Energy 
Team Leader for NYIT's 2005 Solar Decathlon Project, responsible for 
overseeing all energy systems and developing the Solar Hydrogen Fuel 
Cell Power System with the United States Merchant Marine Academy's 
Alternative Power Program. David also took a leadership role in 
fundraising, corporate partnerships, public relations and 
communications.
    After studying Economics and Japanese at the University of Vermont, 
David joined Merrill Lynch in the International Equity Sales Department 
where he advised institutional money managers on purchasing Japanese 
stocks. Concerned about the global political, energy and environmental 
situation, David left his capital markets job to pursue a career in 
clean energy. He has recently co-founded EmPower CES, LLC, of Hewlett, 
New York.
    David is from Hewlett Harbor, N.Y., and now resides in Fort Greene, 
Brooklyn, N.Y.

                               Discussion

    Chairwoman Biggert. Thank you.
    We will now turn to Members' questions, and I will 
recognize myself for five minutes.
    Join the club in having to address the issue of 
fundraising. It is a--I think it is a problem everywhere, but--
and obviously all of the teams had to raise a lot of money to 
design and to build and to transport your houses. That seems to 
be something that was very apparent in all of the photographs 
that we saw and everything. And there was no monetary or other 
prize, other than the recognition and publicity for winning the 
competition.
    So what motivated your teams to participate? And were there 
any obstacles to the participation, maybe other than the 
fundraising?
    Mr. Schubert.
    Mr. Schubert. Well, I think a project of this nature is a 
natural for us to be involved with. It kind of drew students 
and faculty to it. I think by having it done once in 2002, 
there was already kind of acknowledgment and visibility, and so 
it really wasn't difficult to recruit students to it. And it, 
again, is one of these projects that allows an 
interdisciplinary approach to it, and I think the students 
appreciate being able to work with others across colleges.
    Chairwoman Biggert. Thank you.
    Mr. Lyng, you said that, you know, three years of your 
life--what motivated your team to participate?
    Mr. Lyng. I think for other members of the CU team, 
certainly myself, and I can't imagine it is terribly different 
for other team members, it was a drive to do the right thing. 
And I would echo what--Mr. Schubert's comment. It was not hard 
to get students interested. It was hard to get students--to 
keep student interest, because it was a very difficult project 
to work on. It is a huge amount of time commitment. Fundraising 
was not a trivial thing for undergraduate and graduate 
engineers and architects. These are not MBA students. Getting 
the house here from Colorado was a sincere difficulty. And 
staying here in DC for four weeks, away from classes. Those 
were the real legitimate difficulties. But despite all of that, 
we had 20 students from the University of Colorado come here to 
participate.
    Chairwoman Biggert. Mr. Knowles.
    Mr. Knowles. I think it was--our motivation was primarily 
to embed issues of sustainable design and alternative energy 
practices in our curriculum. The Chair of my department was 
wholeheartedly behind the project as we tried to develop our 
curriculum to tackle these issues, and this is the perfect 
project for that in terms of building and having firsthand 
experience with designing something--students designing 
something--building something they actually designed.
    Again, you are going to hear this all day, the department 
was fully behind it, but when it became time for fundraising, 
it is a significant amount of money, and it was very difficult, 
with other funding issues going on on campus, to have the 
entire school, you know, put their full efforts behind this 
project.
    Chairwoman Biggert. A lot of bake sales.
    Mr. Knowles. Phone-a-thons, et cetera, pleas, begs. So that 
was--but that was really our primary concern, and to continue 
to strengthen our department in terms of issues of 
sustainability, as Colorado was--has already done.
    Chairwoman Biggert. Mr. Schieren.
    Mr. Schieren. I think that, for our team, opportunity to 
work on a problem, there is just acknowledgment that there is a 
problem, many problems that we have to address, but spearheaded 
by the architecture department setting out a vision, a 
philosophy from--for making improvements from--for--and I think 
students felt that they had a direct hand in making progress. 
So the people, the key team members, I said there were well 
over 100 people at our school and our partnership, but the key 
people, say 20 to 30 people, worked tirelessly on this. And the 
truth is that it is very challenging, but I think that 
satisfaction only comes when you do a lot of hard work and you 
have actual results. So people were extremely committed, and 
still are.
    Chairwoman Biggert. Thank you.
    Just quickly, Mr. Moorer, what kind of research activities 
can be incorporated into the--such a competition for the Solar 
Decathlon? And what--are there advantages to having the 
research incorporated in there?
    Mr. Moorer. Well, Madame Chair, if I may----
    Chairwoman Biggert. Um-hum. Sure.
    Mr. Moorer.--respond a little bit to some of the----
    Chairwoman Biggert. Um-hum.
    Mr. Moorer.--comments that have been made so far, I would 
say that I appreciate the comments from the other witnesses, 
and we certainly take the students' comments quite seriously. 
We do a survey at the end of the competition. We certainly 
consider how we might change and improve the competition, which 
we are already planning to do for next time. And while some of 
the suggestions are very good, we really prize the real estate 
that we are allowed to use for these competitions. As you can 
imagine, being on the Mall is a fantastic place to be able to 
conduct this. There are some issues related to trying to do a 
grid-connected contest there, but this is something that we 
would certainly be willing to consider.
    With respect to this issue of research and development, to 
some degree, the students are doing that already. I would tell 
you that a huge benefit out of this competition is the 
integration that begins to happen between the work that goes on 
and--things like photovoltaic research and development, and 
actually how do you integrate that into building design. That 
has been a missing component, if you will, within some of our 
own programs at the Department, and this is one way that we see 
to achieve this integration. And that is an important part of 
the research and development picture.
    Chairwoman Biggert. Thank you.
    My time is expired.
    The gentleman from California, Mr. Honda.
    Mr. Honda. Thank you, Madame Chair.
    And I guess Mr. Moorer, you answered a couple of the 
concerns that Mr. Lyng had brought up as far as his three 
observations, and I think that they are well thought out and 
they are probably issues that we should be looking at in the 
future.
    To Mr. Lyng, I just want to let you know that Congressman 
Udall would have been here, but he is still en route back from 
Colorado, so I just wanted to make sure you knew that.
    Your comments about east-west orientation, it sounded a 
little like feng shui, and that is just a comment. You don't 
need to respond.
    But I am curious--my sense is that you raised somewhere 
between $200,000, $300,000, $400,000 to have this project 
completed and brought over here, and we made some, you know, 
light remarks about fundraising, but where does your money come 
from? Did it come from developers or any other sources that 
made some sense? And then once your projects are completed, 
what do you do with it? Do you auction it off? Do you sell it 
to some rich guy that maybe can reimburse you for your costs? 
Or--it's like 4-H, you know, you get it back. And I also 
appreciated your comment about being a solar patriot, and I 
think that is a term we may want to coin, because, you know, 
being a hydrocarbon man for decades, I am prepared to be a 
solar patriot.
    So if you wouldn't mind answering that question, Mr. Lyng, 
and then to the rest of the Members--the rest of the witnesses, 
what is--I heard some barriers mentioned. What are some of the 
strategies that could be applied to solving the problems so 
that the university-level students can really pitch in and be 
worried about coming up with ideas rather than worrying about 
spending time raising money? Being an elementary school 
principal, we spent a lot of time raising money selling cookies 
and jewelry to send kids to science camp. When we invested in 
our students through the District Office and through, you know, 
our monies, we found that students were able to concentrate 
more on their studies than anything else.
    So I would appreciate some response, starting with Mr. 
Lyng.
    Mr. Lyng. Yes, thank you, Mr. Honda.
    I won't hold it against Congressman Udall for not being 
here.
    Mr. Honda. I will let him know.
    Mr. Lyng. First, to answer your question where did the 
funding come from, for our project, it came from a number of 
different sources. About 10 months ago, we entered into a 
contract with a developer in Colorado for the pre-sale of the 
home. And that was about 1/3 of our budget. The rest of our 
funding came from organizations such as the Home Builders 
Association, who is our single largest cash sponsor, private 
sponsors, but over half of our funding was in in-kind 
donations. And it is my feeling that if students had--if 
everyone had the same project funding level in cash, and teams 
were asked to purchase the best products on the market, not the 
ones that they could get donated, then we would see very 
different homes. And I think that really does drive design more 
than any of us would like to admit. Fundraising was an enormous 
obstacle.
    What will happen to our house after? It has come back to 
the CU campus where it will be used for outreach and education 
for the next eight months. And then it will go to Prospect New 
Town in Longmont, Colorado, which will be its final location. 
It will be engaged in a long-term instrumentation and 
monitoring effort by the National Renewable Energy Lab, and 
then it will eventually be sold. Someone will actually live in 
this house. For some people touring the house, they thought 
that that was quite incredible, but it will be occupied.
    Mr. Honda. And just a quick question for all of you.
    I noticed in the photos that the solar panels that are used 
appeared to be the old style where it is all fixed and it is 
pretty heavy. Has any thought or any access to some of the new 
photovoltaic plastics and other kinds of materials--were they 
available? Or were they even considered, in the area of nano?
    Mr. Moorer. Right. No, there were no schools that were 
using what we would call nanotechnology, if that is where you 
were going with that particular question, but we did have some 
schools that were using thin film technology, which there are 
some companies out there that are manufacturing it. It does 
look promising, on a cost basis. Right now, there is an 
interesting situation in the photovoltaic market where there is 
a shortage of silicon. Basically crystalline silicon is the 
workhorse of this industry today. And as a result of that, with 
conventional, typical PV systems, the prices have gone up, 
supplies are a little tight, and you are seeing some of these 
other technologies make it into the marketplace, and yes, a few 
schools did try those technologies.
    Chairwoman Biggert. Thank you.
    The gentleman from Maryland, Mr. Bartlett.
    Mr. Bartlett. Oh, thank you very much.
    Let me first ask a follow-up question about the silicon. 
The thin film, is there any limitation in materials for making 
the thin film?
    Mr. Moorer. No, sir, I don't believe so. We view rather 
tremendous potential for PV, and there are, of course, more 
than one type of thin film, but there should not be an issue 
with that.
    Mr. Bartlett. So the only thing limiting our production 
there is our manufacturing capacity?
    Mr. Moorer. Manufacturing capacity and other barriers that 
face the entire PV industry. Certainly cost is a big factor, 
but things like reliability, manufacturability, and efficiency 
of the system; these are all important factors.
    Mr. Bartlett. The silicon now is down to something less 
than $5 a watt retail. Where are we with the thin film? Are we 
competitive?
    Mr. Moorer. Yes. Excuse me. They are in the same range at 
this point. Yes.
    Mr. Bartlett. Yeah. Thin film is not quite so efficient so 
you need a bigger surface?
    Mr. Moorer. Well, when you are talking about something like 
cadmium, that is not too far--they are not too far apart at 
this point.
    Mr. Bartlett. Yeah. But the fact that they are not as 
efficient per square foot really doesn't matter. We have a big 
globe with lots of room for putting solar. The fact that it is 
not quite as efficient I don't think is an impediment to going 
that way.
    I am sorry I couldn't be here for your testimony, but I did 
visit your exhibits on the Mall with considerable interest, 
because in a former life, I was a homebuilder, and most of the 
homes I built were passive solar homes. I live in a passive 
solar home. I have a--really more than one building, several 
dwellings that are totally off the grid, isolated, and the--
beyond the grid in the mountains of West Virginia, so I have a 
lot of experience with solar.
    Your projects were, I think, more important than you and 
your students realized, if, indeed, the world is facing the 
phenomenon called ``peak oil.'' Most of the energy used in our 
society is used in buildings. We are focused more on 
transportation, because that is where the big threat is with 
oil, but there is enormous capabilities--potential for reducing 
energy use in buildings. And what you all are doing with your 
programs year after year is very helpful in familiarizing the 
American people. And what you are doing with--is just plain 
fun, the challenge of making these things with this technology, 
I am sure, challenges your students. And I saw the large number 
of people who went there.
    I just wanted to thank you for doing this. In the years to 
come, all of these things that you are now pioneering are going 
to become increasingly popular and prominent in the homes that 
we are building, because as we run down the other side of 
Hubbard's Peak, there is going to be an ever greater and 
greater demand for having comfortable homes using less and less 
energy. And you are contributing to that, and I want to thank 
you very much for doing that.
    Chairwoman Biggert. The gentleman yields back.
    The gentleman from Illinois, Mr. Lipinski, is recognized.
    Mr. Lipinski. Thank you, Madame Chairman.
    I want to echo the comments of my colleagues in thanking 
you for the work that you have done. It is really critical for 
us, and I think back to when I was in eighth grade, for eighth 
grade science fair projects, so it was 26 years ago, I did a 
solar-powered radio. Back in the '70s, there seemed to be a big 
emphasis, coming off of, I think, the first big oil crisis. 
There seemed to big--be a big emphasis then on renewable 
energy, especially solar energy.
    Today, my question really is it is great to see everything 
that you have done in the Solar Decathlon and what can be done, 
but where are we really with moving forward with really 
starting to see these implemented on a large-scale basis? I 
know that some of this is done to a lesser extent, some of the 
more simple solar, such as the passive solar homes, are done, 
but what is the next step? Where do you see this going? Do you 
see this taking off? And what does it need? What kind of 
incentives do people need in order to start using more of this? 
Is it really feasible in terms of the cost to do this, to start 
putting these--to start seeing more of this in individuals' 
homes?
    So that is a big question, but I sort of want to--that is 
where I come down to you. You know, it is great to see this. 
Where are we going? And are we going to see this in the near 
future?
    Whoever wants to start.
    Mr. Moorer.
    Mr. Moorer. I just might point out that some of the 
witnesses made reference to the importance of various policy 
drivers such as tax policy, and I would say certainly, with the 
recent passage and signing of the Energy Policy Act of 2005, 
that certainly has some important provisions in it to help this 
industry out, and that is a key piece of the puzzle.
    Clearly advancing the research and development is key as 
well, and we see a lot of potential there to continue driving 
the cost down. The systems are not in widespread use now for a 
number of reasons, alluded to earlier, but cost certainly is a 
huge factor in seeing a broader use of the technology. But that 
is something that has come down quite dramatically in the last 
several decades and continues to drop as we continue to work on 
the technology.
    Mr. Lipinski. Okay. How much further do we have to go in 
order to--is there any sense of how many--how long it is going 
to take? I know for each different--there are so many different 
aspects of each of these homes, but what do you see being sort 
of the first widespread usage? Which aspect of these homes?
    Mr. Schieren. Well, I would speak to, just briefly, the 
solar. Let us talk about the solar panels and the use of solar. 
We are from New York, and specifically Long Island. The Long 
Island Power Authority, one of our main supporters, offers 
incentives. In fact, they buy back about--buy down about half 
the cost. They share about half the cost of an installation. 
With that incentive, the payback is usually 10 years. So there 
is a large up-front investment, but the payback is 10 years. 
And with rising energy prices, many people are interested. So 
growth rates are rather good. And in fact, in the charter 
today's--for the--today's hearing, it says, I think PV 
shipments are so--are increasing about 35 percent a year. So it 
is growing quite fast. States that offer incentives, utilities 
that offer incentives are experiencing very high demand. So I 
think growth is there right now.
    Mr. Knowles. I would just like to reinforce that point, as 
an architect in the northeast. Just personally, most New 
England States, New York included, offer very generous 
incentives: half price, basically, whether it is a direct grant 
or a tax incentive to pay for half of the system. But each 
state has different rules, and this is what I added in my 
testimony to answer the questions. And I think the Federal 
Government could either advertise or streamline those rules to 
make the accessibility to the public much easier. For instance, 
in New York State, there is a large organization and difficult 
to penetrate. In Rhode Island, it is actually a small and very 
generous fund that is available that helped us out. So I think 
the Federal Government would have a role in sort of merging 
these programs nationwide in advertising that these are 
available to the public. And then I think it will take off.
    Mr. Lipinski. Okay. Anyone else want to----
    Mr. Schubert. I would think that, in addition to economic 
incentives, we need more good examples of how these 
technologies are integrated that do not require a radical 
departure from individuals' lifestyles, things that are 
reliable, transparent to the user, and that their designed from 
the ground up, not designed in such a way where they are just 
applied as an afterthought.
    Mr. Lipinski. It would seem to me that--you had mentioned 
about people who came and saw these were very interested. When 
they go home, are they really going to have--where are they 
going to find out more? Or what--do you really see them taking 
another step? Where does that take? It seems like these are not 
things that--they probably look at it and say, ``Oh, that is 
really cool,'' but that is not practical, because they don't 
see it anywhere else besides, you know, out in the special 
project like this.
    Mr. Schubert. Well, I think--we stressed conservation above 
and beyond anything else. And I think what people saw there on 
the Mall, they got motivated and excited, and the first thing 
that we would tell them to do is to go back and invest in 
conservation. And then, once they had done that, then the 
additional technologies might make sense for them to do. But I 
think it is through this excitement factor you get them 
motivated to, you know, pay attention to what they are 
currently doing, how their existing housing stock can be 
improved. And there is a wide range of strategies. But--and 
with a glimpse of what it could be, it helps to, you know, go 
back and look at what they do have and then kind of bring that 
along.
    Mr. Lipinski. Do we have time for Mr. Moorer?
    Mr. Moorer. I just wanted to add the fact that in this 
year's competition, getting to your point, Congressman, we 
actually had an expo running concurrently with the Decathlon so 
that, just to your point, if someone came in and got excited 
about the technologies, we could arm them with information and 
point them to a place where they could actually talk to 
manufacturers and installers right there, not too far away from 
the site of the Decathlon, to take it further, if they were 
personally interested.
    Mr. Lipinski. I thank all of you for your work on this.
    Chairwoman Biggert. Thank you.
    I have just a couple of other questions, I--if other 
Members would like to, also.
    Just a couple things. We are talking about solar, and all I 
can think of is, you know, that you have got the sun coming in, 
and a lot of you showed how you would be--the windows were set 
back so that you wouldn't get the hot sun in the summer, but 
then there are some that used the sun for--the winter sun. All 
I can think of is my fabrics, and you know--if you don't have 
the E-glass or whatever, but it also, you know, warms the 
house, but it is--how do you deal with that? Just have a very 
modern house with furniture that doesn't fade in the--either 
the summer or the winter? I mean, that--maybe that is a woman's 
thing, but it is a--or a decorator.
    Nobody wants to tackle that? Do we have----
    Mr. Knowles. No, it is--I will take a stab.
    Chairwoman Biggert. Okay.
    Mr. Knowles. We never--we intended to actually have some 
curtains in front of our large face--large south-facing glass 
wall. That glass wall actually completely disappeared. It 
pivoted open so the whole inside and outside were connected, 
but we never, you know--with time, never got to that sort of--
that very simple, talk about conservation strategy, just robust 
curtains on the south windows that, you know, cuts the energy 
coming into the--very simple means.
    Chairwoman Biggert. But that really isn't what I wanted to 
ask, but just talking about the transportation, it seemed like 
that was a real project, and the houses really had to be built 
to fit the size of a transport, or, you know, even though it 
might be in pieces, it still is limiting for this contest. And 
what was it? Eight hundred square feet, about? Was that the 
maximum?
    How, then, would this--the type of houses that you built be 
used as a model for--you know, for a home that really is--would 
be a normal-sized, comparable to the average single family 
home? Would there be any changes from what you have designed?
    Mr. Lyng. That is--that question is, I think, very on point 
with the 800-square foot limitation. I think that is something 
that we all battled with. And certainly transporting the homes 
is no small task, getting them from Spain or Puerto Rico. Who--
they are not here, but they could tell you what a difficulty 
that was. I think many of the members of the public that toured 
the homes could envision that they would be bigger, that you 
could add another bedroom or perhaps a detached garage. The 
NAHB, according to the NAHB, the average size of a new home 
purchase in the United States is now 2,200 square feet, so we 
are well under that with 800 square feet. For some families, 
that could be a problem. But it was my experience that members 
of the public saw the homes as a model and saw how it--they 
could be expanded in size.
    Chairwoman Biggert. After looking at a lot of the houses, I 
would say that the majority of them are very scaleable and that 
they were dealt with in a modular way so that they could be 
expanded. And when you think about the energy production 
components on the buildings themselves and you look at the base 
energy loads of the building, they are not that far off from 
the energy loads that you would see in a conventional house. So 
I think the--you would still have the same size, maybe a little 
bit larger in terms of the energy collection components, so it 
is just that there is some flexibility in terms of how the 
spaces could be added to.
    Mr. Moorer, what we face in this committee a lot is how we 
get from the basic science to the application and then to the 
commercialization of what is coming out of our national labs 
or, you know, the basic research. How would you compare the 
Decathlon's benefits to technology transfer versus the other 
means the Department uses to push the energy technologies into 
the mainstream market?
    Mr. Moorer. Well, I think it depends on what part of the 
spectrum we are talking about, because you articulated it very 
well: it runs from basic research all of the way to a 
commercial product. I like to think of it as from an idea all 
of the way to a product in the marketplace, and I think you 
apply different tools all along the way. And I think this 
particular competition is a good mechanism to use in this part 
of the spectrum, if you will. Generally speaking, the students, 
for the most part, the schools are using what I will call off-
the-shelf technology, but they do employ some innovative 
technologies, and I would say that, in that context, they are 
doing a good job of showing how one might be able to integrate 
these technologies. And tech transfer, you know, I think you 
can argue about what do we mean when we say technology 
transfer. We have major cost-shared efforts with industry where 
one might say, ``Well, that is a form of technology transfer,'' 
but that is much more related to research, pure research and 
development, where here it is more about outreach, if you will, 
and some of the goals that I alluded to, trying to introduce 
these technologies to people that are at the very beginning of 
their careers and making choices. And so I think it is very 
effective in the space that we use it in.
    Chairwoman Biggert. Thank you. Thank you.
    Mr. Honda, do you have any----
    Mr. Honda. Yes.
    Chairwoman Biggert. You are recognized. The----
    Mr. Honda. Thank you, Madame Chair.
    Chairwoman Biggert.--gentleman is recognized.
    Mr. Honda. Thank you, Madame Chair.
    And I guess that that is what Mr. Lyng was sort of eluding 
to that if they had cash versus in-kind, you know, they may be 
able to apply more of the up-front technologies that may exist 
out there, or may even, you know, just transfer some of that 
technology to the housing. And maybe the Department of Energy 
can look at a cash pot that the students can apply for rather 
than going for, you know, in-kind kinds of help.
    My question is kind of a follow-up to the Chairperson's 
question.
    Sections 917 of the Energy Policy Act of 2005, there is a 
provision that originated in this committee to establish a 
number of advanced energy efficiency transfer centers around 
the country to accomplish much of what the decathlon does in 
Washington and then more. Are you familiar with this bill? And 
if you are, what problems or opportunities do you see in 
implementing this provision?
    Mr. Moorer. I am sorry, sir. I am not familiar with that 
particular provision.
    Mr. Honda. Okay.
    Mr. Moorer. I will say this. It may not be a surprise that 
my particular office has a rather large share of the provisions 
that were provided in the Energy Policy Act, and we, right now, 
are in the business of analyzing all of the provisions that 
have been made available to us and, in fact, are making some 
decisions about how to go forward on a number of those.
    Mr. Honda. There may be a response. You are right there.
    Mr. Moorer. Yes, it is one of the provisions that is 
subject to appropriations. We do have a number of provisions in 
this new law and of course the law came along after we had 
submitted our 2006 budget request.
    Mr. Honda. Right.
    Mr. Moorer.--request, so the--it is not there now, and like 
I said, we are looking----
    Mr. Honda. Right.
    Mr. Moorer.--at all of those provisions to decide what we 
might ask for in subsequent budget requests.
    Mr. Honda. And then--so having said that, it is gearing up 
for the appropriations, because it has been authorized, I 
imagine, to the universities and to the proponents and 
students. You may want to dedicate, next year, of working 
towards making sure that there is an appropriation to the tech 
transfer and then see how some of these appropriations can be 
allocated towards the decathlon and its use, because it is 
highlighting this whole arena of alternative energy uses. And I 
suspect that a lot of your technology and a lot of your ideas 
can be used by groups like FEMA where there are over 173,000 
folks who are displaced from their homes that can use, not only 
temporary housing, but modular housing that you may be able to 
come up with that will take advantage of solar power and take 
them--make them part of the grid rather than just be dependent 
upon the grid.
    So that would be a recommendation and suggestion you may 
want to look at. You know, it is just me, you know, talking, 
but you know, there may be some cash there.
    Chairwoman Biggert. Mr. Lyng, in his testimony, talked 
about--or a quote from Richard Nixon in 1973, which I think is 
very apropos, that says, ``Let us set as our national goal, in 
the spirit of Apollo, with the determination of the Manhattan 
Project, that by the end of this decade we will have developed 
the potential to meet our own energy needs without depending 
upon any foreign energy source.'' Well, he didn't--we haven't 
made it with that decade, but I think that this committee is 
very committed to really reduce dramatically our dependence on 
foreign energy sources and are working on all different types. 
You know, we have talked about the hydrogen car, nuclear 
energy, solar, hydro, and I think that we appreciate how you 
are contributing to being able to reduce our dependency and 
appreciate all of you for participating in this.
    I would love to have all of the graduate students that are 
here stand up so we can take a good look at you, if you would, 
please. And undergraduates. Oh, I didn't mean to say just 
graduate students. I am sorry. All of the--so we congratulate 
all of you for what you have accomplished, and we--I wanted to 
see your faces, because I know we will be probably seeing more 
of you in the years that come as you develop the energy sources 
that we need. And thank you for all that you have done.
    And I would like to thank the panelists for testifying 
before the Subcommittee today.
    If there is no objection, the record will remain open for 
additional statements from the Members and for answers to any 
follow-up questions the Subcommittee may ask the panelists.
    Without objection, so ordered.
    And this hearing is now adjourned.
    [Whereupon, at 3:20 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Richard F. Moorer, Deputy Assistant Secretary for 
        Technology Development, Office of Energy Efficiency and 
        Renewable Energy, U.S. Department of Energy

Questions submitted by Chairman Judy Biggert

Q1.  You mention in your testimony that the American Institute of 
Architects (AIA) is a sponsor of the Decathlon. What commitment, if 
any, has the AIA given the Department of Energy (DOE) to educate AIA 
members on the issues associated with the utilization of the designs 
employed in the structures, the technologies used and the conservation 
measures employed by the students?

A1. The AIA, through its sponsorship of the Solar Decathlon, has helped 
educate its members on solar and energy efficiency issues. The AIA uses 
its Committee on the Environment, whose purpose is to advance and 
disseminate environmental knowledge and values, to advocate the best 
design practices for solar and energy efficiency building integration. 
The Association was a contributor to the Decathlon's outreach to 
industry professionals such as architects, engineers, builders and 
other trades who were invited to come down to the Solar Decathlon 
village and learn about cutting edge building and solar technologies. 
The AIA also gave its members Solar Decathlon coverage in its 
publications leading up to and during the event.

Q2.  What outreach, outside of the Decathlon, has DOE undertaken to 
educate the builder-developer community on the utilization of the 
technologies and conservation measures demonstrated at the Decathlon? 
What has been the response from the community? Do you have indications 
that you are making real inroads into this community, especially with 
respect to reducing perceived risks of using new technology, or are you 
mainly communicating with those whose philosophies agree with the DOE?

A2. The Department is working with the Nation's home builders to 
implement renewable and conservation technologies under the 
Department's Zero Energy Home effort. The builder-developer community 
has been interested in adopting and installing several technologies 
utilized in the Solar Decathlon, such as photovoltaics, energy recovery 
ventilation, and solar water heating technologies. The Department's 
recent outreach efforts have improved communication with the builder-
developer community and resulted in an increase in their understanding 
and acceptance of solar building technologies. In fact, in 2004, home 
builders utilized renewable and conservation technologies on more than 
300 zero energy homes across the Nation, as well as on thousands of 
conventionally-powered homes, across the Nation.

Q3.  You say in your testimony that you are attempting to use the 
Decathlon to communicate the benefits of these technologies to a wider 
audience. What other audiences are you attempting to reach and how are 
you doing it?

A3. The Solar Decathlon appeals to a wide range of audiences, including 
builders, students, architects, and the general public. This year, more 
than 120,000 people visited the Solar Decathlon during its ten days on 
the National Mall in Washington.
    The outreach activities carried out by the Department of Energy and 
its private sector Solar Decathlon partners succeeded in attracting 
widespread interest in the competition. The 2005 Decathlon offered 
visitors a variety of ways to learn about energy efficiency and 
renewable energy technologies, including publications, exhibits, 
workshops and tours. In addition, the competition included specially 
designed programs for builders and students.
    Finally, the extensive media coverage of the 2005 Solar Decathlon 
in newspapers, magazines, television and on the Web has helped inform 
people about energy efficiency and renewable energy technologies that 
are available for use in residential housing.

Q4.  What is solar energy's relative piece of the energy research pie? 
How does DOE form long-term plans to direct investments in this area?

A4. The Department of Energy is spending a combined total of 
approximately $1.5 billion in FY 2006 on applied energy research and 
development (R&D) programs in the Office of Energy Efficiency and 
Renewable Energy, the Office of Electricity, the Office of Nuclear 
Energy, and the Office of Fossil Energy. (This estimate was calculated 
by combining program-level funding data and includes deployment 
activities sponsored by each program classified as an R&D program. It 
excludes program direction.) Of that amount, $83.1 million in FY 2006 
is for Solar Energy Technologies. In FY 2007, we propose a substantial 
increase in spending on Solar Energy Technologies to $148 million.
    The Solar Energy Technologies Program's Multi-Year Program Plan 
guides long-term investments in solar research. The plan was developed 
through a collaborative effort of many experts in the solar energy 
field and has been reviewed by industry. A public version of the 2007-
2011 plan is scheduled for release in 2006.
    In general, the Solar Program develops its long-term investments 
by: 1) identifying key market segments for solar technologies; 2) 
determining market and technical barriers; 3) developing pathways to 
overcome or reduce such barriers; and 4) defining technical targets to 
track program progress.

Q5.  Section 917 of the Energy Policy Act of 2005 is a provision that 
originated in this committee to establish a number of Advanced Energy 
Efficiency Transfer Centers around the country to accomplish much of 
what the Decathlon does in Washington and more. Are you familiar with 
this provision the bill? If so, what problems or opportunities do you 
see in implementing this provision? Do you know if DOE is planning to 
request funding for this program in the President's Budget Request for 
FY 2007?

A5. I am familiar with Section 917 of the Energy Policy Act of 2005 
(EPAct). The Department stands ready to establish a network of Advanced 
Energy Efficiency Transfer Centers in the event that funds are 
appropriated by Congress for such a purpose.
    The FY 2007 budget is under development. We are currently 
considering the issues and opportunities associated with promoting 
greater use of energy efficiency technologies by consumers.
                   Answers to Post-Hearing Questions
Responses by Robert P. Schubert, Professor and Team Faculty 
        Coordinator, College of Architecture and Urban Studies, 
        Virginia Polytechnic Institute

Questions submitted by Representative Michael M. Honda

Q1.  Do the ten criteria used to judge the Decathlon seem to be 
reasonable? Do you have any suggested modifications to the criteria to 
make the competition a more ``real-world'' experience?

A1. For the most part, the ten criteria provide a reasonable metric for 
the evaluation of a complex set of issues related to the subjective/
objective performance of the Solar Decathlon projects. While we have 
seen the criteria of evaluation evolve from the previous competition in 
2002, we feel there is one area that still needs significant 
improvement, contest element nine, ``Energy Balance.'' To be more 
representative of a ``real-world'' situation, a grid-intertie system 
would be strongly recommended. Upon completion of the 2002 Solar 
Decathlon competition, this was suggested to the organizers as a more 
effective means of representing how a building would operate within the 
context of a neighborhood. As it stands, the houses are being evaluated 
as a series of autonomous buildings independent of any benefits of 
being interconnected to a utility network. The current energy balance 
evaluation of the houses is more representative of an isolated beach 
house or mountain cabin where there would be no other means of 
supplying power. The majority of U.S. population is located within 
reach of a local utility network allowing the benefits of 
interconnection for a grid-intertie system to be realized for a 
renewable energy system. This would allow costly batteries to be either 
eliminated or significantly reduced. This would also allow the Solar 
Decathlon projects to operate thorough any type of weather condition 
experienced during the event without necessitating shutting the houses 
down as was experienced during this last competition. The Virginia Tech 
team felt this sent the wrong message to the public while the houses 
were operating during this long period of inclement weather. A better 
approach would be to interconnect each house to an on-site local 
utility network where each house would be independently metered to 
measure the amount of energy either supplied or withdrawn from the 
grid. We recognize that while providing a simple metric of performance 
for energy balance, it would necessitate more on-site preparation and 
associated costs for DOE. We feel strongly that whatever the cost, it 
would be worth sending the correct message to the public that renewable 
energy systems are reliable and that reasonable contingencies can be 
taken during inclement weather.
    If for some reason a Solar Decathlon grid-intertie system cannot be 
reasonably implemented on the National Mall, and battery storage seems 
to be the only solution, a penalty should be applied for those 
competitors who use more energy than they generate during the duration 
of the competition.

Q2.  Based on what you know about the Department of Energy's (DOE) 
energy efficiency and renewable energy programs, what changes should 
DOE make to its programs to provide the knowledge and support you need 
to be an effective advocate for the technologies and design 
philosophies you have used?

A2. 

        <bullet>  Increase visibility and awareness of renewable energy 
        systems and conservation strategies above and beyond what is 
        currently being done.

        <bullet>  Special linkages should be made with university 
        programs--architecture, industrial design, landscape 
        architecture, mechanical and electrical engineering--to offer 
        special summer courses for high school students interested in 
        studying at the university. The course content should include 
        energy issues within the context of solar energy.

        <bullet>  Increase public awareness by creating a National 
        Awards Program for solar design.

        <bullet>  Provide design assistance through regional centers 
        that promote the use of solar energy (similar to agricultural 
        extension programs) working in conjunction with state energy 
        offices.

        <bullet>  Promote a residential based LEED assessment (LEED-H) 
        currently under development by the U.S. Green Building Council.

        <bullet>  Develop continuing education programs working with 
        professional organizations such as the American Institute for 
        Architects.

Q3.  What are the biggest barriers to the utilization of the design 
philosophies, energy production technologies and conservation 
techniques facing the architectural and builder-developer communities? 
How do you overcome the perception of risk in utilizing new techniques 
and technologies?

A3. 

        <bullet>  One challenge is the negative public image of solar 
        technology as something that is ugly, unreliable and costly. 
        The integration of the technology within new and existing 
        construction as achieved by talented designers should be 
        promoted.

        <bullet>  Large scale builders and the building industry in 
        general are conservative and unwilling to change a model that 
        has been financially successful. The building industry needs to 
        anticipate better changing energy markets and consumer 
        preference for efficiency. A program designed to link large 
        manufacturers of housing and research universities involved in 
        solar energy research should be explored.

        <bullet>  Issues of energy efficiency without compromise to 
        quality of life should be promoted in concert with solar 
        energy. The Virginia Tech house established a very compact, 
        efficient plan that offered a psychologically expansive space.

        <bullet>  Risk can be overcome by presenting to the public 
        instances of solar technologies that does not compromise 
        expected life styles. The Solar Decathlon holds this promise. 
        Perhaps a longer term exposition should be established at 
        another site highlighting the best houses of the competition 
        and allowing for a more rigorous testing and evaluation period.

Q4.  To the extent that you are familiar with building codes and 
standards around the country, generally how much of a barrier do you 
believe current codes and standards are on the development of the 
concepts and technologies you have used in your houses?

A4. Largely, we do not see building codes and standards as a major 
impediment to the deployment of renewable energy sources. However, 
codes and standards could be used to encourage and promote more 
widespread use of these technologies. Public apprehension, weak 
precedent, and lack of demand are the greater barriers.

        <bullet>  The most prominent model building energy standards 
        (International Energy Conservation Code (IECC) and the Model 
        Energy Code (MEC) ) that are the basis for most local and State 
        codes give little attention to solar technologies, especially 
        how solar and energy efficiency can work together.

        <bullet>  ENERGY STAR and Green Building (e.g., LEED) 
        certification protocols go beyond these basic codes, as do 
        several custom State and local codes such as those in 
        California (revised Title 24), Florida, Oregon, and Washington, 
        and in Davis (CA), Boulder (CO), and Austin (TX). Still, even 
        these innovative codes and standards need to integrate better 
        efficiency standards and solar technologies for maximum cost-
        effectiveness.

Q5.  What are your perspectives on the future of solar energy research? 
Is the Federal Government providing sufficient support to feed the 
research workforce? If not, what are budding energy researchers doing 
upon graduation?

A5. The Federal Government needs to increase its support for solar 
energy research and application. Further incentives need to be 
established to break the inertia of the status quo. Installing solar 
energy equipment is seen as a financial and technical risk. Support in 
the form of tax incentives, credits, low interest loans, and utility 
credits beyond those provided in the 2005 Energy Policy Act are 
necessary to mitigate public apprehension.
                   Answers to Post-Hearing Questions
Responses by Jeffrey R. Lyng, Graduate Student and Team Project 
        Manager, Civil, Environmental, and Architectural Engineering, 
        University of Colorado

Questions submitted by Representative Michael M. Honda

Q1.  Do the ten criteria used to judge the Decathlon seem to be 
reasonable? Do you have any suggested modifications to the criteria to 
make the competition a more ``real-world'' experience?

A1. Most of the Solar Decathlon (SD) contests are relevant and 
necessary to flush out superior elements of design. However, one 
important reality that the ten contests do no address is life-cycle 
cost. An accurate accounting of the construction, operation and 
maintenance costs associated with each project would elucidate the 
``real-world'' potential of each team's design. I firmly advocate for 
the creation of a ``Life-Cycle Cost'' contest in which teams compete 
for the overall least cost. The economic viability of Zero Energy Homes 
(ZEH) is a question that remains central to the public's interest and 
one which the SD must seek to answer.

Q2.  Based on what you know about the Department of Energy's (DOE) 
energy efficiency and renewable energy programs, what changes should 
DOE make to its programs to provide the knowledge and support you need 
to be an effective advocate for the technologies and design 
philosophies you have used?

A2. The DOE Building America (BA) program is an invaluable resource 
which has not been leveraged by the SD competition. A partnership 
between BA teams and local SD teams holds great potential toward ZEH 
designs that appeal to the general public. The BA program should serve 
as a springboard of basic building science knowledge from which SD 
teams incorporate their own innovation and ingenuity to ZEH design. 
Working in this manner, SD teams will benefit from the knowledge and 
experience of BA professionals, while BA teams stand to benefit from 
the creativity and fresh perspective of working with SD teams.

Q3.  What are the biggest barriers to the utilization of the design 
philosophies, energy production technologies and conservation 
techniques facing the architectural and builder-developer communities? 
How do you overcome the perception of risk in utilizing new techniques 
and technologies?

A3. It has been my experience from interaction with custom, semi-custom 
and production builders in Colorado that the greatest perceived risk 
associated with energy efficiency and renewable energy technologies is 
higher capital costs. Internalizing the external environmental costs of 
standard and alternative building methods is the only way to truly 
evaluate their viability. Simple payback period affords neither a 
complete nor truly objective means for comparison, yet it remains a 
metric commonly referenced. A ``Life-Cycle Contest'' in the SD 
competition is a real and tangible step toward the true economic 
comparison of standard and alternative building practices.

Q4.  To the extent that you are familiar with building codes and 
standards around the country, generally how much of a barrier do you 
believe current codes and standards are to the deployment of the 
concepts and technologies you have used in your houses?

A4. The only product used in the CU Bio-S(h)IP which required testing 
and verification were the bio-base structural insulated panels, or Bio-
SIPs. For example, the entire solar electric array used UL-listed 
equipment and was installed as per the National Electric Code (NEC). 
The Colorado Division of Housing deemed the CU Bio-S(h)IP a site-built 
manufactured home, thereby obligating the CU team to a self-inspection 
process.
    Many of the products used in the CU SD entry are common building 
materials, therefore current building codes and standards pose 
relatively modest challenges to the widespread deployment of the Bio-
S(h)IP concept. The Bio-S(h)IP will be permanently located in Longmont, 
CO were it currently meets local building codes and standards.

Q5.  What are your perspectives on the future of solar energy research? 
Is the Federal Government providing sufficient support to feed the 
research workforce? If not, what are budding energy researchers doing 
upon graduation?

A5. Recent budget cuts to the National Renewable Energy Laboratory 
(NREL) in Golden, CO leave me with a bleak perspective on the future of 
solar energy research. This example is strong evidence that the Federal 
Government is not doing enough to support a renewable energy research 
workforce.
    Students of renewable energy are drawn by an insatiable desire to 
affect positive environmental change. They are not attracted to the 
field by research assistantships or other incentives. In fact, few such 
opportunities exist. Many of my colleagues are unable to find 
competitive employment in the renewable energy field and must 
compromise with more traditional jobs within architecture and 
engineering. A discouragingly few high quality professional jobs exist 
in the renewable energy today in the U.S.
                   Answers to Post-Hearing Questions
Responses by Jonathan R. Knowles, Professor and Team Faculty Advisor, 
        Department of Architecture, Rhode Island School of Design

Questions submitted by Representative Michael M. Honda

Q1.  Do the ten criteria used to judge the Decathlon seem to be 
reasonable? Do you have any suggested modifications to the criteria to 
make the competition a more ``real-world'' experience?

A1. The majority of contests make sense but a couple of criticisms come 
to mind concerning the electric car and the timing of the event. First, 
the ``Getting Around'' contest is incompatible with the ``Energy 
Balance'' contest. To run the car sacrifices the performance of the 
house, as power needs to be diverted from one task to the other. This 
is especially detrimental to the teams that are trying to be efficient 
and frugal by having the least amount of photovoltaic panels and 
batteries. The teams that won the electric car contest lost the energy 
balance contest yet they had the most photovoltaic panels. The electric 
car contest demands a large solar array not necessary for the operation 
of an 800 square foot house. We support the idea of hooking up the 
houses to a temporary ``grid'' to measure any access energy available 
once the other competition requirements have been satisfied.
    Second, the timing of the event has two flaws: none of the 
decathlon submissions fit into the academic calendar and there was not 
enough time to test the house once assembled in Washington, D.C. Each 
submittal was due in the middle of the semester or in the middle of the 
summer, which made it difficult to plan the course work necessary to 
complete the requirements. The submittals should revolve around the 
academic calendar and not vice versa. Also, the contest should be held 
before school starts--the last week of August and the first weeks in 
September. Students need to keep up with their course work during and 
after the competition but a mid-semester timeframe does not help. 
Finally, an extra week should be added to the competition to allow the 
``bugs'' to be worked out before the houses are open to the public. 
This would have the added benefit of allowing teams to tour the houses 
and to learn about each other's work.
    Though not specifically asked, we would like to suggest that the 
Department of Energy raise the caliber of judges and the forums for the 
juries. In general, the judges were neither interesting nor enlightened 
and the award presentations were too brief to be meaningful. As our 
students are designing housing using state-of-the-art technologies, the 
best in the field should be available to evaluate (and have the time) 
to discuss the projects in detail. Better juries will elevate the 
debate and will attract more participation.

Q2.  Based on what you know about the Department of Energy's (DOE) 
energy efficiency and renewable energy programs, what changes should 
DOE make to its programs to provide the knowledge and support you need 
to be an effective advocate for the technologies and design 
philosophies you have used?

A2. Specifically, the DOE could do a better job advertising the event, 
both to the general public and to prospective competitors and they need 
to follow up on the tremendous efforts given by the students. There are 
three simple solutions, all of which require more financial backing by 
the DOE: promote the teams that have competed in the past by inviting 
them on a nationwide lecture circuit, publish the competition in book 
form for national release, and embed the competition within inter-
school conferences, such as the Association of Collegiate Schools of 
Architecture (ACSA). A small group of the 2005 Decathlon teams are 
currently working on this last point within the academic community but 
the DOE should be spearheading this effort.

Q3.  What are the biggest barriers to the utilization of the design 
philosophies, energy production technologies and conservation 
techniques facing the architectural and builder-developer communities? 
How do you overcome the perception of risk in utilizing new techniques 
and technologies?

A3. The biggest barriers are cultural inertia and education. We did not 
invent the technologies that we used with RISD Solar; our innovation 
was their combination and integration. Everything we used is available 
in the marketplace. However, the United States does not promote solar 
technologies, which are currently expensive relative to fossil fuels. 
As long as the United States subsidizes the use of fossil fuels, the 
solar industry will not be a viable option for the architect or client. 
If this scenario were reversed, there would be a boom in the market 
that would reduce these costs and begin to move the Nation towards 
energy independence. All is needed is a little push from the Federal 
Government. Finally, good design eliminates risk. Most of the housing 
industry does not employ architects or engineers nor adheres to strict 
energy standards. If these practices were national requirements as 
practiced in Europe, risk would be averted because professionals would 
back up their systems. Good sustainable design requires more analysis, 
a design process that includes a knowledgeable team and project 
commissioning. The nature of the discipline is to be more comprehensive 
and therefore more reliable than the standard mode of practice. In 
designing our house, we were careful to make our systems as low-tech as 
possible. The more sophisticated our design, the less complicated was 
its operation, which is a sign of good engineering.

Q4.  To the extent that you are familiar with building codes and 
standards around the country, generally how much of a barrier do you 
believe current codes and standards are to the deployment of the 
concepts and technologies you have used in your houses?

A4. Speaking as an Architect from the Northeast, I have not encountered 
any barriers when dealing with building codes or standards. I have 
encountered barriers within the organizations charged with promoting 
and funding solar energy because of Byzantine application processes. As 
I stated in my testimony to Congress, most New England States offer 
very generous incentives, through direct grants or tax incentives to 
offset the cost of photovoltaic systems. But each State has different 
rules. The Federal Government, through the DOE, could advertise these 
rules to make accessibility to design professionals easier. The Federal 
Government could also adopt these same programs into a nationwide PV 
strategy.

Q5.  What are your perspectives on the future of solar energy research? 
Is the Federal Government providing sufficient support to feed the 
research workforce? If not, where are budding energy researchers doing 
upon graduation?

A5. The 2005 Solar Decathlon project allowed over 100 students at the 
Rhode Island School of Design and Brown University to understand the 
principles of sustainable design and the benefits of integrated 
building systems. The students will take this expertise with them as 
they enter the profession and begin to influence clients and 
contractors. For this reason, RISD is planning to compete again in 
2009. The 2005 Solar Decathlon has also inspired our team to begin 
planning a not-for-profit research institute to coordinate all work 
relating to the development of a sustainable environment on campus, 
within Rhode Island and beyond. The Federal Government should promote 
this type of institutional investment wherever and whenever possible. 
Our institute will seek funding for projects in urban design, material 
science, building system integration, emergency relief shelters, and 
renewable energy. The idea is to cross breed these topics to create 
friction and inspire innovation. Eventually, it is our hope to be self-
sufficient by developing and selling intellectual property, whether 
ideas or products. Early governmental support would make all the 
difference to capture the momentum already established on campus.
                   Answers to Post-Hearing Questions
Responses by David G. Schieren, Graduate Student and Energy Team 
        Leader, Energy Management, New York Institute of Technology

Questions submitted by Representative Michael M. Honda

Q1.  Do the ten criteria used to judge the Decathlon seem to be 
reasonable? Do you have any suggested modifications to the criteria to 
make the competition a more ``real-world'' experience?

A1. In general, the ten contests used to judge the Decathlon seem 
reasonable. Should there be modifications to make the competition a 
more ``real-world'' experience? First, the purpose of the competition 
should be defined. The purpose largely seems to be to drive system wide 
energy benefits by getting the public to use energy efficiency and 
sustainable design strategies and clean energy generation. The student 
built homes should epitomize such qualities and serve as benchmarks. 
The spinoffs of this competition are for people to ``feel and touch'' 
the technologies and strategies and then adopt them. Additionally, 
participants embrace what they learned and implement energy efficiency 
and renewable energy throughout their careers.
    The Solar Decathlon is, in this sense, a very practical 
demonstration competition in that the spinoffs can be realized in the 
near-term. The way the Decathlon is currently judged through the 10 
contests reflects this. They are practical contests and provide a 
``real-world'' experience.
    However, the NYIT team feels that there is perhaps another 
important component to the competition that is not accounted for 
adequately. The 10 contests used to judge the competition do not 
directly include a way to reward innovative energy systems. The high 
profile of this competition provides for an opportunity to engage in 
slightly riskier research and development that could have a very 
positive impact in the medium to long-term. For example, NYIT's home 
featured a solar-hydrogen energy system, the only one of its kind in 
the competition. Power from the photovoltaics is first sent to the 
house to cover the typical electrical loads. Surplus solar energy is 
then used to generate hydrogen gas, which is stored in tanks. When 
there is no sunlight, the fuel cell converts the hydrogen gas into 
electricity to supply the house loads. To the best of our knowledge, 
this is the first time a solar-hydrogen system has been integrated and 
demonstrated in a functioning house. NYIT knew that it would be at a 
competitive disadvantage relative other teams that relied on the 
traditional battery based energy storage system, because the current 
efficiency of the hydrogen system is lower.
    With significant research and development, the hydrogen home will 
one day be superior to a solar home that uses batteries for energy 
storage. Hydrogen gas is a versatile fuel that can be used throughout a 
home to cook food, heat water, generate electricity and even power 
efficient fuel cell vehicles.
    The Solar Decathlon gave us the platform to pursue this important 
technology. Partners were excited to work with us because it was such a 
high profile competition, thus providing the right type of venue to 
conduct technology application research. These experiences have 
contributed to our belief that innovation in energy systems design 
should be rewarded in this competition.

Q2.  Based on what you know about the Department of Energy's (DOE) 
energy efficiency and renewable energy programs, what changes should 
DOE make to its programs to provide the knowledge and support you need 
to be an effective advocate for the technologies and design 
philosophies you have used?

A2. The Department of Energy's (DOE) energy efficiency and renewable 
energy (EERE) programs engage in very important work that does assist 
us in our efforts to be effective advocates for the technologies and 
design philosophies we used in the Solar Decathlon. It is apparent that 
the purpose of the EERE programs is to advance clean and renewable 
energy technologies directly through R&D and through education, 
materials, outreach and various other methods. The NYIT team is 
reluctant to pass judgment about the utility of the current programs 
without more complete information to conduct a proper cost/benefit 
analysis of the existing programs, and the alternative opportunities to 
allocate resources.
    What can be said is that we have directly benefited from the EERE 
programs.

Solar Decathlon, Student Projects, and Demonstrations

    First, the NYIT team has benefited enormously from participating in 
the Solar Decathlon, a DOE/NREL competition. Certainly just the 
opportunity to have first hand experience building energy efficient 
solar homes helped us learn a significant amount. Furthermore, the 
Solar Decathlon gave us the opportunity to interact with the public, 
government officials, industry and academia on clean energy, 
significant in refining our knowledge and cultivating our advocacy 
skills. There were also direct benefits from working with NREL.
    Therefore, we support continued and increased support of the Solar 
Decathlon. Additionally, NYIT supports the expansion of programs aimed 
at the application of new strategies and technologies, and we find 
student projects to be particularly effective. At our school, the 
Decathlon impacted over 50 students and faculty, in addition to 
countless friends, family partners and supporters. The students will 
grow to become future leaders in the building and energy fields. The 
multiplier effect causes affiliated people to consider energy 
efficiency and clean energy generation. Publicity brings even wider 
attention. We would support increased efforts to get students and 
academic programs involved. We would support increased investment in 
demonstration projects where the technologies that EERE funds are used. 
We would also support the EERE seeking feedback from students and the 
people who design and install the technologies.

Clean Energy Products

    A number of companies that we have worked with have been or 
currently are involved with EERE research programs. Here we have 
benefited from improved products

Information

    Furthermore, we have benefited from the abundant information and 
educational materials made available from the energy efficiency and 
renewable energy programs. The team has and continues to acquire vital 
information and knowledge through the vast materials available on the 
website.
    The DOE's EERE website is a very valuable tool for communicating 
the results and information gained from the various programs and we 
support the continued development of this resource. Brochures, reports 
and other materials made available on the site are also very valuable. 
This will help us become better advocates.

Hydrogen

    All decision-makers are faced with a scarcity of resources, and we 
respect that the DOE must make rational and difficult budget choices 
based on cost/benefit analyses and a variety of other factors.
    EERE programs span a diverse range of technologies and this seems a 
smart way to both encourage growth and mitigate risk.
    Because the NYIT project involved a Solar-Hydrogen system, we are 
particularly interested in and have specific knowledge of the Hydrogen, 
Fuel Cells and Infrastructure Technologies Program. This program 
follows the general EERE lead in that it invests in a wide array of 
technologies, basic research and outreach.
    A suggestion might be to concentrate funding on renewable and clean 
ways to generate hydrogen. There is currently an effort to focus on 
reforming fossil fuels for hydrogen gas. We respect the vital role that 
fossil fuels have played in economic expansion and improved standards 
of living. We also respect that fossil fuels will continue to play a 
major role in our energy system. Even fossil fuel reforming systems are 
important in the development of the hydrogen economy. Since reformation 
is currently a less expensive method to generate hydrogen, it is more 
feasible near-term way to increase usage of fuel cell technology both 
in the stationary and transportation sectors.
    However, we are more interested in the long-term. Consider a future 
of true energy independence, free of pollution and greenhouse gases. 
This path involves removing fossil fuels from the equation and we would 
implore the EERE programs to concentrate efforts on this.
    The first Portfolio Priority listed in the Mission section of the 
EERE website states: PRIORITY 1: Dramatically Reduce or Even End 
Dependence on Foreign Oil. Our country can achieve this, and we will 
continue to look to EERE programs to help lead the way.

Q3.  What are the biggest barriers to the utilization of the design 
philosophies, energy production technologies and conservation 
techniques facing the architectural and builder-developer communities? 
How do you overcome the perception of risk in utilizing new techniques 
and technologies?

A3. There are several barriers to the utilization of efficient design 
philosophies, clean energy production technologies and conservation 
techniques facing the architectural and builder-developer communities.
    One major barrier is that trades people (i.e., engineering, 
plumbing, concrete/masonry) lack the training to implement energy 
efficient technologies and strategies. The experienced people in the 
field receive the majority of current business and training programs 
should be promoted to them. There are certainly training programs 
available, but often times it is costly and the benefits are not 
adequately marketed. We are familiar with people who take 
``sabbaticals'' from their professions and invest a significant sum to 
gain the requisite training to become Energy Star qualified builders. 
This requires substantial risk and is preventing others from this 
important pursuit.
    Additionally, clean energy technologies often require collaboration 
between multiple trades. Consider a solar hot water production and 
radiant heating system that requires the coordination of solar 
specialists, plumbers, masonry, etc. to design and install. This 
example highlights the need to develop collaboration training.
    Continuing with this logic, it would make sense to widen and deepen 
trade association outreach. Trade associations are powerful advocates 
and could have broad efficacy in this regard.
    The argument in support of training holds not just for experience 
professionals, but also for students and new entrants. The point is 
that training the people who do the actual design and installation is 
an integral piece of the puzzle and should be addressed. Trained and 
educated professionals are more likely to utilize new technologies.
    There are many ways to overcome the perception of risk in utilizing 
new techniques and technologies. One way is to invest in high profile 
demonstration projects (e.g. Solar Decathlon) so that people can become 
familiar with the technology. Our experience is that many people are 
now interested in the systems used in the NYIT Solar Decathlon house, 
even though it is still considered new and somewhat risky. 
Demonstration projects should be further supported and expanded.

Q4.  To the extent that you are familiar with building codes and 
standards around the country, generally how much of a barrier do you 
believe current codes and standards are to the deployment of the 
concepts and technologies you have used in your houses?

A4. There are many codes and standards that govern the siting and usage 
of hydrogen gas. The NYIT team went to great lengths to ensure that our 
hydrogen house was up to code and could be sited on the National Mall. 
In one sense, it is very good to undergo a rigorous safety review. 
However, it is well known that there must be further convergence of 
hydrogen codes and standards. This is already a major priority for the 
DOE, DOT, other governmental agencies and private organizations.
    Beyond convergence of codes and standards, we would like to see a 
regulatory approach the puts hydrogen on a level playing field with 
other fuels, such as gasoline, natural gas and propane. These are 
different fuels and can require different handling. Nevertheless, 
efforts should be made to level the playing field.
    This is one of the largest impediments to the growth of the 
hydrogen economy. We think it is a critical issue to address and 
therefore support dedicating significant resources towards the effort.

Q5.  What are your perspectives on the future of solar energy research? 
Is the Federal Government providing sufficient support to feed the 
research workforce? If not, where are budding energy researchers doing 
upon graduation?

A5. We think that the Federal Government should provide increased 
support for solar energy research. It is unfortunate that the U.S. lost 
its dominance in solar energy technology to other countries. Solar 
energy has truly great potential, and can have a dramatic and positive 
impact on the U.S. economy, national security and environment. It seems 
we are under investing in a technology that is so vital. According to 
the DOE's EERE website, spending on photovoltaic research in FY 2004 
was approximately $75 million. We would like to see a greater research 
investment so that the U.S. can take a role in driving the next 
generation of change in photovoltaic technology.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record




   Statement of the University of Maryland 2005 Solar Decathlon Team

To: Chairman Biggert and the House Subcommittee on Energy

From: The University of Maryland 2005 Solar Decathlon Team

Date: November 2, 2005

About Our House

    The 2005 University Maryland Solar Decathlon Team is a 
multidisciplinary team of undergraduate and graduate students in the A. 
James Clark School of Engineering, the School of Architecture, Planning 
and Preservation, and various other University schools. Our team is 
cumulatively 100 students. In the 2005 competition, we received 8th 
place over all, but more importantly we received the BP Solar People's 
Choice Award. We were voted the best house by visitors who came to the 
National Mall.
    Our home meets all Maryland State and Montgomery County housing 
code. It was designed this way so the beneficiary of our house after 
the competition would have a fully-functional and up-to-inspection 
home. Our house was donated to a non-profit community farm in 
Germantown, Maryland. Red Wiggler Farm (www.redwiggler.org) is a 
framework for adults with developmental disability to learn the 
importance of self-sufficiency. The Maryland house will be used as 
staff housing. Currently, it is temporarily seated at Red Wiggler farm 
awaiting its foundation.

Home Features

The photovoltaic and electrical system
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <bullet>  51 BP Solar 4175 panels in two panel series sets. 
        Each can generate up to 175 watts of electricity. On a sunny 
        day, our array is capable of generating 8,750 watts of 
        electricity.

        <bullet>  Three OutBack Power Systems PSPV PV combiners. Each 
        PSPV can handle 12 strings of solar panels (our panels are in 
        series of two, so each combiner handles 24 PV panels).

        <bullet>  Three OutBack Power Systems MX60 charge controllers. 
        Each MX60 is rated for 60 amps of DC output current and can be 
        used with battery systems ranging from 12 to 60 volts. Also 
        important, our charge controllers were Maximum Power Point 
        Tracking (MPPT) charge controllers, meaning it is a more 
        efficient charge controller than most.

        <bullet>  40 East Penn Deka 8L16 batteries, each rated to hold 
        370 amp-hours at six volts (a typical car battery is rated for 
        12 volts, and usually holds 40 amp-hours of electricity). These 
        batteries where arranged in five parallel sets of eight 
        batteries in series to create a 48 volt array (six volts per 
        battery 8=48 volt system. 370 AH/string * 5 strings = 1850 AH). 
        This system allowed us to maintain power during the rainy week.

        <bullet>  OutBack Power Systems PSDC DC Disconnect. For safety, 
        homes with PV power systems are required to have a main 
        disconnect that separates the PV system from the rest of the 
        home's electrical system.

        <bullet>  Four OutBack Power FX3648 Inverters. The inverter 
        takes in DC electricity and makes it into AC electricity. Each 
        inverter takes in 48 volts DC, outputs 120 volts AC at 30 amps 
        continuously, and can handle 3600 watts continuously. We 
        connected them in a series-parallel connection to have a 
        possible 240 Volts and 100 Amps of service.

        <bullet>  The AC Disconnect is where the AC electricity created 
        by the inverters travels into the house. When the home moves to 
        Red Wiggler Community Farm, it will have a connection to the 
        electrical grid also.

Solar Hot Water

        <bullet>  Apricus water heating tubes provide hot water for the 
        house, including the hot water for the radiant floor. The tubes 
        absorb the sun's heat in an insulating layer of air-evacuated 
        glass. While the outside of the tubes are cool, the inside the 
        tubes can exceed 300<SUP>+</SUP>F. The tubes reduce the need 
        for an electric or gas water heater. Our system includes the 
        capacity to heat water with stored electrical power when there 
        is insufficient sunlight.

Plumbing
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <bullet>  Aquatherm Fusiotherm polypropylene pipes. This piping 
        system consists of green polypropylene pipes and fittings that 
        are fused together with heat. This process yields a seamless 
        piping system with no joints to crack or break under fatigue. 
        Polypropylene is also more environmentally-friendly than 
        comparable home piping technologies. The most widely used pipes 
        in homes today are made of PVC, which is a slightly flexible, 
        white plastic. The manufacture of PVC involves many additive 
        chemicals used to stabilize the PVC, including heavy metals 
        such as lead, cadmium, barium, and zinc. The installation of 
        PVC piping also requires the use of toxic glues and primers. To 
        install Fusiotherm piping, a heating tool is used to heat the 
        pipe and fitting where the pipe is going to be inserted. This 
        process takes approximately two minutes. Next, the pipes are 
        joined together by hand and allowed to cool for approximately 
        one minute. The joint is now fused, and the pipes are now ready 
        for pressure. Fusiotherm fittings are available in a wide 
        variety of sizes and types, and can be custom manufactured if 
        needed. The pipes are certified for both hot and cold potable 
        water, and can be manufactured for both indoor and outdoor 
        used. Fusiotherm pipes have been in use for many years in 
        Europe, and were just recently certified for use in the United 
        States.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

Energy Recovery Ventilation

        <bullet>  Stirling Technologies UltimateAir RecoupAerator 200DX 
        ERV. This unit is the most energy-efficient and best-performing 
        ERV available on the market. ERV devices allow exchange of air 
        with the exterior, without losing heat or significantly 
        altering the interior humidity. The ERV exchanges stale, indoor 
        air for fresh, outdoor air while maintaining the home's 
        temperature and humidity levels.

Radiant Flooring System

        <bullet>  Warm water circulates through cross-linked 
        polyethylene tubes embedded in a thin, lightweight three inches 
        layer of gypsum concrete in the floor. Heat is conducted to the 
        concrete layer, and then transferred to the interior air by 
        conduction and convection. Because warm air rises, this is a 
        very efficient way to warm a house evenly without using forced 
        air which can be a large energy sink. In addition, the concrete 
        can hold and release heat over a longer period than wood (a 
        principle known as thermal inertia).

Fire Protection System

        <bullet>  Sprinkler system that meet Montgomery and Prince 
        George's County (both in Maryland) code. Montgomery County 
        requires that all new residential construction have sprinkler 
        systems, and we are the only house in the 2005 Solar Decathlon 
        that featured a fire protection system.

Natural Ventilation

        <bullet>  Window placement and open floor plan allow a cross-
        breeze to ventilate the house. The curve of the ceiling rises 
        toward the clerestory windows and allows rising warm air to be 
        vented out. The house creates a natural convection for cooling.

Insulation

        <bullet>  Our walls and floor are insulated with non-toxic spun 
        glass fiber. The exterior walls are framed six inches thick, 
        rather than the usual four inches. The R value for the walls is 
        23. Our windows are triple-glazed, argon filled, with an R 
        value nearly as high as the walls.

Learning Experience

    The 2005 Solar Decathlon could not have come at a more opportune 
time, when oil and gas prices are at record highs. Consumers are 
searching for alternatives to the traditional forms of energy for 
transportation and home maintenance to alleviate the stress on their 
bank accounts. There have been more hybrid-fueled vehicles on the road 
this year than any other. Additionally, because we as a society are 
becoming more environmentally conscious, alternative energy production 
methods are becoming more and more attractive.
    One major set back is cost in relation to the return on investment. 
Although solar energy is available now, it is not necessarily cost 
effective. For the solar panels on the Maryland house, each would cost 
consumers $1000 to produce, at a maximum, 175 Watts of power. There is 
also the cost for the inverter system and all the electrical systems. 
In order for a photovoltaic system to pay itself back, it might take up 
to 30 years, if not more. The payback time would, of course, depend on 
whether the solar power supply is being used to replace grid-supplied 
electricity--currently quite cheap--or natural gas, which is poised to 
become very expensive. The technology is not at a point that it is cost 
effective for everyday consumers and middle-class citizens to purchase 
them when renovating or building new homes. The most cost-effective 
systems featured in the 2005 Maryland house is the hot water tube 
system. A typical household spends 30 percent of its energy budget to 
heat water. The evacuated tubes are approximately 80 percent efficient 
(versus 12-15 percent for PV panels) and are nowhere near the cost of a 
PV system (less than $5,000 versus over $60,000).
    Important issues that consumers should consider are the cost of 
system in terms of dollars per watt or square foot. As part of the 
competition rules, our house was limited to 800 square feet. Since most 
home owners are not limited to such a small size, they could purchase 
less efficient PV systems than our house, but more of them. When making 
decisions on the Maryland house and the PV system we used, the watt per 
square feet ratio was much more important that the dollar per watt 
ratio. To alleviate costs, consumers can use solar systems as 
supplemental systems.
    In addition to hurdling the cost barrier, consumers must overcome 
the stigma that solar energy is too difficult to obtain and install, 
and hard to maintain. Solar energy needs more promotion and 
advertisement. We need to show the American public that alternative 
energy is available ``over-the-counter'' and is ``user-friendly.'' If 
the government promotes the use of alternative fueling in public arenas 
and environmentally-friendly building techniques, alternative energy 
will become a part of our everyday lives.
    The Solar Decathlon competition has been instrumental in promoting 
the availability and attractiveness of solar energy. We have received 
visits from politicians on Capital Hill, hundreds of news reporters, 
and most importantly, hundreds of thousands of everyday people who are 
either visiting the Washington D.C. area or live here and have heard 
about us. The tours that teams give to these visitors show that these 
display homes are no different than what they themselves live in. By 
connecting to the general public through this avenue, it is the best 
way to reach out to the public. Instead of lecturing to the public 
about why solar energy is ``good'' and how easy it is to access, we 
bring college students--each of whom are themselves a consumer--and 
their homes to show that it really is that easy. We are able to answer 
any questions on a personal level. The interactive aspect of this 
competition for the public is something that no other advertisement 
technique has.
    We have also had the pleasure of having children visit our homes. 
Many teachers in this area have learned about the competition and 
required students to visit the competition as an assignment. Elementary 
level students have come in groups on field trips. These students are 
the future. Showing them what solar and alternative energy is on an 
interactive level is something that no teacher or class session can 
provide.
    This competition is not just educational, it is also practical. Its 
objective is to bring solar energy to the public, and it has achieved 
that on many levels. Each team is required to submit information about 
the systems installed in their homes to the competition holders. These 
are then publicized on the Solar Decathlon web site. Additionally, 
having the ``communication'' and ``documentation'' categories of the 
Solar Decathlon judging requires teams, who wish to succeed, work to 
educate the public about alternative energy.
    On another level, many of the teams have worked with sponsors who 
are local contactors and builders. For the Maryland team, we have 
worked closely with the Whiting-Turner Contracting Company and have 
received donations from Clark Construction and the Lennar Company. 
These are large builders and contractors in the local region. By 
partnering with them, we are not only educating ourselves about the 
construction industry, we are also educating them the availability of 
solar energy and how it appeals to the public. Many students on our 
team have received job offers from these companies and will eventually 
work with them. Hopefully, the lessons learned from this project will 
continue to serve these students in their careers (not to mention their 
employers!).

Resources and Problems

    There are a variety of resources for building solar. To inspire our 
staff, many of the project managers visited shows and conferences 
across the country. We looked internally to the professors, teachers, 
and alumni first for help. From there, we were given contacts to 
outside contractors. Each step of the way, we learned and networked. 
Either we found the answer we wanted or we came a step closer to what 
we were looking for and found other sources.
    Some of the major problems with designing and constructing this 
house were in the planning, organization, and fundraising aspects. 
Because the students involved are learning every step of the way, 
mistakes are made left and right. It is difficult to predict the future 
with little or no experience in real world design and construction 
experience, let alone learn while doing so. Also, we found that 
although many companies are willing to donate services and materials, 
money is one of the most difficult donations to receive. It is also one 
of the most important elements of this project. It was surprising how 
fast the money was spent, and how slowly it came in. Also, many of us 
were frustrated by the discrepancy in the university support we 
expected and received. We expected that the Universities would promote 
this project just as much as their most profitable athletic games. 
However, few students knew about the project, when the competition was 
held, or where it was held. Additionally, we along with many other 
teams received little support and understanding from our professors. It 
was assumed that this was another school project. It was hard for 
professors to understand the breadth of what we took on. It would be 
helpful if participating Universities were required to become involved 
and partner with the Solar Decathlon Project. It not only promotes 
these Universities, alternative energy, but also will alleviate the 
stress on already overwhelmed students.

Attracting to Home Buyers

    The 2005 Maryland Solar House was one of the best-built homes in 
the competition in terms of craftsmanship and fit and finish. The 
quality of construction is impeccable and surpassed by very few of the 
other homes. There was a strict and high level of quality assurance 
during design and construction. The home was designed for lifting up 
and also forces coming down because it had to be transported. (Upward 
reinforcements are not necessary for homes that will not be 
transported.) The majority of the Maryland home is build from wood (60 
percent sustainably harvested). It is easy to manufacture with the 
expertise of a few carpenters. The home was also built using 
traditional stud-frame construction, allowing almost any builder or 
contractor to make it without learning new techniques, which sets it 
aside from other homes in the competition. However, the design has to 
be changed slightly for mass production. There are many aspects of this 
house that were custom constructed for the competition. For example, 
the footers and posts that hold up the house are not necessary for a 
mass produced home, which ideally would have a permanent foundation. 
However, because this house is built to have two levels, one for 
storage, it lends itself to an addition of a fully functional basement 
if desired.
    To alleviate costs on our house, home owners would not need the 
expensive battery bank used for the competition. The PV system would be 
grid-tied. Additionally, there would be no need for water tanks and 
other hardware used to simulate the city sewer and water. The Maryland 
system was oversized to make sure we were ready for any situation 
during the competition. Most consumers would not need to have this 
safeguard. For example, we would realistically only need two inverters 
and two charge controllers instead of four and three respectively.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Statement of the Virginia Tech 2005 Solar Decathlon Team

 Bright Ideas: Winning Teams and Innovative Technologies from the 2005 
                            Solar Decathlon

    (Testimony provided to the U.S. House of Representatives' Science 
Committee, Subcommittee on Energy on Wednesday, November 2, 2005 by 
Robert Schubert, Associate Dean for Research and Outreach, College of 
Architecture and Urban Studies, Virginia Tech accompanied by Robert 
Dunay, Chair, Industrial Design Program and Joseph Wheeler, Lead 
Faculty Advisor, Solar Decathlon Project.)

The Virginia Tech Solar House

    The Solar Decathlon of 2002 was an educational watershed 
challenging the relation between academia and practice and between 
research and its corresponding contribution to society. The knowledge 
derived from the 2002 competition has been integrated into the Virginia 
Tech house of 2005 to produce a work that combines innovative 
technology and daily life styles. This new project has achieved a high 
level of complexity expressed in an elegant simplicity. The initial 
theme of the art of integration has been realized through a design of a 
solar house that demonstrates a comfortable living and working 
environment, excellence in sustainable construction, and strong 
architectonic expression. The project presents forms that look to the 
future embodied with a sense of the sustainable and the beautiful.

Mission

    The mission of the Virginia Tech Solar Decathlon Team is to inform 
and educate the public about issues of energy (particularly solar) and 
to give students energy expertise through a design-build process of 
innovative research and testing through application.
    Our multi-disciplinary team strives to achieve the following goals:

        <bullet>  To illustrate how solar energy can improve the 
        quality of life. Solar energy is clean; it significantly 
        reduces pollutant emissions; and solar energy is renewable, 
        thereby increasing our nation's energy security.

        <bullet>  To make the public aware of how energy is used in 
        their daily lives, and to illustrate the energy consumption of 
        daily activities.

        <bullet>  To demonstrate that market-ready technologies exist 
        that can meet the energy requirements of our daily activities 
        by tapping into the sun's power.

        <bullet>  To demonstrate that sustainable materials and 
        technologies can comprise a beautiful structure in which to 
        live, work, and play.

        <bullet>  To examine a project in a prototypical manner to 
        develop solutions that can be reproduced and realized through 
        manufacturing techniques with economic benefit.

        <bullet>  To challenge conventional practice through 
        interdisciplinary collaboration and corporate partnerships.

Beginning of Oral Presentation of Questions to be Addressed in the 
                    Testimony

    Before we address the specific questions provided, we would like to 
acquaint you with some of aspects of our building produced for the 2005 
Solar Decathlon competition.
    The Virginia Tech Solar house integrates technology and 
architecture. The house achieved a balance between the two as reflected 
by winning the juried competition elements of Architecture, Dwelling, 
Daylighting and tying for first place in electric lighting.
    Some of the key features include:

        <bullet>  efficient plan--The house is comprised of a small 
        (580 sq. ft.) rectangular plan wrapped on three sides with a 
        translucent skin and covered with a hovering curved roof 
        inclined toward the sun.

        <bullet>  floating roof--The particular shape of the roof, a 
        lightweight stressed skin, folded-plate filled with foam 
        insulation, is designed to set the solar panels at an optimum 
        angle for energy collection and integrate the panels into the 
        roof form.

        <bullet>  north core module--A thick linear core defines a 
        massive north wall and houses the batteries, electrical and 
        mechanical equipment, and service functions such as the 
        kitchen, laundry, storage, and closets. Constructed of expanded 
        polystyrene panels that are lightweight, easily assembled, and 
        yield a high insulation value, this module could be 
        manufactured separately and utilized in many applications.

        <bullet>  translucent wall assembly--Two layers of aerogel 
        filled polycarbonate panels transmit beautiful diffuse light 
        while delivering an extremely high insulation value. There will 
        be no need for electric lights from sunrise to sunset.

        <bullet>  tunable walls--Between the polycarbonate panels are 
        three systems. A pair of reflective and absorptive motorized 
        shades allow user control of light and heat transmission; 
        linear actuated vents top and bottom provide ventilation for 
        further thermal control; and, dimmer controlled LED lights 
        allow the user to make the wall any color, no paint required.

        <bullet>  innovative engineered systems--our energy efficient 
        ground source heat pumps powered by the solar electric panels 
        provide environmental conditioning in the form of heating and 
        cooling while delivering heat through a radiant floor that 
        offers the best in terms of efficiency and quality. There is 
        little air noise or movement and the ambient temperature can be 
        kept lower saving energy.

        <bullet>  transportation--A lowboy chassis serving as the floor 
        and foundation structure was designed to receive a detachable 
        gooseneck and rear axels for transport. A truss on each side of 
        the 48-foot span resists deflection while in transit and 
        rotates down 90 degrees to create a deck surrounding the house 
        when stationary.

    In response to the specific questions:

1.  Some of the main technical and other barriers to greater use of 
solar energy are:

        <bullet>  Inertia of public perception towards the status quo

        <bullet>  Perception of increased complexity of new system vs. 
        conventional systems

        <bullet>  Conservatism of building industry and their adversity 
        to risk

        <bullet>  Cost--time of return on investment

        <bullet>  There are few new architectural ideas relative to new 
        technology.

Some suggestions for what might be done to overcome those barrier are:

        <bullet>  Increased incentives for solar installations such as 
        tax and mortgage incentives, low interest loans, and utility 
        credits

        <bullet>  Create a National Awards Program for solar design

        <bullet>  Encourage numerous and repetitive small-scale 
        applications

        <bullet>  Regional centers that promote the use of solar energy 
        (similar to agricultural extension programs) working in 
        conjunction with state energy offices

        <bullet>  Require utilities to generate a percentage of power 
        from solar energy

        <bullet>  Federal energy subsidies redirected to encourage a 
        higher percentage of renewable energy

        <bullet>  In addition to a week-long competition on the Mall, 
        re-create the solar village for a longer period in an Expo type 
        of forum.

The Solar Decathlon Competition is an effective means to seed the 
potentials of solar energy in the public consciousness.

        <bullet>  It touches people from all walks of life and from 
        diverse economic and social backgrounds. As witnessed in the 
        competition of 2002 and 2005, there is widespread and growing 
        public interest in solar energy. Integral with the competition, 
        all aspects of the house are considered with respect to 
        conservation of energy. Particularly the Virginia Tech house, 
        demonstration was made that a solar dwelling can offer a 
        desirable and rich lifestyle.

        <bullet>  Its competitive content activates top research 
        universities to further their research efforts and to draw 
        unique collaborations with industry. The competition allows 
        partnerships to be formed. Among many corporations, Virginia 
        Tech worked with GE Specialty Film and Sheet and Cabot 
        Corporation to produce a wall that delivers great light and 
        high insulation. Likewise, collaboration with California 
        Closets has the corporation, for the first time, building 
        cabinet prototypes from a Dow Chemical wheat board that is 
        sustainable and non detrimental to the environment.

2.  The Solar Decathlon of 2002 provided a wealth of information in our 
own experience of designing and building a house as well as observing 
the houses from other research institutions.

        <bullet>  Our 2005 house integrates the research from the 
        previous work and lessons learned from other houses.

        <bullet>  In addition to on campus expertise, a network of 
        manufacturers and professionals having ties to Virginia Tech 
        was used to develop and refine ideas.

        <bullet>  A student network researched a wide range of 
        materials, processes and technologies, some of which were 
        integrated into our design.

        <bullet>  The United States Green Building Council's (USGBC) 
        draft LEED Residential program provides us with an outline to 
        reduce indoor air pollutants, minimize global warming, reduce 
        waste, include recycled content, represent low embodied energy 
        in manufacture and harvest, limit destruction to habitat, and 
        rapidly renew.

Two of the problems we encountered were:

        <bullet>  An inordinate amount of time, energy and cost 
        associated with our transportation strategy

        <bullet>  Percentage of time utilized to raise in-kind 
        donations and extreme difficulty in raising cash contributions.

3.  Our house would be commercially viable:

        <bullet>  Placed within the context of commercially 
        manufactured housing.

        <bullet>  Winning the Architecture and Dwelling Awards in the 
        competition, the Virginia Tech house demonstrated its appeal to 
        a discriminating set of judges.

        <bullet>  The Virginia Tech Solar House offers various 
        possibilities for components that will conserve energy and 
        improve the quality of residential building.

    In conclusion, we would like to leave with this final thought:

    We approach a watershed. Our lifetime has experienced an increased 
dependence on technology. Almost every amenity we enjoy is dependent 
upon centralized systems whose working and control are far removed from 
localized areas. A short curtailment of services sends neighborhoods 
and regions into temporary states of chaos. In the recent case of 
hurricane damage, available supplies of gasoline could not be accessed 
due to lack of electrical service. Whether from natural disaster or 
terrorist threat, large-scale technologies have exposed growing risks. 
We must reduce the risk of widespread technological failure by 
providing alternative distributed power solutions and backing up 
centralized systems with grass roots capability of generating power. 
With continued support and research of solar energy, this vision is 
achievable for the next generation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
